United States Patent and Trademark Office
Performance and Accountability Report
Fiscal Year 2010
                                                          FINANCIAL HIGHLIGHTS
                                                                                                          % Change             September 30,             September 30,
                                   (Dollars in Thousands)
                                                                                                        2010 over 2009             2010                      2009

Fund Balance with Treasury                                                                          	          9.7%              $	 1,436,432              $ 1,309,807
Property, Plant, and Equipment, Net                                                                         (15.3%)              	     174,397                    205,802
Other Assets                                                                                                  2.3%               	      17,124                     16,731
	     Total Assets                                                                                            6.2%               $	 1,627,953              $ 1,532,340

Deferred Revenue                                                                                             (3.2%)              $	    774,388             $      800,256
Accounts Payable                                                                                            (22.3%)              	      70,114                     90,188
Accrued Payroll, Benefits, and Leave                                                                         13.8%               	     178,465                    156,756
Other Liabilities                                                                                             3.0%               	     112,681                    109,346
	     Total Liabilities                                                                                      (1.8%)              $	 1,135,648              $ 1,156,546
Net Position                                                                                                 31.0%               	     492,305                    375,794
Total Liabilities & Net Position                                                                              6.2%               $	 1,627,953              $ 1,532,340

Total Program Cost                                                                                            1.3%               $	 2,006,938              $ 1,981,940
Total Earned Revenue                                                                                          9.1%               	 (2,101,682)                  (1,927,130)
Net (Income)/Cost from Operations                                                                          (272.9%)              $	     (94,744)           $       54,810

Budgetary Resources Available for Spending                                                                    9.1%               $	 2,161,632              $	 1,981,204

Total (Collections)/Outlays, Net                                                                           (217.2%)              $	 (122,074)              $	     104,134

Federal Personnel                                                                                            (2.2%)              	        9,507            	        9,716

Disbursements by Electronic Funds Transfer (EFT)                                                                 —               	        99%              	         99%

On-Time Payments to Vendors                                                                                      —               	        96%              	         96%


                                                      PERFORMANCE HIGHLIGHTS
                                                                                                                                                           Performance
                                  Performance Measures                                                  FY 2010 Target         FY 2010 Actual
                                                                                                                                                             Results1
Patent Average First Action Pendency (months)                                                                  25.4                     25.7             Slightly Below
Patent Average Total Pendency (months)                                                                         34.8                     35.3             Slightly Below
Patent Final Rejection/Allowance Compliance Rate                                                             94.5%                    96.3%                       Met
Patent Non-Final In-Process Examination Compliance Rate                                                      94.0%                    94.9%                       Met
Patent Applications Filed Electronically                                                                     90.0%                    89.5%2             Slightly Below
Trademark Average First Action Pendency (months)                                                          2.5 to 3.5                     3.0                      Met
Trademark Average Total Pendency (months)                                                                      13.0                     10.5                      Met
Trademark Final Compliance Rate                                                                              97.0%                    96.8%3             Slightly Below
Trademark First Action Compliance Rate                                                                       95.5%                    96.6%                       Met
Trademark Applications Processed Electronically                                                              65.0%                    68.1%                       Met
Percentage of prioritized countries that have implemented at least 75% of action steps
in the country-specific action plans toward progress along following dimensions:
      1.   Institutional improvements of IP office administration for advancing IPR
                                                                                                             50.0%                    75.0%                       Met
      2.   Institutional improvements of IP enforcement entities
      3.   Improvements in IP laws and regulations
      4.   Establishment of government-to-government cooperative mechanisms
1	   The performance result of a given measure is either met (100 percent or greater of target), slightly below (95 to 99 percent of the target), or not met
     (below 95 percent of target).
2	   This is preliminary data and is expected to be final by December 2010 and will be reported in the fiscal year (FY) 2011 PAR.
3	   Within the target range of 97 percent considering the margin of error (+/- 0.6 percent).
                              T ab l e             O f        C o n t e n ts


Message from the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office (USPTO)	                                             3
Management’s Discussion and Analysis	                                                                          5
    Mission and Organization of the USPTO	                                                                     6
    Performance Goals and Results	                                                                            10
         USPTO Strategic Plan	                                                                                11
         Strategic Goal 1: Optimize Patent Quality and Timeliness	                                            13
         Strategic Goal 2: Optimize Trademark Quality and Timeliness	                                         21
         Strategic Goal 3: Provide Domestic and Global Leadership to Improve Intellectual Property Policy,
         Protection and Enforcement Worldwide	                                                                27
         Management Goal: Achieve Organizational Excellence	                                                  35
    Management Challenges and What’s Ahead	                                                                   39
    Accompanying Information on USPTO Performance	                                                            44
         Performance Audits and Evaluations	                                                                  44
    Management Assurances and Compliance with Laws and Regulations	                                           46
    Financial Discussion and Analysis	                                                                        50
Financial Section	                                                                                            63
    Message from the Chief Financial Officer	                                                                 64
    Principal Financial Statements and Related Notes	                                                         66
    Independent Auditors’ Report	                                                                             95
Other Accompanying Information	                                                                              107
    Inspector General’s Top Management Challenges Facing the USPTO	                                          108
    Improper Payments Information Act (IPIA) Reporting Details	                                              116
    Summary of Financial Statement Audit and Management Assurances	                                          118
    The Nature of the Training Provided to USPTO Examiners	                                                  119
    Measures that Have Been Either Discontinued or Changed Since the FY 2009 PAR	                            123
    Fiscal Year 2010 USPTO Workload Tables	                                                                  124
Glossary of Acronyms and Abbreviation List	                                                                  155



        Web address for the USPTO Performance and Accountability Report
                            http://www.uspto.gov/about/stratplan/ar/index.jsp




                                                ABOUT THIS REPORT

   The USPTO Performance and Accountability Report for FY 2010 provides a comprehensive
   summary of program and financial results and is structured to help the President, the Congress,
   and the American public assess our performance relative to our mission and accountability for
   our financial resources.
Under Secretary David Kappos and President of the National Inventors Hall of Fame (NIHF) Board of
Directors, Edward Gray presents the induction medal to Yvonne Brill, a pioneering rocket scientist
and 2010 inductee for the Dual Thrust level Monopropellant Spacecraft Propulsion System.
Message from the Under Secretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office (USPTO)


T
       he work of the United States Patent                                          With the likelihood that Fiscal Year (FY)
       and Trademark Office (USPTO) is                                              2011 will be a difficult year financially, we
       critically important to the economic                                         are focused on identifying solutions to put
well-being of the United States. Innovation                                         the Agency on solid financial footing.
drives investment, creates new jobs, and fuels                                      We will continue to work with the
economic growth. The USPTO is our nation’s                                          Administration, Congress, and our stake-
Innovation Agency.                                                                  holders to identify and implement solutions
                                                                                    for a sustainable funding model.
We are committed to fostering an intellec-
tual property system that allows American                                           We are confident that the USPTO’s financial
business, entrepreneurs, and innovators to                                          and performance data are complete,
prosper.   To achieve our objectives, the                                           reliable, accurate, and consistent as we
Agency recently completed the USPTO 2010-2015 Strategic          improve our ability to measure progress toward our perfor-
Plan. The plan details the key strategies and programs we’ll     mance goals. For the 18th consecutive year, we earned an
use to reach Agency goals.                                       unqualified audit opinion on our annual financial statements.
                                                                 For FY 2010 financial reporting, the independent auditors did
The USPTO team has already started implementation. In the        not identify any material weaknesses or instances of non-
past year, we’ve undertaken a series of initiatives to improve   compliance with laws and regulations.
the speed and quality of patent processing. We have re-engi-
neered our examiner count system. We are planning for and        The talent, creativity, and innovative spirit of the USPTO
implementing full end-to-end electronic patent and trademark     employees are producing positive results for the American
processing. We have hired a Chief Economist to develop our       people and our economy. I look forward to another produc-
understanding of the role of intellectual property in the        tive year, working with our employees and stakeholders to
economy. We are accelerating examination for green tech-         ensure that the USPTO drives innovation, creates jobs, and
nology innovations and working to find solutions that put        guarantees America’s competiveness.
examination priority in the hands of the applicants.


But even with all of this activity, the USPTO faces enormous
challenges in performing its mission. The Agency continues       David J. Kappos
to face operational challenges including an antiquated IT        Under Secretary of Commerce for Intellectual Property and
system, an increasing inflow of applications, and a large        Director of the United States Patent and Trademark Office
backlog.                                                         November 9, 2010




www.uspto.gov	                                                                                                                 3
         2009
Certificate of Excellence
Management's
Discussion and Analysis
Mission and Organization of the USPTO

           Mission
           Fostering innovation, competitiveness and economic growth, domestically and
           abroad by delivering high quality and timely examination of patent and trademark
           applications, guiding domestic and international intellectual property policy, and
           delivering intellectual property information and education worldwide, with a
           highly skilled, diverse workforce.



           T
                 he USPTO’s mission is anchored in Article I, Section 8, Clause 8, of the Constitution
                 “to promote the progress of science and useful arts, by securing for limited times to
                 authors and inventors the exclusive right to their respective writing and discoveries,”
           and the Commerce Clause of the Constitution (Article 1, Section 8, Clause 3) supporting the
           federal registration of trademarks.

           For most of the last century, the United States has been the clear leader in developing new
           technologies, products and entire industries that provide high-value jobs for Americans,
           enabling us to maintain our economic and technological leadership.

           As a part of the Department of Commerce, the USPTO is uniquely situated to support
           the accomplishment of the Department’s mission to create the conditions for economic
           growth and opportunity by promoting innovation, entrepreneurship, competitiveness,
           and stewardship.




             Under Secretary David Kappos and Deputy Under Secretary Sharon Barner greet Secretary of
             Commerce Gary Locke during his visit to the USPTO campus October 6, 2010.




                     6	              PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
6	                                  Performance and accountability Report: Fiscal Year 2010
                                                                               Mana g ement ’ s D iscussion and A nalysis




Our Organization
The USPTO is an agency of the United States within the           forth in the USPTO 2010-2015 Strategic Plan. The reorganiza-
Department of Commerce (DOC). The Agency is led by the           tion creates the Office of the Chief Communications Officer
Under Secretary of Commerce for Intellectual Property and        and Office of Equal Employment Opportunity and Diversity.
Director of the USPTO who consults with the Patent Public        The new offices, along with the Patent and Trademark Appeals
Advisory Committee and the Trademark Public Advisory             Boards, will report directly to the Under Secretary and Director,
Committee. The USPTO has two major organizations: Patents        as shown in the organization chart titled “Effective FY 2011.”
and Trademarks, as shown in the fiscal year (FY) 2010 organi-
zation chart below. Headquartered in Alexandria, Virginia, the   USPTO has revised the structure so that it can operate more
USPTO also has two storage facilities located in Virginia and    efficiently, communicate with the public in a more effective
Pennsylvania.                                                    and transparent manner, and enhance our ability to reduce
                                                                 patent pendency and bringing innovation to market sooner,
On October 1, 2010, USPTO reorganized its operational            while strengthening the appeal process, promoting a more
structure to strengthen the agency’s management, communica-      diverse workplace, and enhancing the agency’s critical commu-
tions and policy functions in accordance with the goals set      nications and outreach functions. The reorganization will not




www.uspto.gov	                                                                                                                  7
M anagement’s Discussion and Analysis




                                                                                increase the USPTO’s number of full-time employees or
                                                                                resource requirements, and the agency’s current facilities in
                                                                                Alexandria, VA, will accommodate the reorganization.

                                                                                The USPTO has evolved into a unique government agency.
                                                                                In 1991 – under the Omnibus Budget Reconciliation Act (OBRA)
                                                                                of 1990 – the USPTO became fully supported by user fees to
                                                                                fund its operations. In 1999, the American Inventors Protection
                                                                                Act established the USPTO as an agency with performance-
                                                                                based attributes; for example, a clear mission statement,
                                                                                measurable services and a performance measurement system,
                                                                                and known sources of funding.
     The Excellence in Government (EIG) Program team gathers at the
                                                                                As the clearinghouse for U.S. patent rights and registering
     USPTO for their initial meeting. The team will identify best practices
                                                                                trademarks, the USPTO is an important catalyst for U.S. eco-
     of private and public sector employment engagement and retention
                                                                                nomic growth as it plays a key role in fostering the innovation
     over the next year. Front row right to left: Acting Division Strategic
                                                                                that drives job creation, investment in new technology and
     Human Capital Chief Deborah Reynolds; Office of Human Resources
                                                                                economic recovery. Through the prompt granting of patents
     (OHR) Director Karen Karlinchak; Deputy Commissioner for
                                                                                and registering trademarks, the USPTO promotes the economic
     Patents Peggy Focarino. Back Row right from left: Cordella Chansler,
                                                                                vitality of American business, paving the way for investment,
     Partnership for Public Service; Omari Wooden, Department of
                                                                                research, scientific development, and the commercialization of
     Commerce; Stacy Boyd, National Science Foundation; and Anthony
                                                                                new inventions. The USPTO also promotes economic vitality
     Van Ess, Executive Office of the President; Rhonda Mayfield, OHR;
                                                                                by ensuring that only valid patent and trademark applications
     Dale Polley, OHR; Associate Commissioner for Patent Resources and
                                                                                are approved for granting, thus providing certainty that
     Planning Bo Bounkong.
                                                                                enhances competition in the marketplace.




8	                                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




The Patent organization examines patent applications to              Domestically, the USPTO provides technical advice and infor-
compare the scope of claimed subject matter to a large body          mation to executive branch agencies on intellectual property
of technological information to determine whether the claimed        (IP) matters and trade-related aspects of IP rights. Internationally,
invention is new, useful, and non-obvious. Patent examiners          the USPTO works with foreign governments to establish regu-
also provide answers on applications appealed to the Board of        latory and enforcement mechanisms that meet international
Patent Appeals and Interferences (BPAI), prepare initial memo-       obligations relating to the protection of IP.
randa for interference proceedings to determine priority of
invention, and prepare search reports and international pre-         The performance information presented in this report is the
liminary examination reports for international applications filed    joint effort of the Under Secretary’s Office, the Patent organiza-
under the Patent Cooperation Treaty (PCT). The patent process        tion, the Trademark organization, the Office of External Affairs,
includes performing an administrative review of newly filed          and the Office of the Chief Financial Officer.
applications, publishing pending applications, issuing patents
to successful applicants, and disseminating issued patents to
the public.
                                                                     Our People
The Trademark organization registers marks (trademarks,
service marks, certification marks, and collective membership        At the end of fiscal year (FY) 2010, the USPTO work force was
marks) that meet the requirements of the Trademark Act of            composed of 9,507 federal employees (including 6,225 patent
1946, as amended, and provides notice to the public and busi-        examiners, and 378 trademark examining attorneys).
nesses of the trademark rights claimed in the pending applica-
tions and existing registrations of others. The core process of
the Trademark organization is the examination of applications
for trademark registration. As part of that process, examining
attorneys make determinations of registrability under the provi-
sions of the Trademark Act, which includes searching the
electronic databases for any pending or registered marks that
are confusingly similar to the mark in a subject application,
preparing letters informing applicants of the attorney’s findings,
approving applications to be published for opposition, and
examining statements of use in applications filed under the
Intent-to-Use provisions of the Trademark Act.




www.uspto.gov	                                                                                                                          9
Performance Goals and Results

          Introduction to Performance

          T
                 his section provides the USPTO’s strategic and performance planning framework and
                 performance results. In FY 2010, the USPTO issued its 2010-2015 Strategic Plan that
                 is available at http://www.uspto.gov/about/stratplan/index.jsp. The strategic plan recog-
          nizes that innovation has become the principal driver of our modern economy by stimulating
          economic growth and creating high-paying jobs. America’s innovators rely on the U. S. patent
          and trademark systems to secure investment capital and to bring their products and services
          to the marketplace as soon as possible. Therefore, it is critical for America’s innovators to have
          a well-run USPTO.

          Our new strategic plan communicates agency priorities and directions, and serves as the foun-
          dation for programmatic and management functions. These priorities support the DOC’s
          theme of economic growth and goal of delivering the tools, systems, policies, and technolo-
          gies critical to transforming our economy, fostering U.S. competitiveness, and driving the
          development of new businesses.

          The strategic plan also includes a Balanced Scorecard which identifies the objectives, initia-
          tives, and performance measures associated with each strategic goal. This scorecard serves as
          a management tool for tracking progress in meeting each of our performance commitments.
          Most of the scorecard’s performance metrics were monitored internally for FY 2010. We will
          continue to publish the measures that have been historically reported externally.

          Following the presentation of the
          Strategic Planning Framework below,
          a summary table provides trend
          information on performance results
          within each strategic goal. This is
          followed by a more detailed discus-
          sion of our strategy and performance
          results, by strategic objective within
          each strategic goal. The performance
          measurement results data is presented
          at the end of each strategic goal’s
          discussion.

          Performance measures reported in
          last year’s PAR that are no longer
          tracked or reported are listed in the
          Accompanying Information on USPTO
          Performance section of this report.




10	                                   Performance and accountability Report: Fiscal Year 2010
                                                                                          Mana g ement ’ s D iscussion and A nalysis




                                                     2010-2015 Strategic Plan

                                                                 Mission
                 Fostering innovation, competitiveness and economic growth, domestically and abroad by
               delivering high quality and timely examination of patent and trademark applications, guiding
                domestic and international intellectual property policy, and delivering intellectual property
                    information and education worldwide, with a highly skilled, and diverse workforce.


                                                                  Vision
                          Leading the Nation and the World in Intellectual Property Protection and Policy.


      Strategic Goals with
                                                                                    Objectives
       Resources Invested
                                       Re-Engineer Patent Process to Increase Efficiencies and Strengthen Effectiveness

            GOAL 1:                    Increase Patent Application Examination Capacity
     Optimize Patent Quality
                                       Improve Patent Pendency and Quality by Increasing International Cooperation and Work Sharing
         and Timeliness
                                       Measure and Improve Patent Quality
           Obligations:
          $1,707 million               Improve Appeal and Post-Grant Processes

                                       Develop and Implement the Patent End-to-End Processing System

                                       Maintain Trademark First Action Pendency on Average between 2.5 – 3.5 Months
                                       with 13 Months Final Pendency

            GOAL 2:                    Continuously Monitor and Improve Trademark Quality
   Optimize Trademark Quality
         and Timeliness                Ensure Accuracy of Identifications of Goods and Services in Trademark Applications and Registrations

           Obligations:                Enhance Operations of Trademark Trial and Appeal Board (TTAB)
           $183 million
                                       Modernize IT System by Developing and Implementing the Trademark Next Generation IT System

                                       Develop a New Generation of Trademark Leaders

             GOAL 3:                   Provide Domestic Leadership on IP Policy Issues and Development of a National IP Strategy
   Provide Domestic and Global
Leadership to Improve Intellectual     Provide Leadership on International Policies for Improving the Protection and Enforcement of IP Rights
  Property Policy, Protection and
     Enforcement Worldwide

           Obligations:
           $49 million

                                       Improve IT Infrastructure and Tools
     MANAGEMENT GOAL:
     Achieve Organizational            Implement a Sustainable Funding Model for Operations
           Excellence
                                       Improve Employee and Stakeholder Relations




www.uspto.gov	                                                                                                                                11
M anagement’s Discussion and Analysis




Summary of Strategic Goal Results
The following table summarizes FY 2010 actual performance results against established goals and targets for each key performance
measure. The table also includes actual performance results for the past four fiscal years.


                     Strategic Goals                               FY 2006         FY 2007         FY 2008          FY 2009         FY 2010            FY 2010
                 Performance Measures                               Actual          Actual          Actual           Actual          Target             Actual
 GOAL 1: Optimize Patent Quality and Timeliness
 Average First Action Pendency                                        22.6            25.3            25.6             25.8            25.4               25.7
                                                                                                                                                      Slightly Below

 Average Total Pendency                                               31.1            31.9            32.2             34.6            34.8               35.3
                                                                                                                                                      Slightly Below

 Final Rejection/ Allowance Compliance Rate                           N/A             N/A              N/A           94.4%            94.5%              96.3%
                                                                                                                                                           Met

 Non-Final In-Process Examination Compliance Rate                     N/A             N/A              N/A           93.6%            94.0%              94.9%
                                                                                                                                                           Met

 Patent Applications Filed Electronically                            14.2%           49.3%           71.7%           82.4%            90.0%             89.5%*
                                                                                                                                                      Slightly Below

 GOAL 2: Optimize Trademark Quality and Timeliness
 Average First Action Pendency                                        4.8              2.9             3.0             2.7          2.5 to 3.5             3.0
                                                                                                                                                           Met

 Average Total Pendency                                               15.5            13.4            11.8             11.2            13.0               10.5
                                                                                                                                                           Met

 Final Compliance Rate                                                N/A             N/A              N/A           97.6%            97.0%            96.8%**
                                                                                                                                                      Slightly Below

 First Action Compliance Rate                                        95.7%           95.9%           95.8%           96.4%            95.5%              96.6%
                                                                                                                                                           Met

 Trademark Applications Processed Electronically                      N/A             N/A              N/A           62.0%            65.0%              68.1%
                                                                                                                                                           Met

 GOAL 3: Provide Domestic and Global Leadership to Improve Intellectual Property Policy, Protection and Enforcement Worldwide
 Percentage of prioritized countries that have                        N/A             N/A              N/A             NA             50.0%              75.0%
 implemented at least 75% of action steps in the                                                                                                           Met
 country-specific action plans toward progress along
 following dimensions:

 1. Institutional improvements of IP office
    administration for advancing IPR

 2. Institutional improvements of IP enforcement
    entities

 3. Improvements in IP laws and regulations

 4. Establishment of government-to-government
    cooperative mechanisms

 The performance result of a given measure is either    Met (100 percent or greater of target),    Slightly Below (95 to 99 percent of the target),
 or Not Met (below 95 percent of target).
 N/A: Denotes new FY 2010 performance measures where data was not available.
 *This is preliminary data and is expected to be final by December 2010 and will be reported in the fiscal year (FY) 2011 PAR.
 **Within the target range of 97% considering the margin of error (+/- 0.6%).



12	                                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                        Mana g ement ’ s D iscussion and A nalysis




Strategic Goal 1: Optimize Patent Quality and Timeliness


F
     Y 2010 was a remarkable year for the Patent organization.           Progress toward our goal of optimizing patent quality and
     Despite the continued effects of the economic downturn,             timeliness was accomplished by completing the following
     the Patent organization successfully launched new and               programs and objectives. We made significant progress towards
innovative initiatives to meet our strategic goals. Many of our          reducing the backlog and patent pendency, despite continued
routine programs, such as replacement hiring and funding                 funding and hiring challenges. The improvements and
workload-related contracts, were suspended due to budget                 increased efficiencies are seen in our performance metrics.
constraints. Yet our commitment to making progress focused               Our progress as measured in actions per disposal show a
on ways to be more efficient and effective in our business               downturn from 2.7 in FY 2009 to 2.42 in FY 2010. Productivity
processes, human capital management, policy, and managing                was up by 3.6 percent over the same time last year. The year’s
our workload.                                                            total production units were 522,407 versus 504,481 production
                                                                         units in FY 2009. Allowances have increased from 189,120 last
A market-driven approach to patent application processing was            year to 240,438 this year. Final rejections ended the year with
introduced and methods were devised for providing applicants             258,436 final rejections, compared to 238,497 for the same
more control over examination timing. We moved forward on                period in FY 2009. Interviews have increased approximately
refining optimal timeliness and patent quality measures, and             37 percent from last year.
recognized the ultimate solution will need to blend applicant
needs with efficient patent application processing.
The challenges of timely application processing are being met            OBJECTIVE 1: RE-ENGINEER PATENT PROCESS
by a combination of increasing examiner capacity, improving              TO INCREASE EFFICIENCIES AND STRENGTHEN
efficiency, and leveraging work sharing programs. A quality              EFFECTIVENESS
patent removes risks to patent holders and strengthens the
entire IP system.                                                        The Patent organization identified and implemented tools and
                                                                         policies that increased patent quality and timeliness. Efficiencies
                                                                         were found by redesigning systems and procedures so that
                                                                         redundant processes were removed. Our improved processes
                                                                         required a minimum of resources to complete patent prosecu-
                                                                         tion. A streamlined examination process was created to
                                                                         improve both patent quality and timeliness.

                                                                         The patent examiner production (count) system was analyzed
                                                                         and re-engineered to set the foundation for long-term pendency
                                                                         improvements, incentivize quality work, identification of
                                                                         allowable subject matter earlier in the examination, and
                                                                         encourage actions that decrease rework and increase examiner
                                                                         morale. This re-engineering effort was one of the most funda-
                                                                         mental changes to the 30 year-old examiner count system.
  Under Secretary David Kappos and Commissioner for Patents              Senior management and the Patent Office Professionals
  Robert Stoll joined the Supervisory Patent Examiners and Classifiers   Association (POPA) crafted a system that will result in better
  Organization’s (SPECO) and the Patent examiner corps to launch         examination rates and results.
  an initiative aimed at significantly reducing the backlog.




www.uspto.gov	                                                                                                                           13
M anagement’s Discussion and Analysis




Patent processing systems were closely studied to determine
where the improvements would provide the greatest increase
in efficiency or increase in examination capacity. A multi-track
application pathway introduced in FY 2010 gives applicants
control over prioritizing their applications, and assists patents
management in balancing workload. This approach is efficient
for both the applicant and patents management in that they
can now identify areas where increased examination capacity
may be required.

Two examination programs, the Green Technology Acceleration
Program and Project Exchange Program, were developed to
specifically give applicants greater control over examination
                                                                         USPTO patent employees received the Patent Innovation and
timing:
                                                                         Creativity Competition trophy for their creative ideas for improving
                                                                         the patent organizational and administrative process. From left to
●●   The Green Technology Acceleration Program allows
                                                                         right: Dave Ometz, Allen Parker, Lin Ye and Jason Chan.
     inventors with pending patent applications to be accorded
     special status and given expedited examination for
     applications directed to environmental and energy                Within the Compact Prosecution framework is the First Action
     conservation technologies. This program succeeded in             Interview Program (FAIP) designed to resolve issues and
     getting 71 vital green technology innovations to market          identify potentially allowable subject matter early in the exami-
     sooner with a 48.9 percent allowance rate.                       nation process. The FAIP encourages discussion between
                                                                      applicant and examiner prior to the First Office Action deter-
●●   The Project Exchange Program allows advancement of
                                                                      mination on the merits. This program was enhanced and
     applications out of turn in exchange for express abandonment
                                                                      expanded in FY 2010 to include select areas in all technologies.
     of another application. The Project Exchange enables
                                                                      The Office of Patent Training (OPT) provided examiner
     applicants to determine and prioritize their applications,
                                                                      interview training designed to improve examiner communica-
     thus freeing examiners from reviewing applications that are
                                                                      tion skills and encouraged examiners to hold interviews earlier
     no longer of value to their owners. The program was
                                                                      in prosecution. This training also encouraged interviews later
     intended for use by small entities, but was expanded to
                                                                      in prosecution to prevent unnecessary Requests for Continued
     include any and all applications.
                                                                      Examinations (RCE).
In addition to process efficiencies, the Patent organization
                                                                      The FAIP program was successfully offered to examiners.
focused on improving the examination workflow to increase
                                                                      These efforts resulted in a 32.3 percent first action allowance
the effectiveness of patent prosecution. The Compact
                                                                      rate, compared to an overall first action allowance rate of 15.5
Prosecution concept is a collection of changes in examination
                                                                      percent. The Patent Pendency Performance Measures are
practice and culture that encourages examiners to find the core
                                                                      presented in the Goal 1 Performance Measures section.
issues in a patent application and resolve them early in their
prosecution. Examiners may accomplish this by conducting a
                                                                      Changes to examination workflow included providing for how
complete initial search, issuing a complete first office action,
                                                                      the Patent organization works with customers to resolve issues.
and identifying allowable subject matter so as to expedite pros-
                                                                      The Ombudsman pilot program was launched to enhance the
ecution. Compact prosecution contains several elements such
                                                                      USPTO’s ability to assist applicants and/or their representatives
as implementation of specific training programs to improve
                                                                      with issues that arise during patent application prosecution.
after-final practices and final rejections. The results of this
                                                                      The program provides the applicant community with a
workflow improvement effort are seen in increased allowance
                                                                      dedicated resource to assist them when examination has stalled
rate and decrease actions per disposal.
                                                                      within normal channels of the Technology Center (TC).
                                                                      The Ombudsman representative will work with TC staff to
                                                                      address the concerns expressed by the applicant and/or their




14	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




representative to get the application “back on track”.              OBJECTIVE 3: IMPROVE PATENT PENDENCY
The Ombudsman pilot program is an important step forward            AND QUALITY BY INCREASING INTERNATIONAL
toward improving the quality and efficiency of patent               COOPERATION AND WORK-SHARING
examinations.
                                                                    The USPTO continues to develop relationships with the major
The Patent organization started a multi-year effort to re-engi-     IP offices to study, review, and implement work sharing efforts,
neer the entire patent examination process from the time an         such as Patent Prosecution Highway (PPH) and Strategic
application is filed all the way through to the granting of a       Handling of Applications for Rapid Examination (SHARE).
patent. This re-engineering effort will improve examination         Work sharing remains an important tool for speeding the
efficiency, timeliness, and quality by using automated processes    processing of applications filed in multiple jurisdictions by
and leveraging work sharing. This effort is paramount in order      enabling patent offices to avail themselves of work done by
to upgrade and redesign our information technology (IT)             other patent offices.
processing systems, and to allow innovative redesign of the
examination process supported by state-of-the-art automated         PPH leverages fast-track patent examination procedures
workflow capabilities. The Patent Efficiency Performance            available in participating offices to allow applicants to obtain
Measure is presented in the Goal 1 Performance Measures             corresponding patents faster and more efficiently. The USPTO
section.                                                            currently has bilateral agreements with twelve countries on
                                                                    Paris-route PPH filings. This year the USPTO added the
                                                                    Hungarian Patent Office and the Russian Federal Service for IP,
OBJECTIVE 2: INCREASE PATENT APPLICATION                            Patents and Trademarks (Rospatent) to the PPH Program, and
EXAMINATION CAPACITY                                                is in discussions with several other IP offices. The first PPH
                                                                    pilot started in July 2006. Today, 4,107 PPH applications have
Increasing examination capacity includes hiring more                been filed through September 2010; 2,130 applications were
examiners and providing training to make current examiners          filed in FY 2010 alone. The USPTO eliminated the PPH petition
more effective. While not the sole answer to decreasing             fee requirement on May 25, to reduce a potential barrier to
pendency and reducing the backlog, increasing our capacity          entry into the PPH program. The improvements to the PPH
by hiring examiners will make a significant impact on achieving     program have resulted in significant benefits and efficiencies
this goal. In FY 2010, the USPTO initiated a new hiring model       including:
that targets applicants with previous IP experience. Of the
total of 276 new hires, 98 included new hires with IP experi-       ●●   First action allowance rate for PPH applications (i.e., the
ence. The major benefits to hiring IP experienced hires are              rate at which an application is allowed the first time the
that they require less training time and they can begin                  examiner considers the merits of the claims) is approximately
examining applications quicker than non-IP hires. Additionally,          double the first action allowance rate for all applications;
we focused our attention on reducing attrition by improving
coaching and mentoring, resulting in the lowest attrition rate
                                                                    ●●   Overall allowance rate for PPH applications is about double
in recent years.                                                         the allowance rate for all applications;
                                                                    ●●   The number of actions per disposal for PPH applications is
In addition, our capacity can be greatly expanded by devel-              approximately 1.7 percent compared to 2.42 percent of all
oping a nationwide workforce. The nationwide workforce                   applications; and
model consists of examiners using telework from an off-site
                                                                    ●●   An observed reduction in the number of claims in PPH
location. The plan targets hiring experienced IP professionals
                                                                         applications of 15-20 percent compared to the number of
interested in joining the USPTO, but who do not want to
                                                                         claims that would have been examined in the same
relocate to the Washington, D.C. region. This model is expected
                                                                         application.
to result in a lower attrition rate and faster transition for new
examiners to become productive. A nationwide workforce will
                                                                    A new PPH pilot program was established that uses the PCT
reduce the need to expand the current location. The presence
                                                                    work products that can be leveraged to obtain participation in
of the USPTO will in turn expand our pool of examiner
candidates.




www.uspto.gov	                                                                                                                     15
M anagement’s Discussion and Analysis




                                                                          “freeform” work sharing is aimed at increasing efficiencies in
                                                                          examination by providing examiners with tangible examination
                                                                          results from that office. The pilot program between the USPTO
                                                                          and the KIPO was established to gather empirical data and test
                                                                          the feasibility of the SHARE concept continued until the fiscal
                                                                          year-end.

                                                                          Additionally, the five largest IP offices (the EPO, the JPO, the
                                                                          KIPO, China, and the USPTO) have formed a partnership to
                                                                          develop a collaborative IT structure, processes, and procedures
                                                                          for sharing information. The objective is to facilitate work
                                                                          sharing and information exchange by building a foundation for
                                                                          information and work exchange. Several meetings were held
                                                                          and critical accomplishments were achieved, including devel-
                                                                          oping high-level project plans and resource estimates for
  EPO, KIPO, and USPTO officials participate in the PCT Collaborative     2010-2011.
  Search and Examination Workshop to discuss the IP5 search and
  examination pilot.
                                                                          OBJECTIVE 4: MEASURE AND IMPROVE
                                                                          PATENT QUALITY
the PPH for a related national application. Pilots between the
Trilateral Offices (USPTO, European Patent Office (EPO), and              Patent quality translates into more certainty and economic
Japan Patent Office ( JPO)), and Korean IP Office (KIPO) have             value for patent holders. It also means less risk from infringe-
begun and by fiscal year-end 45,701 PCT-PPH applications                  ment and claims challenges. Our goal to improve the quality
were received. The USPTO is now working cooperatively with                of patents includes defining quality and the quality metrics.
the other offices and users to dramatically increase the usage            A joint Quality Task Force between the USPTO and the Patents
of the PPH in order to maximize its benefits.                             Public Advisory Committee was initiated to enhance the overall
                                                                          patent quality. Two roundtables were held in May to gather
Discussions with our trilateral partners were the basis for estab-        input on how to improve patent quality and how to define
lishing the SHARE agreements, which maximizes re-use                      metrics to measure progress. The patent quality improvements
between offices to minimize duplication of examinations.                  focuses, inter alia, on improving the process for obtaining the
When applications are filed in multiple offices, agencies priori-         best prior art, preparation of the initial application, and exami-
tize and balance workloads to maximize the re-use of foreign              nation and prosecution of the application.
search and examination results, and minimize duplication of
examination work done in other IP offices.                                In the interim, we changed our focus from end-process reviews
                                                                          to an emphasis on front-end quality. Reviews occur after the
Several new agreements or projects were developed this fiscal             first action on the merits, rather than after prosecution is
year with our trilateral partners. A SHARE agreement with                 completed. The purpose behind the standard is to highlight
United Kingdom Intellectual Property Office (UK-IPO) on                   those errors in examination that cause the applicant, or the
exchanging cross-filing information to identify potential                 USPTO, serious difficulties and/or unnecessary rework or
volumes, charting timing, exchanging quality assurance infor-             expense in the prosecution process. Our quality metrics show
mation, and identifying access tools was finalized in March.              good improvement. The final rejection/allowance compliance
The foundations for this project have been completed.                     rate is now 96.3 percent, as compared to 94.4 percent in
The USPTO reached agreement this year with the JPO to                     FY 2009. And the non-final in-process compliance rate is 94.9
provide lists of JPO applications with examination results that           percent as compared to 93.6 percent in FY 2009. The Patent
USPTO examiners can re-use in the corresponding domestic                  Quality Performance Measures are presented in the Goal 1
case. Outside of any structured framework or agreement, this              Performance Measures section.




16	                                                                     Performance and accountability Report: Fiscal Year 2010
                                                                                       Mana g ement ’ s D iscussion and A nalysis




Quality improvement continues to drive many of the Patent
organization’s new initiatives. The Patent organization improved
the quality of its products and services using in-depth reviews
of work-in-progress and enhanced end-process reviews to
provide feedback to examiners on areas for improvement,
targeted training, and safeguards to ensure competencies.

Training both patent managers and examiners continues to be
an important element for achieving quality patent examination.
Particular focus was given to providing Supervisory Patent
Examiners (SPE) with a Leadership Development Program.
Patent managers and supervisors participated in a newly
developed, state-of-the-art leadership development program to
enhance their supervisory skill set.                                      Members of the Patent Office Professional Association (POPA) labor
                                                                          union and Patent Management team established a joint task force to
The OPT has developed a catalog of refresher training courses             develop recommendations to move the Agency significantly forward
for patent examiners to enhance the quality of examination. In            towards a new examiner count system which is properly aligned
FY 2010, over 1,700 requests for refresher training have been             to achieve both efficient and high-quality examination. From
registered in the Commerce Learning Center. The OPT will                  Left: POPA Secretary Kathleen Duda, Technology Center (TC) 3600
continue to enhance and expand the courses being offered.                 Director Kathy Matecki, Deputy Commissioner for Patent Operations
                                                                          Margaret Focarino, POPA President Robert Budens, Under Secretary
Performance management is a major part of managing the                    and Director David Kappos, Assistant Deputy Commissioner for
process, and motivating and coaching the patent examiners is              Patent Operations Andrew Faile, POPA Assistant Secretary Pamela
the responsibility of the SPE. Several key elements that reflect          Schwartz, POPA Vice President Howard Locker, and TC 2100
                                                                          Director Wendy Garber.
the change in culture and quality were not reflected in the SPE
Performance Appraisal Plan (PAP). In FY 2010, a task force
was established to craft a new PAP that is in alignment with the     element for all examiners. The workflow element was changed
USPTO 2010-2015 Strategic Plan and reflects agency priorities:       to provide examiners greater opportunity to use their profes-
enhanced examination quality, reduced application pendency,          sional discretion to manage their workflow. The changes
and improved stakeholder responsiveness. The new SPE PAP             provide examiners:
provides increased recognition of key SPE activities in coaching
and mentoring examiners in their “art” units. The new PAP            ●●   More control over when work is counted;
reflects better the varying roles and responsibilities of SPEs,
                                                                     ●●   Replaces the customer service element with a stakeholder
and gives rating officials greater flexibility to provide fair and
                                                                          interaction element with an emphasis on interview practice;
accurate assessments of SPEs’ accomplishments.
                                                                     ●●   Creates a more significant pendency award targeted
Following the draft of the new SPE PAP, the USPTO established             towards agency goals;
a task force consisting of management and the patent examiners’
                                                                     ●●   Addresses performance issues as fixable and treats conduct
union (POPA) to craft a new patent examiner performance
                                                                          issues in a progressive manner;
plan and to address performance management issues. The goal
of the task force was to increase our collective understanding       ●●   Retains the right to grieve both oral and written warnings;
and increase the transparency of the PAP as well as improve               and
the consistency of PAP administration. The task force’s interest
                                                                     ●●   Aligns goals with those cited in the Supervisory Patent
was in increasing coaching, counseling, and mentoring as a
                                                                          Examiner PAP.
means of dealing with performance and issues of conduct
within the workplace. The revised PAP includes a single quality




www.uspto.gov	                                                                                                                             17
M anagement’s Discussion and Analysis




OBJECTIVE 5: IMPROVE AND ENHANCE THE PATENT                            The new system design must fill gaps in legacy patent IT
APPEAL AND POST-GRANT PROCESSES                                        systems that now require patent employees and external
                                                                       stakeholders to perform labor-intensive, manual business
The BPAI issued numerous precedential and informative                  processes as well as provide improved system availability and
decisions on both substantive and procedural issues. This year’s       reliability. The USPTO plans to deploy a new graphical user
decisions relate to current issues of concern to the IP community,     interface that will eliminate the need to learn multiple systems
including the standard of review, obviousness, and indefinite-         while improving the sharing of data among various business
ness, patentable subject matter. BPAI precedential opinions            functions. The new systems will provide the patent examiner
help create consistent authority to be followed in future BPAI         with improved search tools and docket management systems.
decisions and in the Patent Examining Corps.                           The current Web site will be improved through the use of
                                                                       Web 2.0 assistance technologies and make available the
The BPAI took the following substantive steps to streamline the        USPTO patent examiner search systems to the public via a
appeals process:                                                       Web 2.0 interface.
●●   First, the BPAI eliminated the redundant reviews of briefs
     for compliance with the Rules. The BPAI is now the sole
     reviewer of the brief resulting in a decrease in Notices of       GOAL 1 PERFORMANCE MEASURES
     Non-Compliance from 30 percent to less than eight percent
     of the briefs reviewed.                                           Patent Pendency Performance

●●   Second, the BPAI has taken steps to reduce remands thereby        The two primary measures of the Patent organization’s
     eliminating the back and forth between the Patent organiza-       processing time are: (1) Average First Action Pendency, which
     tion and the BPAI. The BPAI improved communication with           measures the average time in months from filing until an exam-
     its stakeholders by holding a roundtable on the rules             iner’s initial determination is made of the patentability of an
     package in January.                                               invention; and (2) Average Total Pendency, which measures the
                                                                       average time in months from filing until the application is
●●   Third, BPAI held the first ever Board Conference in April         issued as a patent or abandoned by the applicant.
     2010 featuring a full day of presentations and panel discus-
     sion aimed at increasing stakeholder knowledge.
                                                                       Our measures of pendency, both Average First Action Pendency
                                                                       and Average Total Pendency, reflect a slight increase from the
OBJECTIVE 6: DEVELOP AND IMPLEMENT THE PATENT                          previous year. The measure of actual Average First Action
END-TO-END PROCESSING SYSTEM                                           Pendency for FY 2010 was 25.7 months, slightly missing the
                                                                       goal of 25.4 months. The actual Average Total Pendency of
A high quality patent system that works in a timely manner is          35.3 months was slightly higher than the target of 34.8 months.
critical to innovators and the American economy. More than             During FY 2010, patent processing systems were closely studied
68.1 percent of all patent applications were filed and processed       to determine where improvements could be made to provide
on electronic systems. This achievement continues to demon-            the greatest increase in efficiency, examination capacity, and
strate the importance of our IT system. The E-Filing of Patent         workflow. The Patent organization then executed these
Applications Performance Measure is presented in the Goal 1            improvements across the board. One significant change was
Performance Measures section.                                          the count system which gave examiners more time to examine
                                                                       each application as a clear sign that quality is our first priority.
Investment in our IT processing systems will accelerate the            Even though incoming applications were four percent over
USPTO towards its goal of high quality and timely patents.             projected filings, our workforce was very productive in signifi-
The improvement to our IT processing systems will begin the            cantly decreasing the backlog down to 726,331 utility, plant,
work of setting up a new system that will enable end-to-end            reissue and design (UPRD) applications. We expect to meet or
electronic processing of patent applications. The new system           exceed next year’s targets as our improvements to workflow
will be driven by three guiding principles: stakeholders needs         and patents systems are finalized; and our funding is sufficient
lead the process; build small, build fast; and own the design.         to hire and utilize overtime at planned levels.




18	                                                                  Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




First Action Pendency                                               tion compliance rate gives the percentage of UPRD office
                                                                    actions (prior to allowance or final rejection) that were found
   Measure: Patent Average First Action Pendency (Months)
                                                                    to be in compliant with applicable rules and laws.
    FISCAL YEAR                 TARGET          ACTUAL
                                                                    Patent Final Rejection/Allowance Compliance Rate
         2006                     22.0             22.6
         2007                     23.7             25.3
         2008                     26.9             25.6              Measure: Patent Final Rejection/Allowance Compliance Rate
         2009                     27.5             25.8                 FISCAL YEAR                TARGET                    ACTUAL
         2010                     25.4             25.7                     2009                      N/A                     94.4%
         2011                    27.8*                                      2010                    94.5%                     96.3%
         2012                    21.6*                                      2011                       *
  Target Slightly Below.                                              Target Met.

  * Out year targets subject to change.                               *Along with the Patent Public Advisory Committee (PPAC), the USPTO
                                                                      has engaged our stakeholders in roundtables in order to establish new
                                                                      metrics.

Final Action Pendency
                                                                    Patent Non-Final In-Process Examination Compliance Rate
      Measure: Patent Average Total Pendency (Months)
    FISCAL YEAR                 TARGET          ACTUAL                             Measure: Patent Non-Final In-Process
         2006                     31.3            31.1                               Examination Compliance Rate
         2007                     33.0            31.9
                                                                        FISCAL YEAR                TARGET                    ACTUAL
         2008                     34.7            32.2
                                                                            2009                      N/A                     93.6%
         2009                     37.9            34.6
                                                                            2010                    94.0%                     94.9%
         2010                     34.8            35.3
                                                                            2011                       *
         2011                    37.3*
                                                                      Target Met.
         2012                    36.8*
                                                                      *Along with the PPAC, the USPTO has engaged our stakeholders in
  Target Slightly Below.
                                                                      roundtables in order to establish new metrics.
  * Out year targets subject to change.


                                                                    Patent E-Filing and E-Management
Patent Quality Performance
                                                                    The USPTO also created a fully electronic patent application
Quality improvement continues to drive many of the Patent           management process whereby all patent examiners, technical
organization’s new initiatives. The Patent organization continues   support staff, and adjunct users can access an electronic image
to improve the quality of its products and services using           of all patent applications. Patent automation includes more
in-depth reviews of work-in-progress and enhanced end-              than a dozen specialized applications used in patent examina-
process reviews to provide feedback to examiners on areas for       tion, multiple search systems, databases, and commonly used
improvement, targeted training, and safeguards to ensure            office applications.
competencies. In changing our focus from end-process reviews
to an emphasis on front-end quality, the Patent organization        The USPTO continues to provide and enhance the tools for
has replaced prior year’s quality measures with two new             applicant’s use for patent application filing. The use of elec-
measures: Final Rejection/Allowance Compliance Rate and the         tronic filing has risen dramatically from last year when only
Non-Final In-Process Examination Compliance Rate. The final         82.4 percent of applications were filed electronically. We expect
rejection/allowance compliance rate gives the percentage of         to meet or exceed next year’s targets as our improvements to
UPRD allowances and final rejections reviewed that were found       workflow and patents systems are finalized.
to be compliant with applicable rules and laws regarding final
patentability determination. The non-final in-process examina-




www.uspto.gov	                                                                                                                                19
M anagement’s Discussion and Analysis




                                                                              Patent Efficiency
        Measure: Patent Applications Filed Electronically
      FISCAL YEAR               TARGET                   ACTUAL               Measures the relative cost-effectiveness of the entire patent
         2006                    10.0%                     14.2%              examination process over time, or the efficiency with which
         2007                    40.0%                     49.3%              the organization applies its resources to production.
         2008                    69.0%                     71.7%
         2009                    80.0%                     82.4%                                   Measure: Patent Efficiency
         2010                    90.0%                    89.5%*
                                                                                  FISCAL YEAR                TARGET                    ACTUAL
         2011                  92.0%**
                                                                                       2006                   $4,214                    $3,798
         2012                  93.0%**
                                                                                       2007                   $4,253                    $3,961
  Target Slightly Below.                                                               2008                   $3,982                    $3,773
  *Preliminary Data and is expected to be final by December 2010 and will              2009                   $3,562                    $3,523
  be reported in the FY 2011 PAR.                                                      2010                   $3,530                    $3,471
  ** Out year targets subject to change.                                               2011                      *
                                                                                 Target Met.
                                                                                 *The USPTO is developing new methodologies to better report the
                                                                                 efficiency of both the patent and trademark processes.




20	                                                                         Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




Strategic Goal 2: Optimize Trademark Quality and Timeliness


T
       rademarks have served an important purpose throughout
       recorded history, as owners of goods and services have
       historically affixed their names on their products.
Trademarks perform a valuable function by identifying the
source of products and services and being an indicator of reliable
quality to the consumer. In the 21st century, trademarks
represent highly valuable business assets, serving as symbols of
a company’s good will and helping to cement customer loyalty.
By registering trademarks, the USPTO has a significant role in
protecting consumers from confusion, as well as providing
important benefits to American businesses by allowing them to
strengthen and safeguard their brands and related investments.

Over the last five years, the Trademark organization has met
                                                                       Representative Jim Moran (D-VA) and Deputy Commissioner for
and exceeded all but one of its performance targets as it
                                                                       Trademarks Operations Debbie Cohn cut the ribbon at the National
continues to reap the benefits of its significant investments in
                                                                       Trademark Expo with the assistance of Dennis the Menace and
human capital and in automation and process reengineering.
                                                                       Curious George. The annual Exposition, held at the USPTO campus,
                                                                       features educational workshops, themed displays, costume charac-
                                                                       ters and company booths.
OBJECTIVE 1: MAINTAIN TRADEMARK FIRST ACTION
PENDENCY ON AVERAGE BETWEEN 2.5-3.5 MONTHS
WITH 13 MONTHS FOR FINAL PENDENCY                                    particularly Trademark Electronic Application System (TEAS)
                                                                     Plus filings, which represent more than 33 percent of new
For the fourth consecutive year, first action pendency – the         application filings and more than 31 percent of first action
length of time between receipt of a trademark application and        approvals, has improved the efficiency and timeliness of exam-
when the USPTO makes a preliminary decision – was consis-            ination. The Trademark Efficiency Measure is presented in the
tently maintained within the optimum range of 2.5 to 3.5             Goal 2 Performance Measures section.
months. This represents an unprecedented achievement, espe-
cially with the recent economic turmoil and uncertainty that         To maintain first action pendency at 2.5 to 3.5 months and total
generate large fluctuations in filings. Average total pendency       pendency at 13 months or less, the Trademark organization
—the time from filing to notice of allowance, abandonment, or        managed to dynamically align examination capacity with
registration—shows sustained improvement as well, with               incoming workloads within existing staffing levels sustaining
disposal or registration occurring within 11 months of filing.       high productivity by judiciously adjusting production incen-
The Trademark Pendency Performance Measures are presented            tives and overtime usage to boost production when needed.
in the Goal 2 Performance Measures section.
                                                                     An additional factor in lower total pendency results was the
Pendency has improved as electronic processing and filing            reduction of four weeks process time for applications receiving
have become the primary means of conducting business within          a notice of allowance. The notice of allowance now issues
the Trademark organization. Increased use of electronic forms,       eight weeks following publication for opposition.




www.uspto.gov	                                                                                                                        21
M anagement’s Discussion and Analysis




OBJECTIVE 2: CONTINUOUSLY MONITOR
AND IMPROVE TRADEMARK QUALITY

Examination quality of office actions in the Trademark organi-
zation has achieved consistently high levels of accuracy in
recent years. First action quality was 96.6 percent exceeding
the target of 95.5 percent. The quality of final decisions
(approvals and rejections) was 96.8 percent as measured by
statutory and compliance rates for quality of decision making
and writing was within the target range of 97 percent consid-
ering the margin of error (+/- 0.6 percent), although less than
the actual target To sustain these high quality levels, the
Trademark organization continues to emphasize and improve
training, to promote electronic filing and processing, and to
make greater use of on-line tools and enhanced processes.
                                                                           Commissioner for Trademarks Lynne Beresford and President of
The Trademark organization continuously monitors and takes                 the NTEU 245 union Howard Friedman sign the Geographical Pilot
steps to improve the quality of examination. This year, a new              Expansion for the Trademark Examiners.
comprehensive excellence quality measure was implemented,
which expands upon the existing first action standards for               “The Future of the Use-Based Register,” during which panelists
correct decision making. The new measure seeks to identify the           and audience members explored the level of accuracy in the
percentage of office actions that are excellent in all respects –        identification of goods and services in trademark applications
setting a more rigorous standard of what constitutes quality.            and registrations, as well as the impact of the Court of Appeals
The new standard measures the quality of the search, evidence,           for the Federal Circuit’s recent decision raising the standard to
writing, and decision making, as well as the percentage of issues        find fraud on the USPTO, In re Bose Corp., 580 F.3d 1240 (Fed.
that are settled or clarified through a phone call to the applicant      Cir. 2009). In connection with the roundtable, the USPTO
or its attorney. Data collected in FY 2010 will be used as a             compiled and made available to the public a range of statistical
benchmark for setting future goals. The Trademark organization           information regarding the length and nature of identifications
has used feedback from user groups to ensure that the standards          in applications and registrations. Following the roundtable’s
of excellence applied by the Trademark organization also reflect         brainstorming session on ideas to improve accuracy on the
users’ perception of excellence. The Trademark Quality                   register, the USPTO posted on its Web site the list of sugges-
Performance Measures are presented in the Goal 2 Performance             tions along with comments and additional information from the
Measures section.                                                        USPTO. The USPTO announced a request for comments or
                                                                         additional suggestions. In addition, the USPTO is currently
The Trademark organization began incentivizing the examining             considering piloting a program to assess accuracy on the
attorneys to meet our new comprehensive excellence goal                  register to provide more objective data on the issue.
through a new awards program, and conducted an extensive
training program on writing excellent office actions in the area
of refusals for merely descriptive marks.                                OBJECTIVE 4: ENHANCE OPERATIONS OF
                                                                         TRADEMARK TRIAL AND APPEAL BOARD

OBJECTIVE 3: ENSURE ACCURACY OF                                          In FY 2010, the Trademark Trial and Appeal Board (TTAB)
IDENTIFICATIONS OF GOODS AND SERVICES IN                                 issued more than 50 precedential decisions on a wide variety
TRADEMARK APPLICATIONS AND REGISTRATIONS                                 of substantive and procedural issues. TTAB’s precedential
                                                                         decisions on appeals provide guidance not only to the Agency’s
The Trademark organization, along with the George Washington             trademark examining attorneys, but also to trademark owners
University Law School, hosted a roundtable discussion on                 and the trademark bar. TTAB’s precedential decisions in oppo-




22	                                                                   Performance and accountability Report: Fiscal Year 2010
                                                                                 Mana g ement ’ s D iscussion and A nalysis




sition and cancellation proceedings provide guidance to            The Trademark organization will continually strive to make its
trademark owners and the bar regarding both the Trademark          IT systems easier to use, cheaper to operate and maintain, and
Rules of Practice and substantive issues. In this regard, TTAB     more secure.
has been working on a new edition of the Trademark Board
Manual of Procedure to incorporate materials related to the        The Trademark organization has made a conscious and
recent amendments to the rules of practice and recent prece-       sustained investment in IT that is demonstrating efficiencies
dential cases. The revised manual will be posted online, and it    and results as evidenced by consistently low pendency. Sixty-
will be in searchable form for the first time. Thus, the revised   eight percent of all applications were filed, processed, and
manual will not only be easier to use but easier to revise more    disposed of relying completely on electronic systems and
regularly. The new edition is currently under review. We expect    communication. Performance results exceed the 65 percent
to issue it early in the next fiscal year. Also, TTAB has been     target and demonstrate that the Trademark organization is
working closely with the bar to refine our Accelerated Case        making good use of its electronic systems and is successfully
Resolution policy. We have already seen increased use of this      motivating applicants to conduct correspondence electroni-
procedure to expedite the disposition of cases. Finally, TTAB      cally. This measure replaced the electronic application filing
has begun discussions with the bar regarding the possibility of    performance measure, under which the Trademark organiza-
TTAB involvement in settlement discussions.                        tion achieved a rate of more than 98 percent of new trademark
                                                                   applications filed electronically. The Trademark Applications
                                                                   Processed Electronically Performance Measure is presented in
OBJECTIVE 5: MODERNIZE IT SYSTEM BY                                the Goal 2 Performance Measures section.
DEVELOPING AND IMPLEMENTING THE
TRADEMARK NEXT GENERATION IT SYSTEM                                To further improve the functionality of electronic filing, the
                                                                   USPTO has released additional forms and enhancements for
The Trademark organization has undertaken a new challenge          existing TEAS forms. A new concept was introduced for filing
of creating a modern high-performance and cost-effective IT        of any trademark document for which a TEAS form is not
infrastructure that is reliable, flexible, scalable, and secure.   currently available.
This infrastructure will be focused on providing additional
services to the internal and external users of Trademark           The Trademark organization continues to make progress in its
computer-based resources. These services would enable stake-       long-term goal to replace manual, paper-based processes with
holders to save time and money during the process of regis-        a fully electronic operation. Progress has continued with the
tering and maintaining their trademark rights—time and money       implementation and enhancement of the electronic docketing
that could be better invested in ways that will grow the           system known as the First Action System for Trademarks (FAST).
economy.                                                           This system significantly improves the processing and manage-
                                                                   ment of applications and provides access to on-line production
The next generation plan for the Trademark organization’s          reports to monitor the status of individual performance.
computer-based resources needs to address current business
requirements while anticipating and designing future ones.         The Trademark organization will continue to assess the effi-
These needs and requirements are being identified with             ciency of its operations and incorporate process improvements.
valuable inputs from key stakeholders and various subject          Replacing IT systems with the Next Generation of systems, as
matter experts in order to design an optimized and cost-effec-     well as completing the electronic workflow and file manage-
tive Next Generation infrastructure.                               ment system throughout the entire process, will provide better
                                                                   automated tools and consistency for managing workloads and
The Trademark organization will separate its current IT systems    yield better service to customers. The USPTO will also continue
from other Agency systems, and create a platform for a virtual     to use e-government as the primary means of doing business
environment to support the Trademark organization’s Next           with applicants and registrants, and as a means of processing
Generation computer-based resources. The transition will           work within Trademark organization. Continued high quality
require judicious maintenance of legacy systems and legacy         actions and consistent low first action pendency will ensure
system improvements while migrating to a virtual                   low total pendency, which translates to certainty for business
architecture.                                                      owners in making investments in new products and services.




www.uspto.gov	                                                                                                                 23
M anagement’s Discussion and Analysis




OBJECTIVE 6: DEVELOP A NEW GENERATION                                GOAL 2 PERFORMANCE MEASURES
OF TRADEMARK LEADERS
                                                                     Trademark Pendency Performance
For a third year, the Trademark organization continued
                                                                     Trademark first action pendency measures the average number
programs in support of the Trademark Human Capital Strategic
                                                                     of months from the date of application filing to the first office
Plan. The Trademark Plan, which was developed to further
                                                                     action. Trademark average total pendency measures the average
the objectives of the Office of Personnel Management Federal
                                                                     number of days from date of filing to notice of abandonment
Human Capital Strategic Plan, has shown results. Teams have
                                                                     (unless a notice of allowance has been issued), notice of
continued work on programs and training in support of the
                                                                     allowance, or registration for applications based on use in that
three “human capital” objectives of talent management, results-
                                                                     month excluding and including cases that were previously
oriented performance culture, and leadership and knowledge
                                                                     suspended or were involved in inter parties proceedings at the
management.
                                                                     Trademark Trial and Appeal Board. Average total pendency,
                                                                     including suspended and inter partes cases, was 13 months.
The Trademark organization continues to improve upon its
                                                                     Excluding applications that were suspended or delayed for inter
successful telework program through the continued expansion
                                                                     partes proceedings, average total pendency was 10.5 months.
of telework opportunities and by expanding the use of remote
access and collaboration tools:
                                                                     Trademark Average First Action Pendency
●●   87 percent of eligible examining attorneys work from home         Measure: Trademark Average First Action Pendency (Months)
     nearly full time; and                                               FISCAL YEAR            TARGET               ACTUAL
●●   89 percent of all eligible Trademark employees (78 percent              2006                 5.3                   4.8

     of all Trademark employees) are working from home at                    2007                 3.7                   2.9
                                                                             2008              2.5 to 3.5               3.0
     least one day per week.
                                                                             2009              2.5 to 3.5               2.7
                                                                             2010              2.5 to 3.5               3.0
In the past year, the program was expanded to provide work-
                                                                             2011              2.5 to 3.5
at-home opportunities for employees in the Examination
                                                                             2012              2.5 to 3.5
Support Unit (ESU), the Intent-To-Use/Divisional Unit (ITU),
                                                                       Target Met.
and Pre Examination. As a result, programs exist throughout
the organization to expand the number of employees and
functions supported by telework.                                     Trademark Average Total Pendency

The Trademark Assistance Center (TAC), the call center for the           Measure: Trademark Average Total Pendency (Months)
Trademark organization, was the first federal call center with           FISCAL YEAR            TARGET               ACTUAL
an extensive telework program. This year, TAC has become the                 2006                 16.3                 15.5
go-to resource for information about how to staff and manage                 2007                 14.8                 13.4
a call center where many employees work at home. Numerous                    2008                 14.3                 11.8
agencies visited TAC to learn and benefit from TAC’s successful              2009                 13.0                 11.2
                                                                             2010                 13.0                 10.5
experience with telework.
                                                                             2011                 13.0
                                                                             2012                 13.0
                                                                       Target Met.




24	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                     Mana g ement ’ s D iscussion and A nalysis




Trademark Quality Performance
                                                                               Measure: Trademark Final Compliance Rate
The Trademark organization measures for assessing examina-              FISCAL YEAR                  TARGET                      ACTUAL
tion quality include an evaluation for all issues that could be              2008                    Baseline
considered deficient in making a first and final action substan-             2009                     97.0%                       97.6%
tive decision. Evaluations are conducted on a random sample                  2010                     97.0%                       96.8%*
of applications to review the quality of decision-making of the              2011                     97.0%
examiner’s first office action and final action – an approval for            2012                     97.0%
registration or a final refusal.                                      Slightly Below.
                                                                      *Within the target range of 97.0% considering the margin error of (+/- 0.6%).
The “in-process review” standard for assessing excellent and
deficient work creates a comprehensive, meaningful, and
                                                                    Trademark First Action Compliance Rate
rigorous review of what constitutes quality. The results of an
examiner’s first action and final office action are reviewed for
                                                                           Measure: Trademark First Action Compliance Rate
the quality of the substantive basis for decision-making, search
                                                                        FISCAL YEAR                  TARGET                      ACTUAL
strategy, evidence, and writing. The measures consider
                                                                             2006                     93.5%                       95.7%
elements for review and evaluation with training targeted to
                                                                             2007                     95.5%                       95.9%
topics that warrant improvement. Examiners are given feedback
                                                                             2008                     95.5%                       95.8%
about excellent, as well as deficient work, to further
                                                                             2009                     95.5%                       96.4%
improve quality.                                                             2010                     95.5%                       96.6%
                                                                             2011                     95.5%
Trademark Final Compliance Rate                                              2012                     95.5%

In 2009, the measure for final compliance was expanded to             Target Met.
evaluate examination quality at the stage applications
are approved for publication and ultimately registration –
increasing the number as well as the decisions that were subject    Trademark Efficiency Performance
to review – demonstrating the high degree of quality that           Trademark efficiency is a measure of the relative cost-effective-
applies to the majority of the determinations made by the           ness of the entire trademark examination process over time
Trademark organization.                                             including the associated allocated costs, or the efficiency with
                                                                    which the organization applies its resources to achieving its
Trademark quality has continued to demonstrate high levels          performance goals. The measure is determined by comparing
and sustained improvement of the search and examination             the total direct and indirect expenditures attributed to trademark
process. To further increase quality performance, a new             operations and support activities compared to the number of
measure that focuses on the comprehensive excellence of the         outputs or applications registered and abandoned.
entire office action was developed. The USPTO sought input
from stakeholders in determining how to define excellence           Trademark Efficiency
with members of the IP community involved in the review of
office actions to validate and define comprehensive excellence.                         Measure: Trademark Efficiency
A program to address consistency of office actions, considered          FISCAL YEAR                  TARGET                      ACTUAL
to be an aspect of quality, was piloted. Applicants can submit               2006                      $635                        $565
a request for consistency review to address substantive or                   2007                      $685                        $660
procedural issues that had been addressed in a significantly                 2008                      $697                        $470
different manner in those different cases owned by the                       2009                      $639                        $474
applicant. The initial pilot focused on registrations issued in              2010                      $607                        $520
the past year and excluded issues involving identifications of               2011                        *
goods and services.                                                   Target Met.
                                                                      *The USPTO is developing new methodologies to better report the
                                                                      efficiency of both the patent and trademark processes.




www.uspto.gov	                                                                                                                                        25
M anagement’s Discussion and Analysis




Trademark E-Management                                                tions processed electronically” has been developed to identify
                                                                      the degree to which the Trademark organization is able to
The number of electronically filed trademark applications has
                                                                      encourage applicants to file and submit correspondence elec-
progressed steadily over the years as a result of promotional
                                                                      tronically, as well as implement systems that can electronically
events, increased number and type of applications available for
                                                                      process, examine, and dispose of an application in a completely
filing electronically, improved functionality and enhancements,
                                                                      electronic environment. This measure reports the percentage
and lower fees for filing electronically.
                                                                      of trademark applications that were filed, processed, and
                                                                      disposed relying completely on electronic systems and commu-
The Trademark organization has created an electronic trademark
                                                                      nications. This measure replaced the electronic filing perfor-
application record management process by capturing nearly
                                                                      mance measure for which the target has been achieved.
100 percent of the application inventory and registered marks
as an electronic file that includes text and image of the initial
application and subsequent applicant and office correspon-               Measure: Trademark Applications Processed Electronically
dence. Examining attorneys use the electronic record to process
                                                                          FISCAL YEAR           TARGET               ACTUAL
and examine applications, manage their dockets of pending                     2008              Baseline
work, and take action on applications.                                        2009               62.0%                 62.0%
                                                                              2010               65.0%                 68.1%
A new measure was introduced in 2009 to address the major                     2011               68.0%
USPTO strategic challenge to complete full electronic workflow                2012               71.0%
and file management for receiving and processing trademark               Target Met.
applications and related documents. The measure “applica-




26	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                   Mana g ement ’ s D iscussion and A nalysis




Strategic Goal 3: Provide Domestic and Global Leadership
to Improve Intellectual Property Policy, Protection and
Enforcement Worldwide


A
         s the President’s advisor (via the Secretary of Commerce)   our goal of providing domestic and global leadership to improve
         on questions of IP policy, the USPTO plays a signifi-       IP policy, protection, and enforcement worldwide by completing
         cant leadership role in promoting effective domestic        the following programs and objectives. The IP International
and international protection and enforcement of IP rights.           Policy Efforts Performance Measure is presented in the Goal 3
We are working to formulate a data-driven U.S. government IP         Performance Measures section.
policy and to develop unified standards for international IP.
The USPTO is also working closely with the White House’s U.S.
IP Enforcement Coordinator to help formulate a robust and            OBJECTIVE 1: PROVIDE DOMESTIC LEADERSHIP ON IP
effective Administration IP enforcement plan.                        POLICY ISSUES AND DEVELOPMENT OF A NATIONAL
                                                                     IP STRATEGY
The Office of the Chief Economist was created and an initiative
was launched to collect and analyze data on the role IP plays        Developing a national IP strategy that is integrated
in the promotion of innovation. We have placed additional            into the Administration’s innovation strategy
focus on our IP Attaché Program to assist in improving the
protection and enforcement of IP. Through the Global                 The Administration’s “Strategy for American Innovation” white
Intellectual Property Academy (GIPA), we continue to provide         paper, published in September 2009, demonstrated a strong
high-level IP rights training, capacity building programs, and       commitment to retaining U.S. innovation leadership.
technical assistance training to IP officials from around the        The white paper did not elaborate fully on the critical role IP
world. We continue to work with Congress and the courts to           plays in fostering innovation. As this Strategy for American
improve the state of U.S. IP law. Progress was achieved towards      Innovation evolves, the USPTO will lead in ensuring that the
                                                                     Administration’s Innovation Strategy (and related projects)
                                                                     encompasses a comprehensive National IP Strategy. The National
                                                                     IP Strategy will ensure that policy developments and imple-
                                                                     mentation take place in a coordinated manner within a national
                                                                     framework in order to allow all national stakeholders to work
                                                                     together to create, own, and exploit research results, innova-
                                                                     tions, new technologies, and works of creativity.

                                                                     To effectively develop this strategy, the USPTO established the
                                                                     Office of the Chief Economist in March 2010. The Chief
                                                                     Economist is responsible for advising the Under Secretary and
                                                                     the Administrator for External Affairs on the economic implica-
                                                                     tions of policies and programs affecting the U.S. IP system.
                                                                     The Chief Economist will lead the development of the National
                                                                     IP Strategy, which will reflect the growing body of research
  Under Secretary David Kappos delivers a speech at the Center for   demonstrating the importance of high-quality IP to innovation
  American Progress on June 2, 2010.                                 leadership.




www.uspto.gov	                                                                                                                   27
M anagement’s Discussion and Analysis




Monitoring and providing policy guidance                                 that section 112, first paragraph, applies to amended as well as
on key IP issues in cases                                                original claims, and clarified that the test for satisfying the
                                                                         written description requirement is “possession as shown in the
The USPTO continues to heavily shape IP law and policy                   disclosure.” The court’s holdings validate long-standing USPTO
through domestic litigation and the decisions of its boards: the         policy and procedures and, ultimately, protect the public from
TTAB and the BPAI. The agency’s litigation responsibilities fall         the patenting of claims to inventions beyond the scope of an
primarily on the USPTO’s Office of General Counsel (OGC).                inventor’s original conception and disclosure.
In the IP realm, the OGC’s Office of the Solicitor defends the
decisions of the agency’s administrative boards, as well as the          In the copyright arena, the Office of External Affairs and the
agency’s rulemaking and policies in court. In FY 2010, the               Office of the Solicitor worked closely with the DOJ and other
Office of the Solicitor defended in excess of 60 BPAI and TTAB           government agencies on the “Google™ books” matter to craft
decisions on a wide variety of topics affecting both agency              a court filing explaining the many benefits of a settlement that
practice and substantive law of patent applications and                  would give consumers easy access to vast numbers of out-of-
trademark registrations. The USPTO also advises the Solicitor            print works, while articulating a series of concerns about details
General of the United States on IP matters before the U.S.               of the proposed settlement.
Supreme Court.
                                                                         Providing domestic education outreach
On the IP policy front, OGC has urged the federal courts to              and capacity building
clarify the standards for patent-eligibility under 35 U.S.C. § 101
                                                                         The USPTO, through the GIPA in the Office of External Affairs,
in a series of important cases over the past few years. OGC’s
                                                                         provides IP educational opportunities to domestic small and
efforts culminated in the U.S. Supreme Court’s recent decision
                                                                         medium-sized enterprises (SMEs), to universities, and to the
in Bilski v. Kappos, in which the court considered the metes
                                                                         public at large. These opportunities include outreach to Native
and bounds of patent-eligibility for process inventions – the
                                                                         American tribes, educational programs on IP awareness, and
number and type of which have greatly expanded over recent
                                                                         China Road Shows providing IP information to SMEs seeking
years. The court’s decision cites with approval the test for a
                                                                         to do business in China. Additionally, GIPA partners to develop
patent-eligible “process” recommended by the USPTO: that a
                                                                         and deliver educational outreach programs with other areas of
patent-eligible process either be implemented by a machine or
                                                                         the United States Government (USG), in particular the Small
transform subject matter into a different state or thing although
                                                                         Business Administration, bureaus of the Department of
it is not the sole test for deciding whether an invention is a
                                                                         Commerce including the Minority Business Development
patent-eligible “process.” This is the first time in over 30 years
                                                                         Agency, and the US Export Assistance Centers of the U.S.
that the Supreme Court has considered the issue of patent-
                                                                         Commercial Service. Topics on which GIPA provides expertise
eligibility of process inventions. The USPTO recently drafted
                                                                         cover IP administration, protection, and enforcement in all
guidelines to implement the Bilski decision and to address any
                                                                         areas of domestic and international IP, including copyrights,
issues left open by the court.
                                                                         trademarks, patents, industrial designs, and trade secrets.
                                                                         The USPTO will continue and expand its domestic education
Another landmark IP policy case involving the USPTO is Ariad
                                                                         outreach and capacity building work to both enhance the
v. Eli Lilly, in which an en banc Federal Circuit considered
                                                                         public awareness and appreciation of IP and to facilitate the
whether 35 U.S.C. § 112, first paragraph, contains a written
                                                                         competitiveness and export capabilities of domestic SMEs with
description requirement separate from the enablement require-
                                                                         valuable IP assets.
ment. The USPTO worked with the Department of Justice
(DOJ) to craft the Government’s amicus position, at both the
                                                                         Engaging USG agencies and Congress on
briefing and oral argument stages. The court majority agreed
                                                                         legislation that improves the IP system
with the USPTO’s position, and held that there is a requirement
for a written description separate from enablement. The majority         The USPTO monitors, analyzes, and provides advice and
reached this construction based upon the statutory language              technical assistance within the Administration and to Congress
itself, legislative history, Supreme Court precedent, stare decisis,     on patent, trademark, and IP-related legislation and policy
and the practical need for the written description doctrine.             matters. Throughout FY 2010, the USPTO has engaged other
The majority also agreed with the USPTO’s position and held              USG agencies and its stakeholders to discuss proposed legisla-




28	                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                  Mana g ement ’ s D iscussion and A nalysis




tion consistent with Administration views. Patent reform legis-     nesses, the importance and success of the IP attaché program,
lation continued to dominate many of the IP discussions on          copyright issues, the patent production goals, and on the
Capitol Hill during the 111th Congress. This proposed legisla-      USPTO’s award winning telework programs. Working closely
tion is intended to improve patent quality, reduce patent litiga-   with key Congressional committee members and staff, the
tion costs, and further the international harmonization of patent   Department of Commerce and the Office of Management and
laws. The USPTO supports these goals and sent a views letter        Budget, the USPTO also sought to provide timely information
to Senate Judiciary leadership supporting S.515. USPTO staff        on projected fee collections and analysis of proposed initiatives
continues to work with both the House and the Senate to             to address its operational and budgeting challenges. Several
develop a comprehensive patent reform bill.                         briefings were held on Capitol Hill to discuss a long-term
                                                                    sustainable funding model for USPTO which would include
The USPTO also provided policy guidance on various other            providing the Office with fee setting authority.
bills during the year including bills to: expand telework oppor-
tunities at USPTO, require broadcast radio stations to pay
royalties to musicians for use of their works, and promote the      OBJECTIVE 2: PROVIDE LEADERSHIP ON
availability of biosimilar drugs. In March 2010, Congress passed    INTERNATIONAL POLICIES FOR IMPROVING THE
The Trademark Technical and Conforming Amendment Act of             PROTECTION AND ENFORCEMENT OF IP RIGHTS
2010 (signed into law as P.L. 111-146 on March 17, 2010).
In July 2010, the Congress passed the USPTO Supplemental            Lead efforts at the World Intellectual Property
Appropriations Act (H.R. 5874) which provided $129 million in       Organization (WIPO) and other intergovernmental/
supplemental appropriations to allow the USPTO to access            international organizations to improve international
more of its anticipated collections to increase patent produc-      IP rights systems
tion and invest in IT infrastructure (signed into law as
P.L. 111-224 on August 10, 2010).                                   Throughout FY 2010, the USPTO continued to seek enhanced
                                                                    cooperation and improved protection for IP multilaterally in
Under Secretary Kappos testified on Capitol Hill twice this past    several fora including the WIPO, the World Trade Organization
year. First, on March 25, before the House Appropriations           (WTO), and several additional intergovernmental organizations.
Subcommittee on Commerce, Justice, Science, and Related             The USPTO consistently promoted the adoption of improve-
Agencies on the USPTO FY 2011 budget request, and then on           ments to the WIPO filing and registration systems in 2010 for
May 5, before the House Judiciary Committee at a USPTO              patents (PCT system), trademarks (Madrid system), and designs
oversight hearing. On December 8, 2009, the Commissioner            (Hague system), which continue to provide critical benefits and
for Patents, Robert Stoll, testified before the House Committee     services to businesses that rely on the international protection
on Oversight and Government Reform on “Protecting Intellectual      of their IP. In addition, the USPTO supported continued imple-
Property Rights in a Global Economy: Current Trends and             mentation of the WIPO “development agenda,” a set of recom-
Future Challenges.”                                                 mendations and projects aimed at enhancing WIPO’s focus on
                                                                    development.
Members of Congress continue to maintain a strong interest in
USPTO operations and its employees. In October 2009, the            Within the WIPO Standing Committee on Copyright and Related
USPTO hosted Senator Hatch at a celebration to award the            Rights (SCCR), the USPTO led an interagency effort to develop
600,000th design patent. In November 2009, the USPTO hosted         and submit for the committee’s consideration a “Consensus
Congressman Dana Rohrabacher who spoke at the 14th Annual           Instrument” designed to increase global access to books and
Independent Inventors Conference.                                   other copyrighted works by persons with print disabilities,
                                                                    thereby demonstrating leadership in the international copyright
During the fiscal year, USPTO staff increased its interaction       community on an issue of great importance.
with Capitol Hill and provided information on USPTO initia-
tives and various IP topics to Congressional staff in individual    The USPTO also actively participated with the Office of the
meetings and briefings. Congressional staff was also invited to     U.S. Trade Representative (USTR) in ongoing IP discussions in
attend roundtable discussions at the USPTO on issues related        the WTO, with the objective of maintaining the integrity of the
to the IP protection and enforcement, assistance to small busi-     Agreement on Trade-Related Aspects of Intellectual Property




www.uspto.gov	                                                                                                                    29
M anagement’s Discussion and Analysis




Rights (TRIPS). The USPTO worked closely with USTR during                  Improving enforcement in, and providing capacity
the WTO accession process of several countries during                      building and technical assistance to, key countries/
FY 2010.                                                                   regions
                                                                           The USPTO, through the GIPA in the Office of External Affairs,
At the United Nations Educational, Scientific, and Cultural
                                                                           provides training not only for domestic audiences (as discussed
Organization (UNESCO), the USPTO took part in the activities
                                                                           earlier) but also for foreign officials. In FY 2010, GIPA
of the Intergovernmental Copyright Committee. Notable
                                                                           conducted more than 75 US and regional IP training programs
accomplishments in FY 2010 include the launching of UNESCO’s
                                                                           with more than 4,500 attendees. The attendees were primarily
World Anti-Piracy Observatory, which is aimed at providing a
                                                                           foreign officials from IP offices, law enforcement authorities,
forum for awareness-raising and information exchange in the
                                                                           including prosecutors, police and customs officials, health
area of anti-piracy.
                                                                           ministry representatives, as well as academics, students, and
                                                                           SME leaders. These programs covered the spectrum of IP
USPTO’s leadership in the International Union for the
                                                                           topics including the protection and management of IP
Protection of New Varieties of Plants (UPOV) helped to
                                                                           (copyright, trademark, patent, industrial design, trade secret,
achieve completion of the online database containing infor-
                                                                           and data protection). A significant number of these programs
mation relating to plant variety protection that can be used to
                                                                           also covered IP enforcement topics, offering a forum where
facilitate cooperation between offices that is freely accessible
                                                                           officials could explore, in collaboration with experts in the
in all four UPOV languages. During FY 2010, UPOV members
                                                                           field, the accessibility, efficiency, and effectiveness of civil,
also elected a USPTO representative as Vice-Chair of the
                                                                           administrative, and criminal enforcement mechanisms in global
UPOV Council for a three-year term, prepared and adopted
                                                                           trade, foreign markets, and electronic commerce.
several test guidelines, developed explanatory notes and a
plant variety protection model law, and had the UPOV 1991
                                                                           Particularly in the area of enforcement, GIPA partnered with
Act translated into certain non-UPOV languages for distribu-
                                                                           many other agencies of the USG, in particular those respon-
tion to potential new members.
                                                                           sible for IP law enforcement in the United States, such as the
                                                                           DOJ and Department of Homeland Security, to develop and
                                                                           deliver interactive, practical information, expertise, and
                                                                           guidance, including best practices for more effective enforce-
                                                                           ment of IP.

                                                                           GIPA also took a leadership role this year in coordinating all IP
                                                                           training provided by the USG with guidance from the Office of
                                                                           the IP Enforcement Coordinator in the White House. This multi-
                                                                           year effort will provide a Web-based platform through which
                                                                           all USG agencies involved in IP training, technical assistance,
                                                                           and capacity building can both provide information and
                                                                           materials from programs planned and completed, and review
                                                                           programs and materials of other agencies.

  Commerce Secretary Gary Locke gathered with leaders from the             The goal of many of these activities is to facilitate country and
  public and private sectors to discuss the relationship between copy-     regional work plans to address the Special 301 Report from the
  right policy, creativity and innovation in the Internet economy          US Trade Representative. Specifically, GIPA and the IP attaché
  as part of a symposium co-hosted by the USPTO and the National           program (discussed further below) coordinate activities on
  Telecommunications and Information Administration (NTIA) at the          prioritized countries of interest. Consistent with the USPTO
  Ronald Reagan Building and International Trade Center.                   2010-2015 Strategic Plan, country teams at headquarters and
                                                                           attachés have worked to develop a plan identifying strategic
                                                                           priorities and issues for their countries/regions. They have also
                                                                           worked to bring about legislative change in their host country.




30	                                                                      Performance and accountability Report: Fiscal Year 2010
                                                                                   Mana g ement ’ s D iscussion and A nalysis




                                                                     a list of acceptable identifications and classifications of goods
                                                                     and services between the three offices. Currently, there are
                                                                     11,200 harmonized identifications (IDs) and an applicant that
                                                                     chooses one of these IDs would be assured that the ID would
                                                                     be accepted in all three offices. The OHIM and the JPO are
                                                                     also providing translations of their proposed IDs for inclusion
                                                                     into a multilateral Web-interface. This year, the Trilateral
                                                                     Partners have executed Memoranda of Understanding (MOUs)
                                                                     with Canada, Korea, Philippines, and Mexico to “dock-on” to
                                                                     the harmonized list, thus potentially expanding the efficiency
                                                                     and utility of the Project for applicants filing in all of these
                                                                     offices with the same ID.

                                                                     The USPTO also established cooperative agreements with other
                                                                     IP offices and organizations for increased technical coopera-
  Under Secretary David Kappos and the Director General from the     tion. Agreements were signed with the SIPO of the People’s
  Mexican Institute of Industrial Property (IMPI) Jorge Amigo sign   Republic of China to work together on several cooperative
  a Memorandum of Cooperation, which allows IMPI to partici-         projects, including piloting and implementing work sharing
  pate in the Identifications of Goods and Services project of the   systems such as PPH, joint training programs, IT information
  Trademark Trilateral.                                              exchanges, examiner training workshops, and other collabora-
                                                                     tions between the two offices. The USPTO signed an agreement
                                                                     with the KIPO to provide specialized reclassification services
Improve efficiency and cooperation
                                                                     for the USPTO. A landmark agreement was signed with
in global IP system
                                                                     Rospatent to establish a general framework for bilateral coop-
Throughout FY 2010, the USPTO continued to provide global            eration between the two offices. Areas of concentration will
leadership in developing and implementing cooperative frame-         include training and capacity building, work sharing, promoting
works among national and regional patent offices for the             the importance of IP in innovation and economic growth, and
purpose of streamlining the international patent system. The         exchanging best practices.
cornerstone of these efforts has been the PPH, the objective of
which is to improve the efficiency of the patent examination         Agreements were signed with India’s Department of Industrial
process to the benefit of patent offices and applicants alike.       Policy and Promotion (DIPP) to cooperate on a range of IP
                                                                     rights (IPR) issues, focusing on capacity building, human
The USPTO orchestrated cooperation with the EPO, JPO, and            resource development, and raising public awareness of the
the KIPO to expand the PPH on a test basis in January 2010 by        importance of IPR. An Action Plan was also developed to carry
integrating it with the PCT. This effort has had two significant,    out specific activities under the agreement including exposure
beneficial effects: it has driven much-needed improvement of         to patent examination practices, exchanges of information on
the PCT system for work-sharing purposes and has helped to           patent databases and patent manuals, IPR awareness programs,
dramatically increase participation rates in the PPH. In addition,   exchange of information on traditional knowledge and genetic
the USPTO continues to add new partners to the PPH                   resources, exchanges of best practices, and other matters.
framework. Negotiations with other patent offices are ongoing,
with the expectation of adding more partners in early                Additionally, the USPTO and the UK-IPO agreed to develop an
FY 2011.                                                             action plan for reducing patent processing backlogs in both
                                                                     offices. The plan will optimize reuse of work on patent appli-
The Trademark Trilateral, consisting of the USPTO, the Office        cations that are filed jointly at the USPTO and the UK-IPO.
of Harmonization for the Internal Market (OHIM), and the JPO,
has been collaborating for the last several years to harmonize




www.uspto.gov	                                                                                                                     31
M anagement’s Discussion and Analysis




Provide policy advice and expertise to
other USG agencies

Under the American Inventor’s Protection Act (AIPA) of 1999
(Public Law 106-113), the USPTO is directed to advise the
President, through the Secretary of Commerce, and federal
agencies on national and international IP policy issues, including
IP protection in other nations.

The USPTO advises numerous Federal agencies such as the
USTR, Department of State, Copyright Office, DOJ, Department
of Health and Human Services, Department of Agriculture,
Department of the Interior, and others to raise awareness of,
and improve, the protection and enforcement of IP here and
abroad. During FY 2010, the USPTO assisted the newly-created              Under Secretary David Kappos and Representative Jim Moran
Intellectual Property Enforcement Coordinator (IPEC) in the               (D-VA) discuss USPTO operations, its role in fostering innovation
development of the 2010 Joint Strategic Plan on Intellectual              and ways to enable greater manufacturing in the U.S. based on this
Property Enforcement.                                                     innovation.


The USPTO has worked closely with the National
Telecommunications and Information Administration (NTIA),              agreements with foreign governments. These S&T agreements
as part of the Internet Policy Task Force, to conduct a compre-        include a detailed IP annex governing the equitable allocation
hensive review of the relationship of copyright, creativity, and       of rights to IP created in the course of international S&T coop-
innovation in the Internet economy. As part of this review             eration. The USPTO also supplied expert advice in negotiations
process, the USPTO, in collaboration with NTIA, organized              of the WHO Open-ended Working Group convened to find
over 20 discussions with individual stakeholder groups.                agreement on remaining elements under the pandemic
On July 1, it held a public symposium that was attended by             influenza preparedness framework. Working with other
over 130 stakeholders. The USPTO will be issuing a Notice of           relevant federal agencies, the USPTO continued to emphasize,
Inquiry with NTIA and plans to issue a report on digital               in the drafting of WHO resolutions, the vital role IP plays in the
copyright later in the year.                                           creation of new medical products.


On May 26, the USPTO joined the Antitrust Division of the              The USPTO offered policy guidance and expertise in the course
DOJ and the Federal Trade Commission (FTC) in hosting                  of several additional international negotiations, including those
several panels of economists, attorneys, entrepreneurs, and            convened under the auspices of the Convention on Biological
other government and private industry specialists for a                Diversity, the United Nations Framework Convention on Climate
day-long symposium on the intersection of competition and              Change, the United Nations Conference on Trade and
patent policy.                                                         Development, and several specialized agencies of the United
                                                                       Nations such as WIPO.
The USPTO provided expert policy advice to the USTR in the
                                                                       Providing technical expertise in negotiation and
2010 “Special 301” review of the IP systems of our trading
                                                                       implementation of bilateral and multilateral
partners, and in IP discussions in the WTO, including the WTO
                                                                       agreements
TRIPS Council, WTO Trade Policy Reviews, and accessions to
the WTO. The USPTO also advised USTR with regard to the                The USPTO continued to provide to other agencies of the USG,
negotiation and implementation of trade agreements involving           in particular the Office of the USTR, the Department of
IP including the Anti-Counterfeiting Trade Agreement (ACTA).           Commerce, and the Department of State, technical advice and
                                                                       expertise on IP administration, protection, and enforcement,
During FY 2010, the USPTO supplied policy guidance to the              during both the formulation and negotiation of the IP protec-
interagency team negotiating Science and Technology (S&T)              tion and enforcement provisions of various multilateral and




32	                                                                  Performance and accountability Report: Fiscal Year 2010
                                                                                  Mana g ement ’ s D iscussion and A nalysis




bilateral agreements, and the subsequent implementation and         Chile, Jordan, Morocco, Oman, and Peru, and the pending
evaluation of such agreements. Agreements on which the              FTAs with Colombia and Panama. The USPTO continued to
USPTO provided such expertise and advice include: the WTO           consult with the USTR on issues raised in connection to the
TRIPs Agreement, bilateral and regional Free Trade Agreements       pending Korea-US FTA, and the possible resumption of FTA
(FTAs), Trade and Investment Framework Agreements (TIFAs),          negotiations with Malaysia.
Science and Technology Agreements, the Anti-Counterfeiting
Trade Agreement (ACTA), and the Trans-Pacific Partnership           The USPTO also provided technical expertise and capacity-
Agreement (TPP). The USPTO will continue its work to compile        building activities in connection with various TIFAs, including
all partner agreements, MOUs, and work plans in determining         those with: Algeria, Brunei Darussalam, Cambodia, CARICOM,
whether such agreements are viable/functional and identifying       East African Community, Egypt, Ghana, Indonesia, Kuwait,
gaps and funding challenges.                                        Lebanon, Malaysia, Nigeria, Philippines, Saudi Arabia, South
                                                                    Africa, Thailand, Tunisia, and Vietnam.
The range of technical expertise and services provided by the
USPTO included:
                                                                    Increasing the effectiveness of IP attachés in
                                                                    prioritized countries/regions
●●   Legislative and regulatory analysis and drafting;
                                                                    In FY 2010, to improve the effectiveness of IP attachés, the
●●   Comments and reactions on proposed drafts and text;
                                                                    USPTO appointed a program director to oversee the IP Attaché
●●   Compliance with international standards;                       Program. The program director communicates directly with
                                                                    the attachés to ensure they have adequate support from the
●●   Technical and tactical advice on accomplishing certain
                                                                    headquarters as well as the country/region teams at the USPTO.
     goals and objectives;
                                                                    The attachés’ primary goals are to promote U.S. government
●●   Placing of IP protection and enforcement within a national     IPR policy internationally; to help secure strong IPR provisions
     or regional legal, historic, cultural, or political context;   in international agreements and host country laws; and to
                                                                    encourage strong IPR protection and enforcement by U.S.
●●   Identification of potential administrative improvements to
                                                                    trading partners for the benefit of U.S. rights holders. The
     existing foreign IP regimes;
                                                                    attachés engage with national/regional IP offices on bilateral
●●   Design and provision of training and capacity-building         and plurilateral IP issues, as well as with other host govern-
     activities to assist with human resource development;          ment agencies. For instance, the IP attaché for South Asia
                                                                    successfully worked to prevent the Sri Lankan government
●●   Creation of public education and consumer awareness
                                                                    from using pirated software. This accomplishment will represent
     programs on the importance of IP protection, innovation,
                                                                    millions of dollars in sales to U.S. software companies that will
     creativity, and enforcement;
                                                                    now be able to sell to the Government of Sri Lanka (GOSL).
●●   Infrastructure improvements;
                                                                    Attachés have also worked to bring about legislative change in
●●   Compliance with rule of law and transparency in
                                                                    their host country. For example, Thailand had opposed joining
     decision-making; and
                                                                    the Madrid Protocol, saying that it only benefited foreign
●●   The integration of legal regimes into a broader                trademark owners. Based on the outreach efforts of the attaché,
     international system.                                          the Thai business community lobbied their government to join
                                                                    the Protocol. This year the Thai Government pledged to join
The two major multilateral negotiations which USPTO provided        the Protocol.
technical expertise to the USTR are the on-going ACTA and the
newly launched TPP. For bilateral activities, the USPTO             During FY 2010, the IP attachés continued fostering long-term
provided technical expertise in the on-going evaluation of          and direct working relationships with the national governments
certain FTAs, including Australia and Singapore, and a range of     in their host countries, as well as the private sector. The IP
technical assistance and capacity-building activities in support    attaché for Latin America worked with the USPTO region team
of the implementation of the FTAs with Bahrain, Central             to help finalize a cooperative agreement between Chile’s IP
American Free Trade Agreement (CAFTA)-Dominican Republic,           Office (INPI) and USPTO to develop technical cooperation




www.uspto.gov	                                                                                                                    33
M anagement’s Discussion and Analysis




between the offices. Likewise, in FY 2010, the IP attaché in          GOAL 3 PERFORMANCES MEASURES
Russia helped conclude a Memorandum of Understanding for
Bilateral Cooperation between the USPTO and Rospatent.                International Policy Efforts

In FY 2010, the attachés also worked with country/region              This new measure, which replaces IP performance measures
teams at the USPTO to develop country/region integrated               reported in past years, tracks the USPTO’s efforts in relation
action plans that focus on specific needs of the countries            to prioritizing countries of interest for purposes of improved
contained in their portfolios. For example, the attaché in            IP protection and enforcement, capacity building, legisla-
Beijing leads the Embassy’s IPR Task Force monthly meetings,          tive reform, including creation of country/region strategic
which includes all the various agencies that affect and are           plans and specific action plans.
affected by IP issues. The attaché led the task force in drafting
the China mission IPR strategy, developing consensus on IP
                                                                        Measure: Percentage of prioritized countries that have
subject matter priorities.                                              implemented at least 75% of action steps in the country-
                                                                        specific action plans toward progress along following
                                                                        dimensions:
                                                                          1.	Institutional improvements of IP office administration
                                                                             for advancing IPR
                                                                          2.	Institutional improvements of IP enforcement entities
                                                                          3.	Improvements in IP laws and regulations
                                                                          4.	Establishment of government-to-government
                                                                             cooperative mechanisms
                                                                          FISCAL YEAR           TARGET                ACTUAL
                                                                              2009              Baseline
                                                                              2010               50.0%                 75.0%
                                                                              2011               75.0%
                                                                              2012               75.0%

                                                                         Target Met.




34	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                      Mana g ement ’ s D iscussion and A nalysis




Management Goal: Achieve Organizational Excellence


F
     ulfillment of the USPTO’s mission requires strong leader-
     ship and collaborative management. While the three
     strategic goals focus on our core mission, our overarching
management priorities focus on the shared responsibility that
is a prerequisite for achieving those goals, objectives, and
measures namely, the priorities of sound resource manage-
ment, solid workforce planning, corporate support services,
and effective use of IT. Performance measures are not assigned
to the Management Goal.



OBJECTIVE 1: IMPROVE IT INFRASTRUCTURE
AND TOOLS

                                                                        The USPTO host the Strategic Planning session for all the Department
The USPTO continued to make improvements in our IT enter-
                                                                        of Commerce’s bureaus. Commissioner for Patents Bob Stoll leads a
prise architecture, internal processes, and organizational
                                                                        conversation at the break out planning session.
alignment to improve our ability to be more responsive and
better manage and deliver quality products at enhanced service
levels. In particular, these initiatives directly support the USPTO
                                                                      The Office of the Chief Information Officer (OCIO) continues
2010-2015 Strategic Plan to:
                                                                      to work in improving the visibility of IT costs by instituting a
                                                                      standardized budget execution system with assistance from the
●●   Improve overall efficiency;
                                                                      Office of the Chief Financial Officer (OCFO). This has allowed
●●   Improve availability of and streamline access to USPTO           for the OCIO to work with all of the USPTO Business Units to
     information, data, and services;                                 create an improved long-term IT investment strategy, which is
                                                                      discussed further in the USPTO Strategic Information Technology
●●   Serve an increasingly geographically dispersed workforce;
                                                                      Plan (SITP).
●●   Implement faster, more secure information exchange;
                                                                      In fulfilling responsibilities under 44 U.S.C. § 3504(h), the
●●   Continue expansion and improvement of e-filing,
                                                                      USPTO uses a Capital Planning and Investment Control (CPIC)
     e-processing, and other e-government efforts; and
                                                                      process to prioritize investments and determine funding levels
●●   Improve the USPTO’s IT infrastructure and tools.                 for subsequent fiscal years. Projects are carefully managed
                                                                      throughout their life cycle, and progress reviews are conducted
In keeping with the Administration’s commitments for                  at key milestone dates, to compare the project’s status to
“Transparency, Participation, and Collaboration”, the USPTO           planned benefit, cost, and schedule, along with technical effi-
expanded access to all Patent and Trademark data through the          ciency and effectiveness measures. All major IT system invest-
Data.gov and Google.com Web sites. The purpose of these               ments are reported in the Office of Management and Budget’s
free Web sites is to increase awareness and access to machine-        (OMB) Circular A-11, Exhibit 53, Exhibit 300s, and the USPTO’s
readable federal information by the public in easy-to-find,           IT Investment Portfolio.
downloadable datasets.




www.uspto.gov	                                                                                                                             35
M anagement’s Discussion and Analysis




The USPTO’s OCIO continued to work diligently with the                  The USPTO continues to be a model for telework in the federal
Office of the Inspector General (OIG) and the DOC to improve            government. This year the USPTO secured the “Innovative
the USPTO’s overall IT security program and the quality of the          Application of Technology to Support Telework” award, for
certification and accreditation (C&A).                                  developing and deploying the Enterprise Remote Access (ERA)
                                                                        Portal telework solution. The ERA Portal provides a versatile
                                                                        and economical telework solution and is an attractive option
OBJECTIVE 2: IMPLEMENT A SUSTAINABLE                                    for many USPTO business units who want to deploy tele-
FUNDING MODEL FOR OPERATIONS                                            workers without incurring the expenses associated with the
                                                                        standard ERA suite of equipment. The agency was also awarded
In FY 2010, the USPTO has been working to establish a sustain-          the 2010 “Federal Telework Driver Award”.
able funding model that provides the USPTO with a reliable
and sustainable source of funding. The USPTO operating                  USPTO telework has been highlighted in the Washington
structure is like a business in that it receives requests for           Post, Government Executive, the Federal Times, on Federal
services—applications for patents and trademark registrations—          News Radio, and has become a valued resource for federal
and charges fees projected to cover the cost of performing the          agencies seeking to start or expand their telework programs.
services it provides. Unlike a business, however, the USPTO             Additionally, the USPTO participated in a White House Forum
does not have the flexibility to adjust its fees or spending            on Workplace Flexibility to share agency perspective on
authority if actual application filings and revenues are different      telework and the 21st century worker.
than those previously estimated. A USPTO funding model
must span multiple years and be adaptable to fluctuations.              To continue to strive for organizational excellence, the
Anything less will not sustain operation of our nation’s IP             USPTO implemented an agency-wide Leadership Development
system over an extended period of time.                                 Program featuring a world-class portfolio of online tools, job
                                                                        aids, resources, and classroom and computer-based courses.
The FY 2011 President’s Budget begins moving the USPTO in the           The program provides a diverse set of development strate-
direction of a sustainable funding model by: (1) Ensuring access        gies to help supervisors and employees efficiently and effec-
to fee collections to support the performance objectives,               tively identify and close competency gaps, as well as
(2) Instituting an interim increase on certain patent fees as a         strengthen leadership values, knowledge, skills, and abilities.
financial bridge until the USPTO obtains fee setting authority and      The program is easily accessible, technologically savvy, and
develops a new fee structure that will provide sufficient financial     advances organizational development by cultivating a culture
resources in the long term; (3) Pursuing the legislative authority      of continual learning and professional growth. It includes an
to adjust our fee structure by regulation to better align fees with     online Supervisory Resource Center to provide just-in-time
the cost of providing services, and (4) Creating an operating           support for supervisors as they perform their day-to-day
reserve to manage operations on a multi-year basis. Fee setting         tasks. It also includes a 180° Leadership Assessment Tool to
authority, coupled with maintaining an operating reserve from           help identify individual strengths and development needs,
past fee collections would begin to put the USPTO on solid              along with online and group coaching to develop and
ground to adjust for volatility in the economy and/or demand for        implement a leadership development plan. The program has
products and services without putting the agency at risk.               been touted as a model of excellence and shared govern-
                                                                        ment-wide to assist other agencies who are considering
                                                                        launching a similar initiative.
OBJECTIVE 3: IMPROVE EMPLOYEE AND
STAKEHOLDER RELATIONS                                                   As part of the goal of building a more collaborative relation-
                                                                        ship with our unions, the USPTO has established a Labor-
The Office of the Chief Administrative Officer (OCAO) has               Management Council with National Treasury Employees Union
played a critical role in the agency’s efforts to meet the manage-      (NTEU) Chapter 243 that meets approximately each month to
ment goal to “achieve organizational excellence” by making              address issues of mutual concern. NTEU represents employees
significant improvements to many of our routine programs and            from numerous bargaining units and the council has been the
services in the areas of human resources, telework, civil rights,       best way to ensure collaboration and allow for pre-decisional
security, and safety.                                                   involvement on certain issues. This council compliments




36	                                                                   Performance and accountability Report: Fiscal Year 2010
                                                                                      Mana g ement ’ s D iscussion and A nalysis




                                                                        employees initially and the placement of hand sanitizer
                                                                        dispensers on every floor of every building.

                                                                        The Office of Civil Rights (OCR) has partnered with the agency’s
                                                                        business units in an effort to improve the performance and
                                                                        retention of patent examiners and the agency has supported
                                                                        the establishment of several new “affinity groups.” These new
                                                                        groups include: a chapter of the National Society of Black
                                                                        Engineers, a chapter of the Society of Hispanic Professional
                                                                        Engineers, the Society of Women in Science and Engineering,
                                                                        the IP Society of Iranian Americans, and the Society of Ethiopian
                                                                        American Professional Engineers and Scientists. The affinity
                                                                        groups are jointly developing a mentoring program that will
                                                                        make available mentors to new examiners shortly after their
                                                                        arrival at the agency.
  The Office of Civil Rights (OCR) hosted a special event for federal
  sector Science, Technology, Engineering and Mathematics (STEM)
                                                                        Additionally, the USPTO is working on expanding the pool of
  agencies in the Washington, DC metro area. The one-day confer-
                                                                        applicants for SES positions. OCR is periodically offering SES
  ence provided valuable perspectives and strategies for increasing
                                                                        preparation seminars to all interested employees so they are
  the representation of and retention of underrepresented groups in
                                                                        better prepared to apply for SES vacancies.
  STEM professions. Federal Equal Employment Opportunity (EEO)
  and human resources (HR) professionals from STEM agencies such
                                                                        The agency hosted its annual Community Day event, a major
  as NASA, NIST, EPA, NOAA, the Department of Energy, and the
                                                                        celebration of the agency’s diversity. The agency also held
  National Science Foundation gathered at the USPTO to gain new
                                                                        observances for National Hispanic Heritage Month, National
  insight and strategies for the government-wide STEM program.
                                                                        Disability Awareness Month, Black History Month, Engineering
                                                                        Week, National Women’s History Month, Asian Pacific American
                                                                        Heritage Month, and Lesbian, Gay, Bisexual and Transgender
periodic informal meetings between agency executives, POPA
                                                                        Pride Month.
and with NTEU Chapter 245.

                                                                        The agency created an electronic weekly publication for
Leadership development efforts are most successful when
                                                                        managers called, Diversity Counts that briefly covers either a
senior leaders set the example for others by engaging in their
                                                                        timely topic, such as a Martin Luther King Day announcement,
own development. Therefore, a Senior Executive Service (SES)
                                                                        or a training tip, such as how to respond to requests for non-
Council was established to maximize the capabilities, contribu-
                                                                        production time to engage in EEO activities.
tions, and potential of senior executives by bringing them
together to regularly network, discuss agency strategic priori-
                                                                        Providing information and feedback channels
ties, collaborate by sharing knowledge and resources across
                                                                        for employees and the public
business units, focus on results, recognize other’s performance
and contributions, and share best practices for helping subor-          The USPTO Ombudsman program is intended to provide
dinate leaders lead more effectively.                                   patent applicants, attorneys and agents assistance with appli-
                                                                        cation-specific issues including concerns related to prosecu-
The USPTO continually aims to create a workplace environ-               tion advancement. The objective is to quickly resolve issues
ment that is modern, safe, secure, attractive, and energy               and thereby to decrease pendency. The program spans all
efficient. The agency’s emergency preparedness program once             TCs, using TC ombudsman representatives who are SPEs and
again became vital to the safety and welfare of our employees           Quality Assurance Specialists (QASs) prepared to field
as the Influenza A (H1N1) virus was reported to be a threat to          questions and concerns from the public and work with the
our workforce. Excellent proactive health solution approaches           appropriate USPTO employees to facilitate responses. The
include providing the H1N1 vaccine to high risk category                ombudsman representative helps ensure that the applicant’s




www.uspto.gov	                                                                                                                        37
M anagement’s Discussion and Analysis




issues are addressed quickly – usually within five business             offered which are held bi-monthly for the public to ask
days. The ombudsman representative also ensures confiden-               questions and receive responses from USPTO experts in both
tiality when requested by the applicant or applicant’s                  the Patent and Trademark organizations. Training and
representative.                                                         education are provided through the creation of computer
                                                                        based training modules on the USPTO Web site. We regularly
The independent inventor community is a vital source of                 host education conferences where inventors can learn about
innovation and new business creation within the patent                  the importance of IP protection.
community. The USPTO has a long history of advocacy and
support of the independent inventor. The patent and                     USPTO has established a series of pro bono IP services with
trademark process can be complicated for independent                    the help of universities, law offices, and technology transfer
inventors and SMEs. As part of the USPTO stakeholder                    offices. In all cases, the USPTO was instrumental in developing
outreach, numerous independent inventor assistance programs             the concept and finding partners. The USPTO acts as an infor-
have been developed by the USPTO. Our outreach includes                 mation conduit for independent inventors through our Web site
the Inventors Eye Newsletter, an electronic quarterly publica-          and outreach events. There are 13 universities currently offering
tion. Inventors Eye is for and about America’s independent              IP law clinics on IP rights education aimed at independent
and small entity inventor community. The USPTO holds                    inventors. The IP law clinics will provide basic IP education.
an annual Independent Inventor conference to address issues             A small pilot program was created with three university tech-
of concern to the independent and small entity inventor                 nology transfer offices and law schools to assist independent
community. To supplement the roundtables, on-line chats are             inventors with claims search and application preparation. This
                                                                        program offers more education and consulting than the IP law
                                                                        clinics. A pro bono legal service has been established with a
                                                                        select group of law offices to offer legal services to indepen-
                                                                        dent inventors who can show significant effort in defining
                                                                        claims and completing an initial search. Independent inventors
                                                                        can work directly with experts to improve their applications.

                                                                        The USPTO has actively solicited and gathered opinions and
                                                                        suggestions from our applicants through numerous roundtables
                                                                        by which we have demonstrated our commitment to enlist the
                                                                        help of all stakeholders in our problem-solving process.
                                                                        A “feedback loop” has been established for our roundtables
                                                                        that include communication with stakeholders, posting
                                                                        summaries of comments, and providing summaries of resulting
                                                                        actions. Roundtables have included: International Work sharing
  Under Secretary David Kappos and Deputy Under Secretary Sharon
                                                                        and the PCT, Patent Quality (Los Angeles, CA and Alexandria,
  Barner led a public roundtable on Board of Patent Appeals and
                                                                        VA), Bose Fraud on the Trademark Office, and the Enhanced
  Interferences (BPAI) ex parte rules at the USPTO’s Alexandria, VA
                                                                        Examination Timing Control Initiative.
  headquarters.




38	                                                                   Performance and accountability Report: Fiscal Year 2010
Management Challenges and What’s Ahead


T
      he distance between innovation and the marketplace is shrinking. Said another way,
      innovation is moving more quickly from creation to manufacture and distribution.
      IP is a necessary instrument for innovators and businesses to capture value as ideas
move to the marketplace. In performing its mission — quality examination and disposition
of patents and trademarks—the USPTO faces significant challenges.



Build and Focus on Improvements

The Patent and Trademark organizations will build on its accomplishments and work
toward meeting the objectives of the USPTO 2010-2015 Strategic Plan while working with
customers to ensure that the objectives remain aligned with their needs. The Patent orga-
nization’s challenges are to create pathways for optimal pendency, to provide applicants
with greater control over examination timing, and to create a quality review system that
provides the high quality patents. The Patent organization must meet these challenges
while facing the rapid rise in advanced technologies. Consequently, the Patent organization
will continue to hire, train, and retain additional examiners, and explore and implement
process improvements. These actions will help to make the USPTO even more responsive
to the ever-increasing demand for patents.

The Trademark organization’s biggest challenge is to maintain its quality and pendency
achievements, given the uncertainty of trademark filings, future revenues, and costs.
The Trademark organization strives to support a high quality operation and maintain consis-
tent first-action pendency of 2.5 to 3.5 months, even in the face of monthly fluctuations in
filings, the unpredictability of projecting new filings in the current economy, and the need
to secure congressional approval for certain aspects of funding and fee changes.

The Trademark organization must strike a proper balance between forecasting filing levels,
existing inventories, and managing an appropriately sized staff to ensure sufficient resources
are available to maintain pendency goals on a consistent basis. Efficiency gains have been
realized through process improvement and cost reduction, along with greater use of infor-
mation technology.

Although first and final quality compliance rates are very high and consistently exceed
96 percent, the Trademark operation continues efforts to improve quality in a cost-effective
manner. To raise the bar, the Trademark organization is emphasizing comprehensive excel-
lence in office actions, which expands upon the existing first and final action standards for
correct decision-making. While a comprehensively excellent office action certainly reflects
correct decision-making, it also includes excellent evidentiary support and is very well-
written. The success of this initiative depends on novel and focused training, best practice
benchmarking and sharing, new quality incentives, sustained communication, and close
collaboration with key stakeholders.




www.uspto.gov	                                                                                   39
M anagement’s Discussion and Analysis




                                                                      fully fund PCT outsourcing. Mission-critical IT projects to
                                                                      increase the effectiveness of every USPTO function was
                                                                      also accelerated.

                                                                      In addition to the above efforts, a sustainable funding model
                                                                      must be established that provides USPTO fee setting authority
                                                                      so that we are able to manage patent and trademark revenue
                                                                      fluctuations and properly align fees with costs in a timely, fair
                                                                      and consistent manner. We will collaborate and build relation-
                                                                      ships with our international counterparts that foster seamless
                                                                      and cost-effective IP rights and that ensure global competitive-
                                                                      ness for American innovators and businesses. Only through
                                                                      building these solid partnerships—where we work together to
                                                                      achieve our goals—is the USPTO capable of being successful.
  Under Secretary David Kappos testifies before the House
  Appropriations Committee on the President’s USPTO FY 2011
  budget request.                                                     Continue to Move to an Electronic
                                                                      Workplace

Manage and Execute to Goals                                           The Patent and Trademark organizations have made significant
                                                                      progress to eliminate paper documents and manual transac-
The USPTO’s promotion, protection, and enforcement of IP              tions from their processes. Electronic communications are
rights have never been more important to our nation’s economic        improving and encouraging more applicants to do business
prosperity. The USPTO must harness the expertise and skills           electronically by using Web-based systems. The Patent and
within the agency and leverage new technology to achieve its          Trademark organizations now rely heavily on data submitted or
goals. The actions taken by the agency to create a unified            captured electronically to support examination, publish
system to deliver timely, high-quality patents and trademarks         documents, and issue registrations. Because of the high degree
must be carefully managed. The agency continues to face the           of reliance on electronic operations, both organizations are
external pressures of increasing application volume and rapid         dependent on the management and support of internal infor-
technology changes. We will meet these challenges by updating         mation technology systems and services to manage their opera-
our antiquated IT infrastructure; hiring, retaining, and training     tions and provide services to the public.
examiners; and improving our operations to be more effective
and efficient. As we work to improve our agency, we must              The Patent and Trademark organizations, along with the
continue to build relationships with our workforce, applicants,       support of the OCIO, are working to address the challenge of
owners of patents and trademarks, Congress, and the public.           completing an electronic docket and file management system.
                                                                      These systems will link all operations and processing that
Although patent and trademark application filings show positive       support core examination and post-issuance activities. A fully
growth this year compared with the negative decline in filings        electronic workflow will allow both organizations to better
last year, in order to maintain the USPTO’s financial health, an      manage the fluctuations in filings and be more efficient, as well
increase of $129 million to the spending authority was signed         as timely, in processing and responding.
into law on August 10th. This action reflects the recognition
on the part of the Administration and the Congress of the vital       Another major challenge is to integrate and modernize legacy
role our Agency plays in supporting innovation and in spurring        systems, especially those now used for Patent operations.
job creation and economic growth. This increase allowed the           The legacy systems were developed over the past 30+ years,
USPTO to immediately take a number of actions that benefited          and most have their own user interface, do not allow for easy
the entire IP community, including: hiring additional examiners;      movement of data to other systems, and were built on now-
funding full overtime for examiners and support staff; acceler-       obsolete technology. The goal of our next generation IT
ating examination process reengineering; and continuing to            systems is to provide a common user interface and full data



40	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                  Mana g ement ’ s D iscussion and A nalysis




integration using modern IT tools, replacing the current anti-     patent reform legislation discussed on Capitol Hill during the
quated and decaying infrastructure.                                111th Congress and the USPTO’s FY 2011 budget request
                                                                   before Congress.
This increased reliance on electronic systems presents other
challenges to the USPTO in the event of an unplanned outage
or disruption in processing. To address this need, the USPTO       Recruit and Hire, Develop and Retain
has embarked on an aggressive, phased business continuity/         the Right Skills and Talent
disaster recovery program. The USPTO has established a
remote data bunker which contains on-line backups of mission       The USPTO’s mission requires a highly skilled, well educated,
critical data.                                                     and diverse workforce. The agency faces the ongoing need to
                                                                   recruit, hire, develop, and retain sufficient numbers of qualified
                                                                   professionals in a highly competitive environment.
Strengthen Global IPR Systems
                                                                   The USPTO strives to attract the highest-skilled, highest-
The challenges for the USPTO in carrying out its mission with      performing, and most diverse workforce possible. Attracting
regard to international initiatives are several and varied.        the desired candidates ensures that there are sufficient numbers
Funding uncertainty continues for personnel resources, GIPA        from which to select. The agency has begun a targeted
programs, and the IP Attaché program. A lack of political will     approach to recruit a highly skilled and experienced IP
on the part of some countries hinders progress in bilateral and    workforce while continuing to recruit candidates from our
multilateral negotiations. Institutional and governance concerns   traditional sources. It is anticipated that this new hiring strategy,
persist with regard to several international organizations with    which focuses on experienced practitioners, will garner a more
which the USPTO engages.                                           productive and balanced workforce, lower attrition levels, and
                                                                   foster a faster transition to productivity for new hires.
The USPTO will continue to promote the adequate and effective
protection and enforcement of IP rights overseas, and will         Once hired, efforts must be continued to develop our employees.
strengthen efforts to streamline and improve global systems for    Many of our training programs are designed to enhance funda-
the registration and grant of IP rights. USPTO capacity building   mental skills required for job performance, improve communi-
and technical assistance will target developing and least          cation and cooperation with internal and external customers,
developed countries and support the initiatives of the U.S. IP
Enforcement Coordinator. Use of search and examination
results from foreign IP offices also will be increased in the
USPTO’s work sharing initiatives.



USPTO Funding Model

The USPTO is challenged to establish a sustainable funding
model that provides the requirements-based authority to spend
all fees collected on operations and work received, spans
multiple years, and is adaptable to fluctuations inherent in
estimates. Another important aspect of a sustainable funding
model is the authority to set and adjust fees by regulation, so
that we can properly establish and align fees in a timely, fair,
and consistent manner without the inherent time impediments          Krissy Fulton (center), 2009 Patent and Trademark Office Society
of the legislative process. Today, the USPTO does not have the       (PTOS) president and Matthew Bradley (right), 2009 PTOS vice pres-
ability to proactively adjust over 80 percent of its fees in         ident, present Deputy Under Secretary Sharon Barner with a framed
response to changes in demand for services, processing costs,        copy of the first United States Patent at the PTOS annual meeting.
or other factors. This fee-setting authority is contained in the



www.uspto.gov	                                                                                                                        41
M anagement’s Discussion and Analysis




and strengthen leadership skills at all levels. Knowledge             Create IT Enterprise Architecture That
management must be supported by an appropriate investment             Supports Mission-Critical Business and
in training, development and technology.                              Programmatic Requirements

In order to retain our highly skilled employees, the USPTO            In FY 2011, the USPTO will continue to take steps to improve
strives to be recognized as an employer of choice. Our retention      its ability to be more responsive and better manage and deliver
strategies must continually be updated to reflect industry best       quality products at enhanced service levels. This will be
practices. Attrition data will be tracked and survey results          accomplished by reducing the complexity of systems, estab-
monitored in an effort to discern the effectiveness of our            lishing and enforcing more standards, and practicing continual
retention initiatives and to identify developing trends.              process improvement.

                                                                      In addition, the OCIO will continue to:
Communication and Human Capital
Management                                                            ●●   Work with the OIG and the DOC to improve the overall IT
                                                                           security program and C&A package quality.
The USPTO recognizes the importance of building an active
                                                                      ●●   Work on strengthening our IT Infrastructure and moving to
and engaged communication culture as a vital component of
                                                                           a “cloud” computing environment.
the agency’s strategic goal of transparency, accountability and
interactivity. The USPTO continues to identify new and inno-          ●●   Expand IT infrastructure to include faster network
vative ways to communicate and collaborate with employees                  connections to/from USPTO campus, a universal laptop,
and stakeholders. Through these communication avenues, the                 Voice over Internet Protocol (VOIP) telephones, and
agency will share human capital programs and information,                  additional collaboration tools in support of a nationwide
and will solicit employee feedback and recommendations                     workforce.
regarding current human capital activities, as well as new ones
                                                                      ●●   Plan, implement, and maintain IT systems that support and
of interest.
                                                                           improve business processes in the Patent and Trademark
                                                                           organizations.
Employees are the most valuable asset of the USPTO and the
key to the agency’s ability to meet mission-critical require-
ments. The USPTO has focused its efforts in recent years on
improvements and worklife enhancements which have
increased employee satisfaction at the USPTO as reported on
the annual Employee Viewpoint Survey. The USPTO recog-
nizes human capital as it’s most critical and important asset.
As in many large organizations, there are opportunities for
improvement in the agency’s management of human capital
issues. A comprehensive Strategic Human Capital Plan, which
is aligned with the USPTO 2010-2015 Strategic Plan, has been
developed to manage the agency’s human capital. This plan
identifies specific human capital goals and objectives to address
agency needs.


                                                                           Senior Advisor for Telework Danette Campbell with Feodor Vostrikov
                                                                           and Elena Smirnova from the Russian Federal Service for Intellectual
                                                                           Property, Patent and Trademarks (Rospatent) gather at the USPTO
                                                                           to share their experience in designing and developing telework
                                                                           programs for their examiners.




42	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                  Mana g ement ’ s D iscussion and A nalysis




●●   Begin development of a Patent End-to-End Processing
     System and a Trademark Next Generation System.
●●   Work to develop and fully implement an IT Human Capital
     Strategic Plan, in alignment with the USPTO Strategic
     Human Capital Plan 2007-2010, that will set the foundation
     to hire, develop, and retain a highly competent IT Workforce
     now and in the future.
●●   Improve the security, availability, and quality of IT systems
     and services while reducing their complexity and cost;
     support business area needs to accommodate the hiring
     and equipping of new employees; provide internal on-line
     tools (regarding consistency and quality of searching and
     examination); provide electronic file management and
     workflow; develop interactive on-line electronic filing         Deputy Under Secretary Sharon Barner held the first “Noon Forum”
     capabilities and upgrade e-tools to the public; help move       executive brown bag lecture series with USPTO employees on the
     the USPTO to fully electronic records and eliminate the         topic of China. Chief Communications Officer and Senior Advisor to
     need to collect and store paper records; and continue to        the Under Secretary Peter Pappas moderated the hour-long forum.
     improve overall data quality.
●●   Work with the OCFO to plan, implement and support Fee
     Processing Next Generation (FPNG) system that integrates
     with the IT systems for the Patent and Trademark
     organizations.
●●   Continue to add datasets to the Data.gov Web site,
     providing the public with no-cost access to bulk text and
     image data collections of current and retrospective patent
     and trademark data.




www.uspto.gov	                                                                                                                        43
Accompanying Information
on USPTO Performance

           Performance Audits and Evaluations

           W
                      hile there were several OIG audits and evaluations on-going at the end of
                      FY 2010, the OIG did not issue any audit or evaluation reports during
                      FY 2010.



           Performance Data Verification and Validation

           In accordance with GPRA requirements, the USPTO is committed to making certain
           the performance information it reports is complete, accurate, and consistent. The
           USPTO developed a strategy to validate and verify the quality, reliability, and credi-
           bility of USPTO performance results and has taken the following actions:

           ACCOUNTABILITY — Responsibility for providing performance data lies with managers
           of USPTO programs who are held accountable for making certain that procedures are
           in place to ensure the accuracy of data and the performance measurement sources
           are complete and reliable.

           QUALITY CONTROL — Automated systems and databases that collect, track, and store
           performance indicators are monitored and maintained by USPTO program managers,
           with systems support provided by the OCIO. Each system, such as the Patent
           Application Location and Monitoring (PALM) or Trademark Reporting And Application
           Monitoring (TRAM), incorporates internal program edits to control the accuracy of
           supporting data. The edits typically evaluate data for reasonableness, consistency, and
           accuracy. Crosschecks between other internal automated systems also provide assur-
           ances of data reasonableness and consistency. In addition to internal monitoring of
           each system, experts outside of the business units routinely monitor the data-collec-
           tion methodology. The OCFO is responsible for monitoring the agency’s performance,
           providing direction and support on data collection methodology and analysis, ensuring
           that data quality checks are in place, and reporting performance management data.




44	                               Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




DATA ACCURACY — The USPTO conducts verification and                   Commissioner’s Performance for FY 2010
validation of performance measures periodically to ensure
quality, reliability, and credibility. At the beginning of each       The AIPA, Title VI, Subtitle G, the Patent and Trademark Office
fiscal year, and at various points throughout the reporting or        Efficiency Act, requires that an annual performance agreement
measurement period, sampling techniques and sample counts             be established between the Commissioner for Patents and the
are reviewed and adjusted to ensure data are statistically reliable   Secretary of Commerce, and the Commissioner for Trademarks
for making inferences about the population as a whole.                and the Secretary of Commerce. The Commissioners for Patents
Data analyses are also conducted to assist the business units in      and Trademarks have FY 2010 performance agreements with
interpreting program data, such as the identification of statisti-    the Secretary of Commerce, which outline the measurable
cally significant trends and underlying factors that may be           organizational goals and objectives for which they are respon-
impacting a specific performance indicator. For examination           sible. They may be awarded a bonus, based upon an evalua-
quality measures, the review programs themselves are assessed         tion of their performance as defined in the agreement, of up to
in terms of reviewer variability, data entry errors, and various      50 percent of their base salary. The results achieved in FY 2010
potential biases.                                                     are documented in this report. FY 2010 bonus information is
                                                                      currently not available. For FY 2009, the Commissioner for
                                                                      Patents was awarded a bonus of 21.8 percent of base salary
                                                                      and the Commissioner for Trademarks a bonus of 14.5 percent
                                                                      of base salary.




www.uspto.gov	                                                                                                                     45
Management Assurances and
Compliance with Laws and Regulations

          T   his section provides information on the USPTO’s compliance with the following
          legislative mandates:

          ●●   Federal Managers’ Financial Integrity Act
          ●●   Federal Financial Management Improvement Act (FFMIA)
          ●●   Federal Information Security Management Act (FISMA)
          ●●   Financial Management Systems Strategy
          ●●   Inspector General (IG) Act Amendments
          ●●   OMB Financial Management Indicators
          ●●   Prompt Payment Act
          ●●   Civil Monetary Penalty Act
          ●●   Debt Collection Improvement Act
          ●●   Biennial Review of Fees



          Management Assurances

          Federal Managers’ Financial Integrity Act

          The FMFIA requires Federal agencies to provide an annual statement of assurance regarding
          management controls and financial systems. The USPTO management is responsible for
          establishing and maintaining effective internal control and financial management systems
          that meet the objectives of the FMFIA. The objectives of internal control, as defined by the
          Government Accountability Office (GAO), are to ensure:

          ●●   Effectiveness and efficiency of operations;
          ●●   Reliability of financial reporting; and
          ●●   Compliance with laws and regulations.

          The statement of assurance is provided below. This statement was based on the review
          and consideration of a wide variety of evaluations, control assessments, internal analyses,
          reconciliations, reports, and other information, including the DOC OIG audits, and the
          independent public accountants’ opinion on the USPTO’s financial statements and their




46	                                  Performance and accountability Report: Fiscal Year 2010
                                                                             Mana g ement ’ s D iscussion and A nalysis




reports on internal control and compliance with laws and regu-



                                                                  O
lations. In addition, USPTO is not identified on the GAO’s High              n the basis of the USPTO’s comprehensive
Risk List related to controls governing various areas.                       internal control program during FY 2010, the
                                                                             USPTO can provide reasonable assurance that
                                                                  its internal control over the effectiveness and efficiency
Federal Financial Management                                      of operations and compliance with applicable laws and
Improvement Act                                                   regulations as of September 30, 2010, was operating
                                                                  effectively. Accordingly, I am pleased to certify with
The FFMIA requires Federal agencies to report on agency
                                                                  reasonable assurance that our agency’s systems of
substantial compliance with Federal financial management
                                                                  internal control, taken as a whole, comply with Section 2
system requirements, Federal accounting standards, and
the U.S. Standard General Ledger at the transaction level.        of the Federal Managers’ Financial Integrity Act of 1982.
The USPTO complied substantially with the FFMIA for               Our agency also is in substantial compliance with appli-
FY 2010.                                                          cable federal accounting standards and the U.S. Standard
                                                                  General Ledger at the transaction level and with federal
                                                                  financial system requirements. Accordingly, our agency
                                                                  fully complies with Section 4 of the Federal Managers’
Other Compliance with                                             Financial Integrity Act of 1982, with no material

Laws and Regulations                                              non-conformances.

                                                                  In addition, the USPTO conducted its assessment of
                                                                  the effectiveness of our agency’s internal control over
Federal Information Security Management Act
                                                                  financial reporting, which includes safeguarding of
The USPTO continues to stay vigilant in reviewing administra-     assets and compliance with applicable laws and regu-
tive controls over information systems and is always seeking      lations, in accordance with OMB Circular A-123,
methods of improving our security program. During FY 2010,        Management’s Responsibility for Internal Control.
the FISMA Report Instructions significantly impacted the          Based on the results of this evaluation, the USPTO
approach of the USPTO IT Security Program. The previous           provides reasonable assurance that its internal control
methodology documented tri-annual “point in time snapshots”       over financial reporting as of June 30, 2010 was
regarding the process and level of compliance of USPTO IT         operating effectively and no material weaknesses were
security by preparing the master system certification and         found in the design or operation of the internal control
accreditation packages. The new requirements focus our time       over financial reporting. In addition, no material
and attention on continuous monitoring of the information         weaknesses related to internal control over financial
systems, which requires significant investments in automated
                                                                  reporting were identified between July 1, 2010 and
tools and manpower that must be properly managed.
                                                                  September 30, 2010.
This defensive cybersecurity focuses on the most damaging
potential risks through good metrics and personal account-
ability and provides the USPTO the ability to concentrate our
efforts and resources on where we are most likely to be
attacked.
                                                                  David J. Kappos
As a result, the Chief Information Security Officer and the       Under Secretary of Commerce for Intellectual Property and
OCIO staff working together made a concerted effort to meet
                                                                  Director of the United States Patent and Trademark Office
the new compliance requirements of FISMA, while also meeting
the reporting requirements to OMB. These endeavors were a         November 9, 2010
complete success. All USPTO systems (28 out of 28) achieved




www.uspto.gov	                                                                                                                 47
M anagement’s Discussion and Analysis




a 100 percent FISMA compliance reporting level prior to the         implementing FPNG supports USPTO’s Strategic Priority,
end of FY 2010. There were no deficiencies identified that are      “Improve IT Infrastructure and Tools”, and will replace legacy
considered to be the result of any material weaknesses in           RAM with modern 21st Century technology that has more
internal control. As a result of the work accomplished, the         automated internal controls, electronic commerce capabilities,
USPTO was able to roll forward with continuous monitoring           and will be able to meet the Patent and Trademark fee collec-
and provide an accurate summary of information consistent           tion needs of the future. The lack of modern technology in
with OMB reporting requirements for year-end reporting.             legacy RAM hinders the USPTO from taking full advantage of
                                                                    the potential benefits from Patents End-to-End and Trademarks
The OCIO continues to coordinate closely with the OIG               Next Generation initiatives.
throughout the year, as well as review annual assessments with
the OIG, to gain additional insight and ensure compliance with
requirements.                                                       Inspector General Act Amendments

                                                                    The Inspector General Act, as amended, requires semi-annual
Financial Management Systems Strategy                               reporting on IG audits and related activities, as well as any
                                                                    requisite agency follow-up. The report is required to provide
The USPTO’s Consolidated Financial System (CFS) provides            information on the overall progress on audit follow-up and
support for financial management, fee collections, procurement,     internal management controls, statistics on audit reports with
and travel management functions to the USPTO. CFS leverages         disallowed costs, and statistics on audit reports with funds put
several Commercial-off-the-shelf (COTS)/Government-off-the-         to better use. The USPTO did not have audit reports with
shelf (GOTS) products that includes:                                disallowed costs or funds put to better use.

●●   The core financial and acquisition system (Momentum            The USPTO’s follow-up actions on audit findings and recom-
     Financials);                                                   mendations are essential to improving the effectiveness and
                                                                    efficiency of our programs and operations. No new audit
●●   eTravel system (FedTraveler);                                  reports were issued during FY 2010.
●●   Budget execution and compensation projection system
     (Corporate Planning Tool using the Cognos Planning tool);
                                                                    OMB Financial Management Indicators
●●   Cost accounting system (Activity Based Information System
     built using the Profitability and Cost Management tool);
                                                                    The OMB prescribes the use of quantitative indicators to
     and
                                                                    monitor improvements in financial management. The USPTO
●●   Data warehouse (Enterprise Data Warehouse accessed using       tracks other financial performance measures as well. The table
     the Business Objects tool).                                    above shows the USPTO’s performance during FY 2010 against
                                                                    performance targets established internally and by OMB and the
Additionally, CFS includes an internally developed fee collec-      government-wide Metric Tracking System (MTS).
tion system (Revenue Accounting and Management (RAM)) and
an internally developed application to automate the transit
subsidy program (Transit Subsidy System).                           Prompt Payment Act

As the USPTO progresses with its Patent and Trademark IT            The Prompt Payment Act requires Federal agencies to report
strategies (Patents End-to-End and Trademarks Next Generation),     on their efforts to make timely payments to vendors, including
the fee processing system also needs to progress to the next        interest penalties for late payments. In FY 2010, the USPTO did
generation. The Fee Processing-Next Generation (FPNG) system        not pay interest penalties on 98.8 percent of the 6,773 vendor
will replace the previous initiative to modernize RAM, the          invoices processed, representing payments of approximately
USPTO’s legacy fee collection system. FPNG will focus on            $470.8 million. Of the 118 invoices that were not processed in
retiring legacy RAM and will utilize either COTS, GOTS, or open     a timely manner, the USPTO was required to pay interest
source code using custom code as a last resort. Developing and      penalties on 84 invoices, and was not required to pay interest




48	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                   Mana g ement ’ s D iscussion and A nalysis




                                                                                         FY 2010                    FY 2010
                          Financial Performance Measure
                                                                                          Target                  Performance
 Percentage of Timely Vendor Payments (MTS)                                                98%                         96%
 Percentage of Payroll by Electronic Transfer (OMB)                                        90%                         99%
 Percentage of Treasury Agency Locations Fully Reconciled (OMB)                            95%                        100%
 Timely Reports to Central Agencies (OMB)                                                  95%                        100%
 Audit Opinion on FY 2010 Financial Statements (OMB)                                   Unqualified                 Unqualified
 Material Weaknesses Reported by OIG (OMB)                                                None                        None
 Timely Posting of Inter-Agency Charges (USPTO)                                          30 days                     16 days
 Average Processing Time for Travel Payments (USPTO)                                      8 days                      7 days


penalties on 34 invoices, where the interest was calculated at      Biennial Review of Fees
less than $2. The USPTO paid only $14 in interest penalties for
every million dollars disbursed in FY 2010. Virtually all           The Chief Financial Officers Act of 1990 requires a biennial
recurring payments were processed by electronic funds transfer      review of agency fees, rents, and other charges imposed for
in accordance with the electronic funds transfer provisions of      services and things of value it provides to specific beneficiaries
the Debt Collection Improvement Act of 1996.                        as opposed to the American public in general. The objective
                                                                    of the review is to identify such activities and to begin charging
                                                                    fees, where permitted by law, and to periodically adjust existing
Civil Monetary Penalty Act                                          fees to reflect current costs or market value so as to minimize
                                                                    general taxpayer subsidy of specialized services or things of
There were no Civil Monetary Penalties assessed by the USPTO        value (such as rights or privileges) provided directly to identifi-
during FY 2010.                                                     able non-Federal beneficiaries. The USPTO is a fully fee-
                                                                    funded agency without subsidy of general taxpayer revenue.
                                                                    The USPTO uses Activity Based Costing (ABC) to calculate the
Debt Collection Improvement Act                                     cost of activities performed for each fee, and uses this informa-
                                                                    tion to evaluate and inform when setting fees. When appro-
The Debt Collection Improvement Act prescribes standards for the    priate, fees are adjusted to be consistent with the legislative
administrative collection, compromise, suspension, and termina-     requirement to recover full cost of the goods or services
tion of Federal agency collection actions, and referral to the      provided to the public.
proper agency for litigation. Although the Act has no material
effect on the USPTO since it operates with minimal delinquent       A study and analysis of all USPTO fees, comparing the average
debt, all debt more than 180 days old has been transferred to the   unit costs for all products and services to the fees currently
U.S. Department of the Treasury for cross-servicing.                charged was completed in FY 2010. The results are under
                                                                    review and will be used as the USPTO designs a new fee
                                                                    structure to sustain operations.




www.uspto.gov	                                                                                                                      49
Financial Discussion and Analysis

           Financial Highlights

           T
                 he following presents the USPTO’s FY 2010 financial highlights for budgetary
                 resources and requirements, along with results of operations. Details behind these
                 highlights are included in the discussion of the USPTO’s financial statements
           beginning on page 52.



           Budgetary Resources and Requirements

           The USPTO was provided appropriation authority to spend anticipated fee collections in
           FY 2010 for an amount up to $2,016.0 million. This was less than the amount of total fees
           collected in FY 2010. When spending authority is less than fee collections, the additional
           fee collections are temporarily unavailable. During FY 2010, the USPTO collected an
           additional $52.5 million in fees that were temporarily unavailable for spending.

           The table on the next page presents the source of funds made available to the USPTO,
           and the use of such funds.




50	                                Performance and accountability Report: Fiscal Year 2010
                                                                                                  Mana g ement ’ s D iscussion and A nalysis




  Source and Status of Funds (Dollars in Millions)                     FY 2006          FY 2007            FY 2008         FY 2009      FY 2010
 Source of Funds:
 Unobligated Beginning Balance                                     $	       5.7        $	       5.7    $	     28.0      $	     72.1     $	 118.7
 Recovery of Prior Year Obligations                                         9.1                 9.9           12.0             30.7          19.8
 Spending Authority from Offsetting Collections                         1,665.4             1,791.1         1,885.6          1,880.4      2,075.6*
 Non-Expenditure Transfer                                                  (0.1)       		–                     (1.0)            (2.0)   		–
 Unavailable Fees                                                  	         –                (12.2)   	         –     	          –         (52.5)
 Total Source of Funds                                             $	 1,680.1          $	 1,794.5      $	 1,924.6          $ 1,981.2    $	 2,161.6
 Status of Funds:
 Obligations Incurred                                              $	 1,674.4          $	 1,766.5      $	 1,852.5      $	 1,862.5       $	 1,938.9
 Unobligated Balance, Available                                             5.7               28.0            64.1            118.7         222.7
 Unobligated Balance, Unavailable                                  	         –         		–                      8.0    	          –     		–
 Total Status of Funds                                             $	 1,680.1          $	 1,794.5      $	 1,924.6          $ 1,981.2    $	 2,161.6

 * Of this amount, $2,068.5 million were fee collections related to patent and trademark applications.


During FY 2010, total budgetary resources available for                          As an Agency funded entirely by user fees, this affects our
spending was 9.1 percent over the amount available in the                        operations significantly. The fees collected would enable the
preceding year. Of the total amount of the remaining unobli-                     USPTO to increase the number of patent examiners to assist in
gated balance, $100.5 million of the remaining unobligated                       addressing the growing backlog of patent applications and
balance at the end of the fiscal year is derived from Trademark                  increasing workloads and to allocate additional resources
fee collections. The increase in budgetary resources available                   towards protecting intellectual property in the United States
for use over the past four years is depicted by the                              and abroad.
graph below.
                                                                                 The USPTO was initially appropriated and apportioned up to
                                                                                 $1,887.0 million of fee collections. As the fiscal year progressed,
                                                                                 it was identified that our fee collections would exceed the
                                                                                 anticipated fee collections, as appropriated by Congress.
                                                                                 We worked with the Department of Commerce, Office of
                                                                                 Management and Budget, and Congress to obtain a supple-
                                                                                 mental appropriation to spend an additional $129.0 million in
                                                                                 actual fee collections. This additional funding is being used for
                                                                                 hiring additional examiners, funding full overtime for examiners
                                                                                 and support staff, accelerating examination process reengi-
                                                                                 neering, and continuing to contract for PCT searches.
                                                                                 Mission-critical information technology projects to increase
                                                                                 the effectiveness of every USPTO function will also
                                                                                 be accelerated.

                                                                                 Given that the supplemental appropriation was not enacted
In FY 2010, the USPTO was not provided with authority to                         until August, during the majority of FY 2010, any overtime
spend all of its estimated fee collections. At the end of FY 2009,               spending was limited to the Patent organization for producing
the USPTO’s estimate for FY 2010 fee collections was based on                    patents and fees, new hiring was limited, information tech-
the lower than average fee levels experienced during FY 2009                     nology business system improvement projects were limited,
– resulting in the low amount appropriated to the Agency.                        and operating services obtained through contracts continued at




www.uspto.gov	                                                                                                                                       51
M anagement’s Discussion and Analysis




reduced levels. However, as the economy has begun showing               increase in the number of patent filings of 4.7 percent over the
signs of recovering, the Patent and Trademark application               prior year. This was evidenced by the Patent organization
filings have also been slowly recovering.                               disposing of 13.6 percent more applications than were disposed
                                                                        of during FY 2009. From FY 2006 through FY 2009, unearned
As we return to financial health, we must build a sustainable           trademark fees decreased 22.8 percent, with the majority of the
funding model that provides USPTO fee setting authority so              decrease occurring during FY 2009.
that we are able to manage patent and trademark revenue
fluctuations and properly align fees in a timely, fair, and consis-
tent manner. We must collaborate and build relationships with
our international counterparts that foster seamless and cost-           Financial Discussion
effective intellectual property rights and that ensure global
competitiveness for American innovators and businesses.                 and Analysis
Only through building these solid partnerships – where we
work together to achieve our goals – is the USPTO capable of
being successful.                                                       Financial Statements

                                                                        The USPTO received an unqualified (clean) audit opinion from
Results of Operations                                                   the independent public accounting firm of KPMG LLP on its
                                                                        FY 2010 financial statements, provided on pages 67 to 93.
The USPTO generated a net income of $94.7 million for the               This is the 18th consecutive year that the USPTO received a
year ended September 30, 2010, an increase of $149.5 million            clean opinion. Our unqualified audit opinion provides inde-
over FY 2009 net cost of $54.8 million. This variation is the           pendent assurance to the public that the information presented
result of a few factors, explained in more detail in the Statement      in the USPTO financial statements is fairly presented, in all
of Net Cost discussion.                                                 material respects, in conformity with accounting principles
                                                                        generally accepted in the United States of America. In addition,
Due to the increase in pendency, the amount of time an appli-           KPMG LLP reported no material weaknesses in the USPTO’s
cation is waiting before a patent is issued or trademark is regis-      internal control, and no instances of non-compliance with laws
tered, the USPTO had been recognizing a steadily increasing             and regulations affecting the financial statements.
deferred revenue liability through FY 2008 for fees received
prior to the revenue being earned. From FY 2006 through                 The USPTO financial management process ensures that manage-
FY 2008, unearned patent fees increased 12.2 percent, with the          ment decision-making information is dependable, internal
majority of the increase occurring during FY 2007. The increase         controls over financial reporting are effective, and that compli-
during FY 2007 was consistent with the increase in first action         ance with laws and regulations is maintained. The preparation
pendency of 11.9 percent; however, as a result of increased             of these financial statements is a component of the USPTO’s
Patent staffing and increased focus on workload, first action           objective to continually improve the accuracy and usefulness
pendency has remained fairly constant since FY 2007, despite            of its financial management tools.
overall increases in Patent applications. In FY 2009 and
FY 2010, unearned patent fees decreased 4.6 percent and                 The following sections provide a discussion and analysis of the
4.2 percent, respectively. As a result of the process improve-          financial statements and related information.
ments and increased efficiencies, the USPTO was able to make
progress in working off the existing inventory, despite an




52	                                                                   Performance and accountability Report: Fiscal Year 2010
                                                                                     Mana g ement ’ s D iscussion and A nalysis




 Resources                                                          FY 2006       FY 2007       FY 2008        FY 2009       FY 2010
 Budgetary Resources Available for Spending (Dollars in Millions)   $1,680.1      $1,794.5       $1,916.6      $1,981.2      $2,161.6
 Percentage Change                                                   11.2%          6.8%          6.8%           3.4%          9.1%

 Patent Examiners                                                    4,779          5,477         6,099         6,242          6,225
 Percentage Change                                                   14.4%         14.6%          11.4%          2.3%         (0.3)%

 Trademark Examining Attorneys                                        413           404            391           388            378
 Percentage Change                                                   15.7%         (2.2)%        (3.2)%         (0.8)%        (2.6)%


Statement of Budgetary Resources                                      The USPTO was initially appropriated and apportioned up to
                                                                      $1,887.0 million of fee collections. As the fiscal year progressed,
The above table displays the USPTO’s total budgetary resources
                                                                      it was identified that our fee collections would exceed the
available for spending over the past five years, with the related
                                                                      anticipated fee collections, as appropriated by Congress.
percentage change.
                                                                      We worked with the Department of Commerce, Office of
                                                                      Management and Budget, and Congress to pass a supplemental
As presented above, total budgetary resources available for
                                                                      appropriation to spend an additional $129.0 million in actual
spending increased with a 9.1 percent change and a 28.7 percent
                                                                      fee collections. This additional spending authority is being
increase over the past five fiscal years. Through FY 2008, the
                                                                      used for hiring additional examiners, funding full overtime for
increase in available budgetary resources was used to fund the
                                                                      examiners and support staff, accelerating examination process
increased cost of additional human capital to address the
                                                                      reengineering, and continuing to increase examination capacity
backlog of patent applications and the decrease in patent and
                                                                      by contracting for PCT searches. Mission-critical information
trademark filings. In FY 2009, the increase in available
                                                                      technology projects to increase the effectiveness of every
budgetary resources minimally covered inflationary increases
                                                                      USPTO function will also be accelerated.
and was $200 million less than planned for. As a result, budget
reductions and cost-savings measures were implemented.
                                                                      USPTO operations rely on patent maintenance fees to fund a
However, while fee collections were showing a rebound at the
                                                                      portion of the work being completed each fiscal year. During
beginning of FY 2010, we were operating under a smaller
                                                                      FY 2010, maintenance fees collected increased $126.4 million,
appropriation that was based on the FY 2009 financial picture
                                                                      or 23.1 percent, from FY 2009. As maintenance fees are one
with lower than average fee collections. This was a result of
                                                                      of the largest sources of budgetary resources and are recog-
the slower economy and actual collections in FY 2009. As we
                                                                      nized immediately as earned revenue, any fluctuations in the
are an Agency funded entirely by user fees, this affects our
                                                                      rates of renewal have a significant impact on the total resources
operations significantly.
                                                                      available to the USPTO. To some extent, renewals recoup
                                                                      costs incurred during the initial patent process. As shown on
As the economy has begun showing signs of recovering, the
                                                                      page 56, the renewal rates for all three stages of maintenance
Patent and Trademark application filings have also been slowly
                                                                      fees increased during FY 2010. The renewal rates have
recovering.
                                                                      rebounded as the economy rebounds.



Filings                                                             FY 2006      FY 2007        FY 2008       FY 2009        FY 2010
Patent Filings                                                      445,613       468,330        496,886       486,499       509,3671
Percentage Change in Patent Filings                                  8.8%          5.1%           6.1%          (2.1)%         4.7%

Trademark Filings                                                   354,775       394,368        401,392       352,051       368,939
Percentage Change in Trademark Filings                               9.7%          11.2%          1.8%         (12.3)%         4.8%
1	   Preliminary data




www.uspto.gov	                                                                                                                          53
M anagement’s Discussion and Analysis




Temporarily Unavailable Fee Collections (Dollars in Millions)        FY 2006         FY 2007       FY 2008       FY 2009       FY 2010
Fiscal year fee collections                                         $	 1,657.6       $	 1,783.2    $	 1,879.3    $	 1,874.2    $	 2,068.5
Fiscal year collections appropriated                                	 (1,657.6)      	 (1,771.0)   	 (1,879.3)   	 (1,874.2)   	 (2,016.0)
Fiscal year unavailable collections                                 $		–             $	    12.2    $		–          $		–          $	    52.5
Prior year collections unavailable                                  	     516.5      	    516.5    	    528.7    	    528.7    	    528.7
Cumulative temporarily unavailable fee collections                  $	 516.5         $	 528.7      $	 528.7      $	 528.7      $	 581.2


Legislation was passed in July 2009 that allowed the USPTO to             Statement of Net Cost
use surplus funds from Trademark revenues to cover any short-
falls that may occur as the result of the decrease in Patent fee          The Statement of Net Cost presents the USPTO’s results of
collections [H.R. 3114]. The authority to use these funds lasted          operations by the following responsibility segments – Patent,
until June 2010. As such use of Trademark funds was not                   Trademark, and Intellectual Property Policy, Protection and
necessary, no funds must be paid back to the Trademark                    Enforcement Worldwide. The following table presents the total
organization.                                                             USPTO’s results of operations for the past five fiscal years.
                                                                          In FY 2006, the USPTO generated a net income due to the
As defined earlier, temporarily unavailable fee collections occur         increased maintenance fees received and revenue recognition
when the USPTO is not appropriated the authority to spend all             of previously deferred revenue collected subsequent to the fee
fees collected during a given year. During FY 2010, the USPTO             increase on December 8, 2004. During FY 2007, FY 2008, and
collected $52.5 million in fee collections that were designated           FY 2009 the USPTO’s operations resulted in a net cost of
as temporarily unavailable. As a result, the $528.7 million in            $33.9 million, $30.4 million, and $54.8 million, respectively.
temporarily unavailable fee collections at the end of FY 2007             In FY 2010, the USPTO generated a net income of $94.7 million
increased to $581.2 million at the end of FY 2010.                        due to the increased maintenance fees received and revenue
                                                                          recognition of previously deferred revenue collected as we
The above chart illustrates amounts that Congress has appro-              work off the backlog.
priated to the USPTO over the past five fiscal years, as well as
the cumulative temporarily unavailable fee collections.                   The Statement of Net Cost compares fees earned to costs
                                                                          incurred during a specific period of time. It is not necessarily
These cumulative temporarily unavailable fee collections                  an indicator of net income or net cost over the life of a patent
remain in the USPTO’s general fund account at the U.S.                    or trademark. Net income or net cost for the fiscal year is
Department of the Treasury (Treasury) until appropriated for              dependent upon work that has been completed over the
use by Congress. In addition to these annual restrictions,                various phases of the production life cycle. The net income
collections of $233.5 million are unavailable in accordance with          calculation is based on fees earned during the fiscal year being
the OBRA of 1990, and deposited in a special fund receipt                 reported, regardless of when those fees were collected.
account at the Treasury.                                                  Maintenance fees also play a large part in whether a total net
                                                                          income or net cost is recognized. Maintenance fees collected
                                                                          in FY 2010 are a reflection of patent issue levels 3.5, 7.5, and


 Net (Cost)/Income (Dollars in Millions)                             FY 2006         FY 2007       FY 2008       FY 2009       FY 2010
 Earned Revenue                                                      $	 1,594.4      $	 1,735.7    $	 1,862.2    $	 1,927.1    $	 2,101.7
 Program Cost                                                        	 (1,514.2)     	 (1,769.6)   	 (1,892.6)   	 (1,981.9)   	 (2,007.0)
 Net Income/(Cost)                                                   $	     80.2     $	   (33.9)   $	   (30.4)   $	   (54.8)   $	    94.7




54	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                    Mana g ement ’ s D iscussion and A nalysis




11.5 years ago, rather than a reflection of patents issued in         performed for fees collected during FY 2010, and $6.7 million
FY 2010. Therefore, maintenance fees can have a significant           were not fee-related.
impact on matching costs and revenue.
                                                                      For fees collected and earned during FY 2010, there was an
During FY 2010, while the number of patent filings increased          increase of $76.6 million over these same fees earned during
by 4.7 percent over the prior year, the backlog for patent appli-     FY 2009. This increase can primarily be attributed to
cations decreased as a result of the process improvements and         $10.7 million in earned patent filing fees, $72.7 million in
increased efficiencies, thereby decreasing deferred revenue           earned patent issue fees, $8.8 million in PCT international fees,
and increasing earned revenue. This was evidenced by the              $0.3 million in trademark post-registration fees, offset by a
Patent organization disposing of 13.6 percent more applica-           decrease of $7.5 million in fees considered earned immediately,
tions than were disposed of during FY 2009.                           $3.2 million in patent appeal fees, $2.2 million in trademark
                                                                      application, and $3.4 million in trademark statement of use.
During FY 2010, with the number of trademark applications
increasing by 4.8 percent over the prior year, the Trademark          Patent
organization was able to continue to address the existing             Traditionally, the major components of earned revenue derived
inventory and maintain pendency between 2.5 and 3.5 months            from patent operations are maintenance fees, initial application
during FY 2010. The Trademark organization was able to do             fees for filing, search, and examination, and issue fees.
this while recognizing a slight increase in deferred revenue and      These fees account for approximately 84 percent of total patent
corresponding decrease in revenue earned.                             income. The following chart depicts the relationship among
                                                                      the most significant patent fee types.

Earned Revenue

The USPTO’s earned revenue is derived from the fees collected
for patent and trademark products and services. Fee collec-
tions are recognized as earned revenue when the activities to
complete the work associated with the fee are completed.
The following table presents the earned revenue for the past
five years.

Earned revenue totaled $2,101.7 million for FY 2010, an increase
of $174.6 million, or 9.1 percent, over FY 2009 earned revenue
of $1,927.1 million. Of revenue earned during FY 2010,
$424.6 million related to fee collections that were deferred for
revenue recognition in prior fiscal years, $673.1 million related     Patent maintenance fees are the largest source of earned
to maintenance fees collected during FY 2010, which were              revenue by fee type. During FY 2010, maintenance fees
considered earned immediately, $997.3 million related to work         collected increased $126.4 million, or 23.1 percent, from


 Earned Revenue (Dollars in Millions)                               FY 2006      FY 2007       FY 2008       FY 2009       FY 2010
 Patent                                                             $	 1,384.2   $	 1,507.0    $	 1,625.0    $	 1,697.4    $	 1,887.6
 Percentage Change in Patent Earned Revenue                            15.6%         8.9%          7.8%          4.5%         11.2%

 Trademark                                                              210.2        228.7         237.2         229.7         214.1
 Percentage Change in Trademark Earned Revenue                         20.1%         8.8%          3.7%         (3.2)%        (6.8)%

 Total Earned Revenue                                               $	 1,594.4   $	 1,735.7    $	 1,862.2    $	 1,927.1    $	 2,101.7
 Percentage Change in Earned Revenue                                   16.1%         8.9%          7.3%          3.5%          9.1%




www.uspto.gov	                                                                                                                       55
M anagement’s Discussion and Analysis




 Patent Renewal Rates*                                                              FY 2006           FY 2007           FY 2008           FY 2009           FY 2010
 First Stage                                                                          93.1%             90.1%             83.1%             80.3%            99.4%
 Second Stage                                                                         69.2%             71.4%             73.7%             63.5%            71.2%
 Third Stage                                                                          44.4%             48.5%             49.2%             45.4%            50.0%
 *Note: the First Stage refers to the end of the 3rd year after the initial patent is issued; the Second Stage refers to the end of the 7th year after the initial patent
 is issued; and the Third Stage refers to the end of the 11th year after the initial patent is issued. For example, in FY 2010, 99.4 percent of the patents issued three
 years ago were renewed, 71.2 percent of the patents issued seven years ago were renewed, and 50.0 percent of the patents issued 11 years ago were renewed.


FY 2009. As they are recognized immediately as earned                                  tional requirements must be met for registration. The following
revenue, any fluctuations in the rates of renewal have a signifi-                      chart depicts the relationship among the most significant
cant impact on the total earned revenue of the USPTO. To some                          trademark fee types.
extent, renewals recoup costs incurred during the initial patent
process. As shown above, the renewal rates for all three stages
of maintenance fees increased this year.

Application fee revenue earned upon filing decreased slightly
from $95.2 million in FY 2009 to $95.0 million in FY 2010
(decrease of 0.2 percent), with the number of applications
increasing from 486,499 to 509,367 over the same period
(increase of 4.7 percent). The FY 2011 President’s Budget
projects a gradual increase in patent applications filed beginning
in FY 2012 and extending through FY 2014, which will
contribute to a renewed growth in budgetary resources, as well
as earned fee revenue.

Earned issue fee revenue increased from $292.7 million in
                                                                                       Earned revenue for trademark applications decreased from
FY 2009 to $364.5 million in FY 2010, with the number of
                                                                                       $126.0 million in FY 2009 to $112.5 million in FY 2010, with
patents issued increasing from 190,121 to 223,127 over the
                                                                                       the number of trademarks registered decreasing from 241,637
same period, an increase of 24.5 percent and 22.6 percent,
                                                                                       to 221,090 over the same period, a decrease of 10.7 percent
respectively. The FY 2011 President’s Budget projects that
                                                                                       and 8.5 percent, respectively. The FY 2011 President’s Budget
patents issued will increase an average of 2.2 percent each
                                                                                       projects that trademark applications filed will start to increase,
fiscal year through FY 2015.
                                                                                       which will contribute to the continued growth in budgetary
                                                                                       resources, as well as earned fee revenue.
Trademark

Trademark fees are comprised of application filing, renewals,                          Trademark registration can be a recurring source of revenue.
services, and Trademark Trial and Appeal Board fees. Additional                        To some extent, renewal fees recoup costs incurred during the
fees are charged for intent-to-use filed applications, as addi-                        initial examination process. As shown below, the renewal rates


 Trademark Renewal Rates                                                            FY 2006           FY 2007           FY 2008           FY 2009          FY 2010 1
 Renewals                                                                             28.8%             28.6%             28.9%             29.3%            28.2%
 Note: the renewals occur every 10th year for trademarks registered after November 15, 1989. For trademarks issued or renewed before November 15, 1989,
 renewal will occur after the 20th year and the renewal will be for a ten-year period. For example, in FY 2010, 28.2 percent of the trademarks granted ten and
 20 years ago were renewed.
 1	   Preliminary data




56	                                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                         Mana g ement ’ s D iscussion and A nalysis




for trademarks have remained fairly stable over the last five
years, indicating continued earned revenue from this source.
Further, in the FY 2011 President’s Budget, earned revenue
from trademark renewals is expected to continue in the
future.


Program Costs

Program costs totaled $2,007.0 million for the year ended
September 30, 2010, an increase of $25.1 million, or 1.3 percent,
over FY 2009 program costs of $1,981.9 million. The USPTO’s
most significant program cost is personnel services and benefits,
which comprise almost 70 percent of USPTO’s total program
costs. Any significant change or fluctuation in staffing or pay
rate directly impacts the change in total program costs from
year-to-year. Total personnel services and benefits costs for the
year ended September 30, 2010, were $1,399.4 million, an
increase of $77.8 million, or 5.9 percent, over FY 2009 personnel
services and benefits costs of $1,321.6 million. This change
was a result of a 2.4 percent increase in the Federal pay scale,
combined with a net decrease of 209 personnel, from 9,716 at
the end of FY 2009 to 9,507 at the end of FY 2010. In addition,
$18.8 million of this increase was related to an increase in
employee overtime going towards working on the existing
inventory of applications.

The USPTO directs maximum resources to the priority functions
of patent and trademark examination, as well as IP policy,               Patent
protection, and enforcement worldwide. For FY 2010, costs
directly attributable to the Patent, Trademark, and IP protection        Total costs for the Patent business unit increased $465.6 million,
business areas represent 84.7 percent of total USPTO costs.              35.5 percent, from FY 2006 through FY 2010. The following
The remaining costs, representing support costs, are allocated           table presents the major components of Patent costs for the
to the business areas using ABC accounting.                              past five years.


 Patent Costs (Dollars in Millions)                                 FY 2006          FY 2007       FY 2008       FY 2009       FY 2010
 Personnel Costs                                                    $	    714.4     $	   867.1    $	   993.6    $	 1,098.9     $	 1,172.2
 Contractual Services                                               	     181.5     	    223.6    	    226.2    	    203.0     	   160.1
 Printing and Reproduction                                          	      71.9     	     70.0    	     59.4    	     58.2     	    77.6
 Rent, Communications, and Utilities                                	      69.3     	     71.1    	     72.6    	     73.4     	    76.7
 Depreciation, Amortization, or Loss on Asset Disposition           	      24.8     	     32.3    	     35.8    	     34.4     	    28.8
 Other                                                              	      23.8     	     21.7    	     22.2    	     14.9     	    13.2
    Direct Costs                                                    	 1,085.7       	 1,285.8     	 1,409.8     	 1,482.8      	 1,528.6
 Allocated Costs                                                    	     226.6     	    247.2    	    245.9    	    261.8     	   249.3
    Total Patent Costs                                              $	 1,312.3      $	 1,533.0    $	 1,655.7    $	 1,744.6     $	 1,777.9
 Percentage Change in Patent Costs                                  	     4.7%      	    16.8%    	    8.0%     	    5.4%      	   1.9%




www.uspto.gov	                                                                                                                              57
M anagement’s Discussion and Analysis




                                                                           stage). The cost percentages presented below are based on
                                                                           direct and indirect costs allocated to patent operations and are
                                                                           a function of the volume of applications processed in each
                                                                           product area.

                                                                           Trademark
                                                                           Total costs for the Trademark business unit increased
                                                                           $13.8 million, 8.2 percent, from FY 2006 through FY 2010.
                                                                           The below table shows the major components of Trademark
                                                                           costs for that period.

                                                                           The Trademark organization’s most significant program costs
                                                                           relate to personnel services, and account for most of the
The Patent organization’s most significant program costs relate            increase in total cost of Trademark operations during the past
to personnel services, and account for 98.3 percent of the                 four years. This increase of $23.1 million was offset by other
increase in total cost of Patent operations during the past four           cost increases and decreases. Contractual services have
years. Patent personnel costs for the year ended September 30,             decreased $14.4 million over the past four years, which repre-
2010, were $1,172.2 million, an increase of $73.3 million, or              sents the majority of the total Trademark cost change over the
6.7 percent, over FY 2009 personnel costs of $1,098.9 million.             past four years, as a result of being able to rely more on
Rent, communications, and utilities, printing and reproduction,            automated tools, rather than contractors.
and contractual service costs represent 17.7 percent of the
Patent program costs for FY 2010. From FY 2006 through
FY 2008, contractual costs increased in line with the overall
increase in Patent costs due to increases in the number of
patents issued and increased spending on indexing and
scanning documents for the electronic file wrapper, offset by
minor decreases to printing and reproduction. During FY 2009
and FY 2010, contractual costs decreased in line with the
budget cuts implemented agency-wide.

Patent costs were predominantly spread over two patent
products: utility patents and 371 filings (an international appli-
cation designated to the U.S. that has entered the national


 Trademark Costs (Dollars in Millions)                                FY 2006         FY 2007       FY 2008       FY 2009       FY 2010
 Personnel Costs                                                      $	     88.8     $	    99.8    $	 101.7      $	 107.9      $	 111.9
 Contractual Services                                                 	      25.1     	     24.4    	    19.4     	    13.3     	    10.7
 Printing and Reproduction                                            	       0.3     	      0.8    	     0.4     	     0.4     	     0.1
 Rent, Communications, and Utilities                                  	       7.8     	      7.8    	     7.3     	     7.6     	     6.7
 Depreciation, Amortization, or Loss on Asset Disposition             	       6.0     	      7.3    	     5.4     	     4.2     	     4.1
 Other                                                                	       3.1     	      2.7    	     3.0     	     2.3     	     2.8
      Direct Costs                                                    	     131.1     	    142.8    	   137.2     	   135.7     	   136.3
 Allocated Costs                                                      	      37.7     	     61.7    	    55.4     	    57.5     	    46.3
      Total Trademark Costs                                           $	 168.8        $	 204.5      $	 192.6      $	 193.2      $	 182.6
 Percentage Change in Total Trademark Costs                           	 (1.2)%        	 21.1%       	 (5.8)%      	   0.3%      	 (5.5)%




58	                                                                  Performance and accountability Report: Fiscal Year 2010
                                                                                         Mana g ement ’ s D iscussion and A nalysis




 Intellectual Property Protection Costs
                                                                    FY 2006         FY 2007       FY 2008       FY 2009       FY 2010
 (Dollars in Millions)
 Personnel Costs                                                    $	 13.6         $	 13.1       $	 17.9       $	 18.0       $	 19.8
 Contractual Services                                               	      6.3      	     1.9     	     6.6     	     8.8     	    10.7
 Rent, Communications, and Utilities                                	      2.1      	     2.2     	     2.6     	     2.6     	     2.6
 Travel                                                             	      1.6      	     3.5     	     2.8     	     1.8     	     1.6
 Depreciation, Amortization, or Loss on Asset Disposition           	      0.5      	     0.4     	     0.5     	     0.5     	     0.3
 Other                                                              	      0.9      	     1.0     	     0.9     	     0.6     	     0.4
    Direct Costs                                                    	     25.0      	    22.1     	    31.3     	    32.3     	    35.4
 Allocated Costs                                                    	      8.1      	    10.0     	    13.0     	    11.8     	    11.1
    Total IP Protection Costs                                       $	 33.1         $	 32.1       $	 44.3       $	 44.1       $	 46.5
 Percentage Change in Total IP Protection Costs                     	      –%       	 (3.0)%      	 38.0%       	 (0.5)%      	    5.4%


The Intent to Use cost includes costs related to examining both          largest cost associated with the policy, protection, and enforce-
the application and the additional intent to use disclosures.            ment of intellectual property worldwide is contractual services,
The overall cost percentages presented in the pie chart on the           which include cooperative agreements. These costs were
previous page are based on both direct costs and indirect costs          incurred in line with the activities discussed on pages 27
allocated to trademark operations and are a function of the              to 34.
volume of applications processed in each product area.

Intellectual Property Protection and Enforcement                         Balance Sheet and Statement
                                                                         of Changes in Net Position
The release of the 2007-2012 Strategic Plan resulted in a new
responsibility segment for FY 2007. Presentation of FY 2006              At the end of FY 2010, the USPTO’s consolidated Balance Sheet
costs were reclassified for this responsibility segment. This new        presents total assets of $1,627.9 million, total liabilities of
responsibility segment continues in the 2010-2015 Strategic              $1,135.6 million, and a net position of $492.3 million.
Plan. Total costs for IP Protection increased $13.4 million, or
40.5 percent, from FY 2006 through FY 2010. The above table              Total assets increased 3.0 percent over the last four years,
shows the major components of IP Protection costs for that               resulting largely from the increase in Fund Balance with
period.                                                                  Treasury and Property, Plant, and Equipment. The decrease in
                                                                         total assets during FY 2009 is a result of the decrease in Fund
The most significant program costs for IP Protection relate to           Balance with Treasury, resulting from the decrease in fee
personnel services, and account for 42.6 percent of the total            income. The following table shows the changes in assets
cost for IP Protection operations during the past year. The next         during this period.


 Composition of USPTO Assets (Dollars in Millions)                  FY 2006         FY 2007       FY 2008       FY 2009       FY 2010
 Cash                                                               $	      6.8     $	     7.0    $	     4.4    $	     3.2    $	     3.2
 Fund Balance with Treasury                                         	 1,401.8       	 1,402.7     	 1,431.2     	 1,309.8     	 1,436.4
 Property, Plant, and Equipment, Net                                	     164.5     	    204.6    	    204.2    	    205.8    	    174.4
 Accounts Receivable and Prepayment                                 	       7.2     	     11.2    	      8.5    	     13.5    	     13.9
    Total Assets                                                    $	 1,580.3      $	 1,625.5    $	 1,648.3    $	 1,532.3    $	 1,627.9
 Percentage Change in Total Assets                                  	 12.1%         	    2.9%     	    1.4%     	 (7.0)%      	    6.2%




www.uspto.gov	                                                                                                                             59
M anagement’s Discussion and Analysis




Fund Balance with Treasury is the single largest asset on the           The percent incomplete based on the inventory of pending
Balance Sheet and represents 88.2 percent of total assets at the        work is applied to fee collections to estimate the amount for
end of FY 2010. This asset is comprised of unpaid obligated             deferred revenue liability.
funds of $297.3 million, temporarily unavailable fees of
$581.2 million, unavailable special receipt funds under OBRA            From FY 2006 through FY 2008, the deferred revenue liability
of $233.5 million, other funds held on deposit for customers of         increased $74.1 million, or 9.6 percent. At the end of FY 2009,
$101.7 million, and unobligated funds of $222.7 million.                deferred revenue liability was $800.3 million, representing a
                                                                        one year decrease of $48.2 million, or 5.7 percent.
The unavailable special receipt funds and the temporarily               During FY 2010, the deferred revenue liability decreased an
unavailable funds require Congressional appropriation before            additional $25.9 million, or 3.2 percent from FY 2009.
they will be available for USPTO’s use. These funds, together           The deferred revenue liability for FY 2010 includes unearned
with amounts obligated and held on deposit, represent                   patent and trademark fees, as well as undeposited checks.
84.5 percent of the Fund Balance with Treasury.                         The unearned patent fees represented 91.8 percent of this
                                                                        liability. The following graph depicts the composition of the
The other major asset is property, plant, and equipment.                deferred revenue liability, in addition to the change in this
The net balance of this asset has increased by $9.9 million             liability during each of the past five years.
during the past four years, with the acquisition values of
property, plant, and equipment increasing by $192.6 million.
Investments in IT software and software in development from
FY 2006 to FY 2009 increased $90.3 million, in conjunction
with enhancing the existing e-government capabilities in areas
such as e-filing, application information retrieval, data and
image capture, and web-based search systems. This increase
slowed to only $6.8 million in FY 2010 as the USPTO chose to
stop investing in modifications to our outdated systems.
Instead, the USPTO is beginning to completely re-invent our IT
systems from end-to-end, which will lead to future increases in
IT software and software in development values.

Total liabilities decreased from $1,156.5 million at the end of
FY 2009 to $1,135.6 million at the end of FY 2010, representing         Deferred revenue at the USPTO is largely impacted by the
a decrease of $20.9 million, or 1.8 percent. The following table        change in patent and trademark filings, changes in the first
shows the change in liabilities during the past five years.             action pendency rates, and changes in fee rates. In a year
                                                                        where increased fees associated with the unearned patent and
The USPTO’s deferred revenue is the largest liability on the            trademark application filings are not a factor, such as with
Balance Sheet. The liability for deferred revenue is calculated         FY 2007, the percentage change in deferred revenue is consis-
by analyzing the process for completing each service provided.          tent with the percentage change in the first action pendency

 Composition of USPTO Liabilities (Dollars in Millions)             FY 2006        FY 2007       FY 2008      FY 2009       FY 2010
 Deferred Revenue                                                   $	 774.4       $	 828.1     $	 848.5      $	 800.3     $	 774.4
 Accounts Payable                                                   	    104.4     	    96.6    	    96.7     	    90.2    	    70.1
 Accrued Payroll, Leave, and Benefits                               	    101.4     	   120.3    	   145.4     	   156.8    	   178.5
 Customer Deposit Accounts                                          	     83.8     	    91.9    	   101.5     	    98.1    	   102.3
 Other Liabilities                                                  	     18.3     	    24.6    	    23.6     	    11.1    	    10.3
      Total Liabilities                                             $	 1,082.3     $	 1,161.5   $	 1,215.7    $	 1,156.5   $	 1,135.6
 Percentage Change in Total Liabilities                             	    9.2%      	   7.3%     	   4.7%      	 (4.9)%     	 (1.8)%




60	                                                                Performance and accountability Report: Fiscal Year 2010
                                                                                  Mana g ement ’ s D iscussion and A nalysis




 Filings and Pendencies                                           FY 2006      FY 2007       FY 2008       FY 2009       FY 2010
 Patent Filings                                                   445,613      468,330        496,886       486,499      509,3671
 Percentage Change in Patent Filings                                 8.8%         5.1%          6.1%         (2.1)%          4.7%

 Patent First Action Pendency (months)                               22.6          25.3          25.6          25.8          25.7
 Percentage Change in Patent First Action Pendency                   7.1%        11.9%          1.2%          0.8%         (0.4)%
 Total Patent Pendency (months)                                      31.1          31.9          32.2          34.6          35.3
 Percentage Change in Total Patent Pendency                         6.9%          2.6%          0.9%          7.5%           2.0%

 Trademark Filings                                                354,775      394,368        401,392       352,051       368,939
 Percentage Change in Trademark Filings                              9.7%        11.2%          1.8%        (12.3)%          4.8%

 Trademark First Action Pendency (months)                             4.8           2.9           3.0           2.7           3.0
 Percentage Change in Trademark First Action Pendency             (23.8)%      (39.6)%          3.4%        (10.0)%        11.1%
 Total Trademark Average Pendency (months)                           15.5          13.4          11.8          11.2          10.5
 Percentage Change in Total Trademark Pendency                     (9.9)%      (13.5)%        (11.9)%        (5.1)%        (6.2)%
 1	   Preliminary data



months. In a year where increased fees associated with the         decreasing to 13.0 months, combined with the increase in
unearned patent and trademark application filings are a factor,    trademark applications. Estimates included in the FY 2011
such as with FY 2006, FY 2008, FY 2009, and again in FY 2010,      President’s Budget project the pendencies to remain constant
the percentage change in first action pendency months was          in the upcoming years.
less than the percentage change in deferred revenue.
                                                                   The Statement of Changes in Net Position presents the changes
The above table above depicts the changes in the filings and       in the financial position of the USPTO due to results of opera-
pendencies during the past five years.                             tions and unexpended appropriations. The movement in net
                                                                   position is the result of the net income or net cost for the year.
Deferred revenue associated with the patent process is expected    The change in the net position during the past five years is
to further decrease. In the FY 2011 President’s Budget, the        presented in the below table.
number of patent applications filed from FY 2011 through
FY 2015 is expected to gradually increase, with first action       The increase in net position from $375.8 million at the end of
pendency decreasing to 10.8 months by FY 2015 and total            FY 2009 to $492.3 million at the end of FY 2010, or 31.0 percent,
pendency at 19.9 months by FY 2015. The pendency decreases         is attributable largely to the results of operations.
will result in patent deferred revenue decreases.

The deferred revenue associated with the trademark process         Limitation on financial statements
increased in FY 2010. Trademark deferred revenue increased
by $5.2 million, or 9.0 percent, from FY 2009, with an overall     The USPTO has prepared its FY 2010 financial statements in
15.9 percent decrease over the past four years. The FY 2010        accordance with the requirements of OMB Circular A-136,
increase was consistent with trademark first action pendency       Financial Reporting Requirements, as amended, and guidance
increasing to 3.0 months and total trademark pendency              provided by the Department of Commerce. OMB Circular A-136


 USPTO Net Position (Dollars in Millions)                         FY 2006      FY 2007       FY 2008       FY 2009       FY 2010
 Net Position                                                     $	 498.0     $	 464.0      $	 432.6      $	 375.8      $	 492.3
 Percentage Change in Net Position                                	 19.2%      	 (6.8)%      	 (6.8)%      	 (13.1)%     	 31.0%




www.uspto.gov	                                                                                                                      61
M anagement’s Discussion and Analysis




incorporates the concepts and standards contained in the              In addition, certain information contained in this financial
Statements of Federal Financial Accounting Concepts (SFFAC)           discussion and analysis and in other parts of this Performance
and the Statements of Federal Financial Accounting Standards          and Accountability Report may be deemed forward-looking
(SFFAS) recommended by the Federal Accounting Standards               statements regarding events and financial trends that may affect
Advisory Board (FASAB) and approved by the Secretary of the           future operating results and financial position. Such statements
Treasury, the Director of the OMB, and the Comptroller                may be identified by words such as “estimate,” “project,” “plan,”
General.                                                              “intend,” “believe,” “expect,” “anticipate,” or variations or
                                                                      negatives thereof or by similar or comparable words or phrases.
On October 19, 1999, the American Institute of Certified Public       Prospective statements are subject to risks and uncertainties
Accountants Council designated the FASAB as the accounting            that could cause actual results to differ materially from those
standards-setting body for Federal government entities.               expressed in the statements. Such risks and uncertainties
Therefore, the SFFAS constitute accounting principles generally       include, but are not limited to, the following: changes in U.S.
accepted in the United States (GAAP) for the Federal                  or international IP laws; changes in U.S. or global economic
Government. These concepts and standards have been set by             conditions; the availability, hiring and retention of qualified
FASAB to help Federal agencies comply with the requirements           staff employees; management of patent and trademark growth;
of the Chief Financial Officers’ Act of 1990, as amended by the       Government regulations; disputes with labor organizations;
Government Management Reform Act of 1994. These two Acts              and deployment of new technologies. The USPTO undertakes
demand financial accountability from Federal agencies and             no obligation to publicly update these financial statements to
require the integration of accounting, financial management,          reflect events or circumstances after the date hereof, or to
and cost accounting systems.                                          reflect the occurrence of unanticipated events.

The financial data in this report and the financial statements
that follow have been prepared from the accounting records of         Management Responsibilities
the USPTO in conformity with GAAP. The USPTO’s financial
statements consist of the Balance Sheet, the Statement of Net         USPTO management is responsible for the fair presentation of
Cost, the Statement of Changes in Net Position, the Statement         information contained in the principal financial statements, in
of Budgetary Resources, and the Statement of Cash Flows. The          conformity with GAAP, the requirements of OMB Circular
financial statements were prepared pursuant to the require-           A-136, and guidance provided by the Department of Commerce.
ments of 31 (United States Code) U.S.C. 3515(b). The following        Management is also responsible for the fair presentation of the
limitations apply to the preparation of the financial                 USPTO’s performance measures in accordance with OMB
statements:                                                           requirements. The quality of the USPTO’s internal control rests
                                                                      with management, as does the responsibility for identifying
●●   While the statements are prepared from books and records         and complying with pertinent laws and regulations.
     in accordance with the formats prescribed by the OMB, the
     statements are in addition to the financial reports used to
     monitor and control budgetary resources, which are
     prepared from the same books and records.
●●   The statements should be read with the realization that the
     USPTO is a component of the U.S. Government, a sovereign
     entity. One implication is that unfunded liabilities cannot
     be liquidated without legislation that provides resources to
     do so.




62	                                                                 Performance and accountability Report: Fiscal Year 2010
Financial
Section
Message from the
Chief Financial Officer


              I
                 am pleased to present the USPTO’s
                 FY 2010 financial information. For the
                 18th consecutive year we have received
              an unqualified opinion on the financial
              statements. Along with the unqualified
              opinion, the auditors reported no material
              weaknesses in the design and operation
              of the USPTO’s system of internal control
              over financial reporting. Also, the auditors
              reported that our financial system complies
              with Federal financial systems requirements.
              Additionally, for the eighth consecutive year,
              the Association of Government Accountants
              awarded the USPTO the Certificate of
              Excellence in Accountability Reporting for
              our FY 2009 Performance and Accountability Report, clearly demonstrating our
              excellence in integrating performance and accountability reporting.

              Throughout this year we have been successful in improving internal controls
              and financial management processes to ensure unmatched reliability in financial
              information and activities. We will build upon these accomplishments as the Office
              of the Chief Financial Officer provides the level of service necessary to carry out
              the goals and objectives outlined in the USPTO’s 2010 – 2015 Strategic Plan.

              As we take pride in our successes, FY 2010 also proved to be a challenging
              year for financial planning at the USPTO. The year began much like FY 2009
              ended – a weak financial picture resulting from lower than average projected
              fee collections. This resulted in our spending authority and financial plans
              also being set at a level lower than necessary to achieve intended performance
              results. As the economy began showing signs of recovery, patent and trademark
              application filings and fee collections also began to grow at a faster pace than
              originally projected. While the growth in fees was good news, for the full year
              the fees exceeded our estimates upon which the spending authority appropriated
              by Congress was based.




64	                           Performance and accountability Report: Fiscal Year 2010
                                                                                                         F i n a n c ia l Se ct ion




We worked quickly within the Administration to propose           Toward this end, we have already begun making advances in
a supplemental appropriation providing the USPTO with            other areas of our sustainable funding model. During FY 2010,
the authority to spend these additional fees to further our      we created an operating reserve to manage multi-year plans
mission. In August, 2010, Congress passed a supplemental         and undertake long-term strategies for improvement in a
appropriation and provided the USPTO authority to spend          financially viable way. In addition, the FY 2011 President’s
an additional $129 million of fees collected during FY 2010.     Budget proposes an interim increase on some patent fees
The USPTO used these funds to resume its multi-year plans        during FY 2011. When enacted, this authority will provide
for reducing the backlog in processing patent applications       for a closer temporary alignment of fees with the cost of
by expanding the examiner workforce and making that              operations until the USPTO obtains fee setting authority
workforce more productive by improving information               and develops a new fee structure that will provide sufficient
technology and patent processing tools.                          financial resources for the long term.

In our 2010 – 2015 Strategic Plan, we identified funding         The dedicated efforts of our talented and committed
authority to support agency performance objectives as            employees continue to produce a high standard of financial
a significant challenge in accomplishing our vision and          management at the USPTO. We look forward to the future with
mission. To address this challenge, we are proposing the         confidence as we continue to support the strategic direction
establishment of a sustainable funding model that spans          of the USPTO by working as a trusted partner within the
multiple years. Such a funding model would provide the           organization and providing sound advice to enable informed
USPTO with authority to set fees at the rates necessary to       program and financial decision-making into FY 2011.
recover the cost of operations, spend the fees collected on
requirements-based operations, and the ability to adapt and
manage agency funding authority as needs and workload
demands change.

The events that occurred in FY 2010 bring to light one of the
                                                                 Anthony P. Scardino
vulnerabilities in the USPTO’s funding model. Linking the
                                                                 Chief Financial Officer
USPTO’s spending authority to an estimate derived almost
                                                                 November 9, 2010
a year in advance is at times problematic. The USPTO will
continue to work with the Administration and Congress to
identify a funding model that is agile and employs a tolerance
for variables and the inherent characteristics of forecasting
workload demand, operations requirements, and resulting
fee estimates.




www.uspto.gov	                                                                                                                 65
Principal Financial Statements
and Related Notes




            Members of the USPTO FY 2009 Performance and Accountability Report Team. From left:
            Mark Krieger, Shana Willard, Judy Grundy, Dennis Detar, Jeanette Kuendel, Jack Buie, Karen
            Strohecker, and Deputy CFO Mark Olechowski.




66	                                Performance and accountability Report: Fiscal Year 2010
                                                                                                               F i n a n c ia l Se ct ion




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED B A L AN C E S H EET S

As of September 30, 2010 and 2009

(Dollars in Thousands)                                                                        2010             2009

ASSETS
	 Intragovernmental:
		 Fund Balance with Treasury (Note 2)                                                    $   1,436,432    $    1,309,807
		     Accounts Receivable                                                                           608              143
		     Advances and Prepayments                                                                  2,988              3,480
	   Total Intragovernmental                                                                   1,440,028         1,313,430

	   Cash                                                                                         3,199              3,231
	   Accounts Receivable, Net                                                                         150              295
	   Advances and Prepayments                                                                    10,179              9,582
	   Property, Plant, and Equipment, Net (Note 4)                                               174,397           205,802
	   Total Assets                                                                          $   1,627,953    $    1,532,340

LIABILITIES
	   Intragovernmental:
		     Accounts Payable                                                                   $      4,732     $        4,852
		     Accrued Payroll and Benefits                                                             12,974             12,486
		     Accrued Workers’ and Unemployment Compensation                                            1,878              1,771
		     Customer Deposit Accounts (Note 3)                                                        5,823              5,419
	   Total Intragovernmental                                                                     25,407             24,528

	   Accounts Payable                                                                            65,382             85,336
	   Accrued Payroll and Benefits                                                                94,473             76,758
	   Accrued Leave                                                                               71,018             67,512
	   Customer Deposit Accounts (Note 3)                                                          96,481             92,659
	   Deferred Revenue (Note 6)                                                                  774,388           800,256
	   Actuarial Liability (Note 7)                                                                 8,299              8,097
	   Contingent Liability (Note 14)                                                                   200            1,400
	   Total Liabilities (Note 5)                                                            $   1,135,648    $    1,156,546

NET POSITION
	   Cumulative Results of Operations – Earmarked Funds (Note 10)                          $    492,305     $     375,794
	   Total Net Position                                                                    $    492,305     $     375,794
Total Liabilities and Net Position                                                        $   1,627,953    $    1,532,340

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                       67
Fin ancial Se ct ion




       U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
       C O N S O L IDATED S TATE M ENT S O F NET C O S T

       For the years ended September 30, 2010 and 2009

       (Dollars in Thousands)                                                                          2010               2009

       Strategic Goal 1: Optimize Patent
       	 Quality and Timeliness
       	   Total Program Cost                                                                      $   1,777,871      $   1,744,676
       	   Total Program Earned Revenue                                                                (1,887,538)        (1,697,432)
       	   Net Program (Income)/Cost                                                                    (109,667)            47,244


       Strategic Goal 2: Optimize Trademark
       	 Quality and Timeliness
       	   Total Program Cost                                                                            182,565            193,187
       	   Total Program Earned Revenue                                                                 (214,144)          (229,698)
       	   Net Program Income                                                                            (31,579)           (36,511)


       Strategic Goal 3: Provide Domestic and Global Leadership to Improve
       	 Intellectual Property Policy, Protection and Enforcement Worldwide
       	 Total Program Cost                                                                               46,502             44,077
       Net (Income)/Cost from Operations (Note 11)                                                 $     (94,744)     $      54,810

       Total Entity
       	   Total Program Cost (Notes 12 and 13)                                                    $    2,006,938     $    1,981,940
       	   Total Earned Revenue                                                                        (2,101,682)        (1,927,130)
       Net (Income)/Cost from Operations (Note 11)                                                 $     (94,744)     $      54,810

       The accompanying notes are an integral part of these consolidated financial statements.




68	                                                                          Performance and accountability Report: Fiscal Year 2010
                                                                                                                   F i n a n c ia l Se ct ion




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED S TATE M ENT S O F C H AN G E S IN NET P O S ITI O N

For the years ended September 30, 2010 and 2009

(Dollars in Thousands)                                                                             2010                2009

                                                                                          Earmarked Funds     Earmarked Funds

Cumulative Results of Operations
	   Beginning Balances                                                                     $        375,794    $        432,604

Budgetary Financing Sources:
	 Transfers Out Without Reimbursement                                                          	          –              (2,000)
Other Financing Sources
	 Imputed Financing (Note 9)                                                                         21,767        	          –
Total Financing Sources                                                                              21,767        	     (2,000)
Net Income/(Cost) from Operations                                                                    94,744             (54,810)
Net Change                                                                                          116,511             (56,810)
Cumulative Results of Operations                                                           $        492,305    $        375,794

Net Position, End of Year                                                                  $        492,305    $        375,794

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                           69
Fin ancial Se ct ion


             U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
             C O mb i n e d S TATE M ENT S O F B U D G ETA R Y R E S O U R C E S

             For the years ended September 30, 2010 and 2009

             (Dollars in Thousands)                                                                        2010                  2009

             BUDGETARY RESOURCES
             	 Unobligated Balance - Brought Forward, October 1                                        $         118,692     $          72,079
             	 Recoveries of Prior Year Unpaid Obligations                                                        19,796                30,760
             	 Budget Authority		
             		 Spending Authority from Offsetting Collections:
             			 Earned:
             				 Collected                                                                                    2,101,227             1,927,415
             				 Customer Receivables and Refund Payables                                                           248                   136
             		 Change in Unfilled Customer Orders - Advance Received                                            (25,788)              (47,186)
             		 Total Spending Authority from Offsetting Collections                                           2,075,687             1,880,365
             	 Nonexpenditure Transfers, Net, Anticipated and Actual                                       	           –                (2,000)
             	   Temporarily not Available Pursuant to Public Law		                                              (52,543)        	           –
             Total Budgetary Resources                                                                 $       2,161,632     $       1,981,204

             STATUS OF BUDGETARY RESOURCES
             	 Obligations Incurred - Reimbursable                                                     $       1,938,958     $       1,862,512
             	 Unobligated Balance:
             		 Apportioned for Current Year		                                                                   222,674               118,692
             Total Status of Budgetary Resources                                                       $       2,161,632     $       1,981,204

             CHANGE IN OBLIGATED BALANCE
             	 Obligated Balance, Net
             		 Unpaid Obligations, Brought Forward, October 1                                         $         331,250     $         483,861
             		 Customer Receivables and Refund Payables,
             			 Brought Forward, October 1                                                                          525                   661
             	   Total Unpaid Obligated Balance Brought Forward, Net                                             331,775               484,522

             	 Obligations Incurred, Net                                                                        1,938,958             1,862,512
             		 Gross Outlays                                                                                  (1,953,365)           (1,984,363)
             		 Recoveries of Prior Year Unpaid Obligations, Actual                                               (19,796)              (30,760)
             		 Change in Customer Receivables and Refund Payables                                                   (248)                 (136)
             	   Total Unpaid Obligated Balance, Net, Current Year                                               (34,451)             (152,747)

             	 Obligated Balance, Net, End of Year
             		 Unpaid Obligations                                                                               297,047               331,250
             		 Uncollected Customer Receivables and Unpaid Refund Payables                                          277                   525
             	   Total Unpaid Obligated Balance, Net, End of Year                                      $         297,324     $         331,775

             NET OUTLAYS
             	 Gross Outlays                                                                           $        1,953,365    $        1,984,363
             	 Offsetting Collections                                                                          (2,075,439)           (1,880,229)
             Net (Collections)/Outlays                                                                 $        (122,074)    $         104,134

             The accompanying notes are an integral part of these consolidated financial statements.



70	                                                                       Performance and accountability Report: Fiscal Year 2010
                                                                                                                        F i n a n c ia l Se ct ion




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED S TATE M ENT S O F C A S H F L O W S ( INDI R E C T M ET H O D )

For the years ended September 30, 2010 and 2009

(Dollars in Thousands)                                                                            2010                 2009

CASH FLOWS FROM OPERATING ACTIVITIES
	 Net Income/(Cost) from Operations			                                                    $         94,744     $         (54,810)
	 Adjustments Affecting Cash Flow:
		 Imputed Financing from Cost Absorbed by Others                                                    21,767        	       –
		 (Increase)/Decrease in Accounts Receivable		                                                        (320)              79
		 Increase in Advances and Prepayments		                                                              (105)          (5,073)
		 Decrease in Accounts Payable		                                                                   (20,074)          (6,506)
		 Increase in Accrued Payroll and Benefits		                                                        18,203            3,869
		 Increase in Accrued Leave and Workers’ and Unemployment Compensation                               3,613            7,273
		 Increase/(Decrease) in Customer Deposit Accounts		                                                 4,226           (3,397)
		 Decrease in Deferred Revenue		                                                                   (25,868)         (48,249)
		 Decrease in Contingent Liability		                                                                (1,200)       	       –
		 Increase/(Decrease) in Actuarial Liability		                                                         202             (221)
		 Depreciation, Amortization, or Loss on Asset Dispositions                                         59,083           63,345
	   Total Adjustments                                                                               59,527               11,120
Net Cash Provided/(Used) in Operating Activities                                                   154,271               (43,690)

CASH FLOWS FROM INVESTING ACTIVITIES
	 Purchases of Property and Equipment                                                               (27,678)             (64,963)
Net Cash Used in Investing Activities                                                               (27,678)             (64,963)

CASH FLOWS FROM FINANCING ACTIVITIES
	 Transfers Out Without Reimbursement                                                         	          –                (2,000)
Net Cash Used in Financing Activities                                                         	          –                (2,000)
Net Cash Provided (Used) in Operating, Investing, and Financing Activities	                        126,593             (110,653)

Effect of Implementation of SFFAS No. 31 (Notes 1 and 15)                                     	          –               (11,909)

Net Cash Provided/(Used)				                                                              $ 	 126,593          $ 	 (122,562)

Fund Balance with Treasury and Cash, Beginning of Year                                    $       1,313,038    $       1,435,600
Net Cash Provided/(Used)				                                                                  	 126,593            	 (122,562)
Fund Balance with Treasury and Cash, End of Year                                          $   $1,439,631       $       1,313,038

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                                71
Fin ancial Se ct ion




U nited S tates P A T E N T A N D T R A D E M A R K O F F I C E
N O T E S T O F I N A N C I A L S TAT E M E N T S

As of and for the years ended September 30, 2010 and 2009


N O T E 1 . S ummary of S ignificant A ccounting P olicies

Reporting Entity
The United States Patent and Trademark Office (USPTO) is an agency of the United States within the U.S. Department of
Commerce. The USPTO administers the laws relevant to patents and trademarks and advises the Secretary of Commerce, the
President of the United States, and the Administration on patent, trademark, and copyright protection, and trade-related aspects
of intellectual property.

These financial statements include the USPTO’s three core business activities – granting patents, registering trademarks,
and intellectual property policy, protection, and enforcement – that promote the use of intellectual property rights as a
means of achieving economic prosperity. These activities give innovators, businesses, and entrepreneurs the protection and
encouragement they need to turn their creative ideas into tangible products, and also provide protection for their inventions
and trademarks.

These financial statements report the accounts for salaries and expenses (13X1006), special fund receipts (135127), customer
deposits from the public and other Federal agencies (13X6542), Patent Cooperation Treaty collections (13X6538), and the
Madrid Protocol Collections (13X6554) that are under the control of the USPTO. The Federal budget classifies the USPTO under
the Other Advancement of Commerce (376) budget function. The USPTO does not have custodial responsibility, nor does it
have lending or borrowing authority. The USPTO does not transact business among its own operating units, and therefore, no
intra-entity eliminations are necessary.

Tax Status
The USPTO is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.

Basis of Presentation
As required by the Chief Financial Officers’ Act of 1990 and 31 U.S.C. §3515(b), the accompanying financial statements present
the financial position, net cost of operations, budgetary resources, and cash flows for the USPTO’s core business activities.
The books and records of the USPTO serve as the source of this information.

These financial statements were prepared in accordance with accounting principles generally accepted in the United States
(GAAP) and the form and content for entity financial statements specified by the Office of Management and Budget (OMB) in
Circular A-136, Financial Reporting Requirements, as amended, as well as the accounting policies of the USPTO. Therefore, they
may differ from other financial reports submitted pursuant to OMB directives for the purpose of monitoring and controlling the
use of the USPTO’s budgetary resources. The GAAP for Federal entities are the standards prescribed by the Federal Accounting
Standards Advisory Board (FASAB), which is the official body for setting the accounting standards of the Federal Government.

Throughout these financial statements, assets, liabilities, revenues, and costs have been classified according to the type of
entity with which the transactions are associated. Intra-governmental assets and liabilities are those from or to other Federal
entities. Intra-governmental earned revenues are collections or accruals of revenue from other Federal entities and intra-
governmental costs are payments or accruals to other Federal entities.




72	                                                           Performance and accountability Report: Fiscal Year 2010
                                                                                                                F i n a n c ia l Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)

The USPTO had previously received allocation transfers from another Federal agency as a receiving (child) entity. Allocation
transfers are legal delegations by one department of its authority to obligate budget authority and outlay funds to another
department. A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund account
for tracking and reporting purposes. All allocation transfers of balances are credited to this account, and subsequent obligations
and outlays incurred by the child entity are charged to this allocation account as they execute the delegated activity on behalf
of the parent entity. Generally, all financial activity related to these allocation transfers (e.g. budget authority, obligations, and
outlays) is reported in the financial statements of the parent entity, from which the underlying legislative authority, appropriations,
and budget apportionments are derived. The USPTO received allocation transfers, as the child, from the General Services
Administration. Activity relating to these child allocation transfers is not reported in the USPTO’s financial statements.

Basis of Accounting
Transactions are recorded on the accrual basis of accounting, as well as on a budgetary basis. Accrual accounting allows for
revenue to be recognized when earned and expenses to be recognized when goods or services are received, without regard to the
receipt or payment of cash. Budgetary accounting allows for compliance with the requirements for and controls over the use of
Federal funds. The accompanying financial statements are presented on the accrual basis of accounting.

Earmarked Funds
Statement of Federal Financial Accounting Standard 27, Identifying and Reporting Earmarked Funds, requires separate
identification of the earmarked funds on the Consolidated Balance Sheets (Net Position section), Consolidated Statements of
Changes in Net Position, and further disclosures in a footnote (Note 10).

Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be accounted
for separately from the Government’s general revenues. At the USPTO, earmarked funds include the salaries and expenses
fund (13X1006) and the special fund receipts (135127).

Fiduciary Activities
Statement of Federal Financial Accounting Standard 31, Accounting for Fiduciary Activities, requires that, starting in FY 2009,
fiduciary activities will no longer be recognized on the financial statements, but will be reported on schedules in the notes to
the financial statements (Note 15).

Fiduciary cash and other assets are not assets of the Federal Government. Fiduciary activities are the collection or receipt, and
the management, protection, accounting, and disposition by the Federal Government of cash or other assets in which non-
Federal individuals or entities have an ownership interest that the Federal Government must uphold. At the USPTO, fiduciary
activities are recorded in the Patent Cooperation Treaty fund (13X6538) and the Madrid Protocol fund (13X6554).

Budgets and Budgetary Accounting
Total budgetary resources are primarily comprised of Congressional authority to spend current year fee collections. In FY 2010,
the USPTO was appropriated up to $1,887,000 thousand for fees collected during the fiscal year. However, as the fiscal year
progressed, fee collections exceeded the anticipated amounts. As a result, the OMB issued a supplemental appropriation (H.R. 5874)
to the USPTO, thereby increasing the available amount of fee collections for use to $2,016,000 thousand. In FY 2009, the USPTO
was appropriated up to $2,010,100 thousand for fees collected during the fiscal year. However, as the fiscal year progressed, fee
collections were not being received as they had been anticipated. As a result, the OMB issued a reapportionment to the USPTO,
thereby decreasing the available amount of fee collections for use to $1,900,950 thousand. For the year ended September 30,



www.uspto.gov	                                                                                                                        73
Fin ancial Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


2010, the USPTO collected $46,082 thousand more than the amount apportioned through September 30, 2010 (over-collections of
fees of $52,543 thousand and under-collections of other budgetary resources of $6,461 thousand). For the year ended September
30, 2009, the USPTO collected $26,724 thousand less than the amount apportioned through September 30, 2009.

The USPTO receives an apportionment of Category A funds from OMB, which apportions budgetary resources by fiscal
quarter. The USPTO does not receive any Category B funds, or those exempt from apportionment.

Funding Limitations
Pursuant to the Patent and Trademark Office Fee Fairness Act of 1999 (35 U.S.C. §42(c)), all fees available to the Director under
section 31 of the Trademark Act of 1946 are used only for the processing of trademark registrations and for other activities, services,
and materials relating to trademarks, as well as to cover a proportionate share of the administrative costs of the USPTO.

Legislation was passed in July 2009 that allows the USPTO to use surplus funds from Trademark revenues to cover any shortfalls
that may occur as the result of the decrease in Patent fee collections [H.R. 3114]. The authority to use these funds lasted until June
2010. Should such use of Trademark funds be necessary, the amount must be paid back to the Trademark organization no later
than September 30, 2014. As of June 30, 2010, Trademark funds were not used for Patent operations and the authority for Patent
operations to use surplus Trademark funds has expired.

In addition, the FY 2009 appropriation language restricted from obligation $5,000 thousand of offsetting collections until “the
USPTO has completed a comprehensive review of the assumptions behind the patent examiner expectancy goals and adopted a
revised set of expectancy goals for patent examination”.

The total temporarily unavailable fee collections pursuant to Public Law as of September 30, 2010 are $814,759 thousand. Of this
amount, certain USPTO collections of $233,529 thousand were withheld in accordance with the Omnibus Budget Reconciliation
Act (OBRA) of 1990, and deposited in a special fund receipt account at the U.S. Department of the Treasury.

Use of Estimates
The preparation of financial statements in conformity with GAAP requires management to make estimates and assumptions
that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and liabilities as of the date
of the financial statements and the reported amounts of revenues and expenses during the reporting period. Actual results
could differ from these estimates.

Revenue and Other Financing Sources
The USPTO’s fee rates are established by law and, consequently, in some instances may not represent full cost or market
price. Since FY 1993, the USPTO’s funding has been primarily through the collection of user fees. Fees that are remitted with
initial applications and requests for other services are recorded as exchange revenue when received, with an adjustment to
defer revenue for services that have not been performed. All amounts remitted by customers without a request for service are
recorded as liabilities in customer deposit accounts until services are ordered.

The USPTO also receives some financial gifts and gifts-in-kind. All such transactions are included in the consolidated Gifts
and Bequests Fund financial statements of the U.S. Department of Commerce. These gifts are not of significant value and are
not reflected in the USPTO’s financial statements. Most gifts-in-kind are used for official travel to further attain the USPTO
mission and objectives.




74	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                                             F i n a n c ia l Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


Entity/Non-Entity
Assets that an entity is authorized to use in its operations are termed entity assets, while assets that are held by an entity and
are not available for the entity’s use are termed non-entity assets. Most of the USPTO’s assets are entity assets and are available
to carry out the mission of the USPTO, as appropriated by Congress, with the exception of a portion of the Fund Balance with
Treasury and cash as highlighted in Note 3.

Fund Balance with Treasury
The USPTO deposits fees collected in commercial bank accounts maintained by the Treasury’s Financial Management Service
(FMS). All moneys maintained in these accounts are transferred to the Federal Reserve Bank on the next business day
following the day of deposit. In addition, many customer deposits are wired directly to the Federal Reserve Bank. All banking
activity is conducted in accordance with the directives issued by the FMS. Treasury processes all disbursements. (Note 2)

Accounts Receivable
Accounts receivable balances are established for amounts owed to the USPTO from its customers. The USPTO’s accounts
receivable balances are comprised of amounts due from former employees for the reimbursement of education expenses
and other benefits, amounts due from foreign intellectual property offices for the reimbursement of services provided,
amounts due from other Federal agencies for the reimbursement of services provided, and other revenue-related receivables.
This balance in accounts receivable remains as a very small portion of the USPTO’s assets, as the USPTO requires payment
prior to the provision of goods or services during the course of its core business activities.

The USPTO has written off, but not closed out, $235 thousand and $154 thousand of accounts receivables that are considered
not collectible as of September 30, 2010 and 2009, respectively. These offsets are established for receivables older than two
years with little or no collection activity that have been transferred to Treasury, subsequently adjusting the gross amount of
its employee-related accounts receivable to the net realizable value. The gross amount of the USPTO’s employee-related
accounts receivable as of September 30, 2010 and 2009 was $332 thousand and $424 thousand, respectively.

Receivables due from foreign intellectual property offices as of September 30, 2010 and 2009 were $43 thousand and
$15 thousand, respectively.

Intragovernmental receivables as of September 30, 2010 and 2009 totaled $608 thousand and $143 thousand, respectively.

Revenue-related receivables as of September 30, 2010 and 2009 totaled $10 thousand.

Advances and Prepayments
On occasion, the USPTO prepays amounts in anticipation of receiving future benefits. Although a payment has been made, an
expense is not recorded until goods have been received or services have been performed. The USPTO has prepayments and
advances with non-governmental, as well as governmental vendors.

Total prepayments and advances to non-governmental vendors as of September 30, 2010 and 2009 were $10,179 thousand and
$9,582 thousand, respectively. The largest prepayments as of September 30, 2010 and 2009 were $6,005 and $5,948 thousand
for various hardware and software maintenance agreements; and $2,625 thousand and $1,848 thousand for various cooperative
efforts with the National Inventors Hall of Fame, the International Intellectual Property Institute, and the World Intellectual
Property Organization, respectively. Travel advances to personnel as of September 30, 2010 and 2009 were $6 thousand and
$13 thousand, respectively.



www.uspto.gov	                                                                                                                     75
Fin ancial Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)

Total prepayments and advances to governmental vendors as of September 30, 2010 and 2009 were $2,988 thousand and
$3,480 thousand, respectively. The largest governmental prepayments include the USPTO deposit accounts held with the
U.S. Government Printing Office to facilitate recurring transactions. Deposit accounts held with the U.S. Government Printing
Office as of September 30, 2010 and 2009 were $1,436 thousand and $1,671 thousand, respectively.

Cash
The USPTO’s cash balance primarily consists of checks, electronic funds transfer, and credit card payments for deposits
that are in transit and have not been credited to the USPTO’s Fund Balance with Treasury. As of September 30, 2010,
$2,747 thousand were in transit due to the lag time between deposits in commercial bank accounts and the confirmation
received from Treasury. Of this balance, $629 thousand were non-entity deposit account assets. As of September 30, 2009,
$2,698 thousand were in transit due to the lag time between deposits in commercial bank accounts and the confirmation
received from Treasury. Of this balance, $954 thousand were non-entity deposit account assets.

The cash balance also consists of undeposited checks for fees that were not processed at the Balance Sheet date due to the
lag time between receipt and initial review. All such undeposited check amounts are considered to be cash equivalents.
As of September 30, 2010 and 2009, the cash balance includes undeposited checks of $451 thousand and $532 thousand,
respectively.

Cash is also held outside the Treasury to be used as imprest funds. An imprest fund of $1 thousand was held as of September 30,
2010 and 2009.

Property, Plant, and Equipment, Net
The USPTO’s capitalization policies are summarized below:
Classes of Property,                           Capitalization Threshold               Capitalization Threshold for
Plant, and Equipment                           for Individual Purchases                     Bulk Purchases
IT Equipment                                     $25 thousand or greater                $500 thousand or greater
Software                                         $25 thousand or greater                $  25 thousand or greater
Software in Progress                             $25 thousand or greater                $  25 thousand or greater
Furniture                                        $25 thousand or greater                $  50 thousand or greater
Equipment                                        $25 thousand or greater                $500 thousand or greater
Leasehold Improvements                           $25 thousand or greater                      Not applicable

Costs capitalized are recorded at actual historical cost. Depreciation is expensed on a straight-line basis over the estimated
useful life of the asset with the exception of leasehold improvements, which are depreciated over the remaining life of the
lease or over the useful life of the improvement, whichever is shorter.

Contractor costs for developing custom internal use software are capitalized when incurred for the design, coding, and testing
of the software. Software in progress is not amortized until placed in service. (Note 4)
Property, plant, and equipment acquisitions that do not meet the capitalization criteria are expensed upon receipt.

Workers’ Compensation
Claims brought by USPTO employees for on-the-job injuries fall under the Federal Employees’ Compensation Act (FECA)
administered by the U.S. Department of Labor (DOL). The DOL bills each agency annually as its claims are paid, but payment
on these bills is deferred approximately two years to allow for funding through the budget process. As of September 30,



76	                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                         F i n a n c ia l Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)

2010, the USPTO had a $1,692 thousand liability for estimated claims paid on its behalf during the benefit period July 1, 2008
through September 30, 2010. As of September 30, 2009, the USPTO had a $1,622 thousand liability for estimated claims paid
on its behalf during the benefit period July 1, 2007 through September 30, 2009.

Unemployment Compensation
USPTO employees who lose their jobs through no fault of their own may receive unemployment compensation benefits under
the unemployment insurance program administered by the DOL. The DOL bills each agency quarterly as its claims are paid.
As of September 30, 2010 and 2009, the USPTO liability was $186 thousand and $149 thousand, respectively, for estimated
claims paid by the DOL on behalf of the USPTO.

Annual, Sick, and Other Leave
Annual leave and compensatory time are accrued as earned, with the accrual being reduced when leave is taken. An adjustment
is made each fiscal quarter to ensure that the balances in the accrued leave accounts reflect current pay rates. No portion
of this liability has been obligated. To the extent current year funding is not available to pay for leave earned but not
taken, funding will be obtained from future financing sources. Sick leave and other types of non-vested leave are expensed
as used.

Accrued leave as of September 30, 2010 and 2009 was $71,018 thousand and $67,512 thousand, respectively.

Employee Retirement Systems and Post-Employment Benefits
USPTO employees participate in either the Civil Service Retirement System (CSRS) or the Federal Employees Retirement
System (FERS). The FERS was established by the enactment of Public Law 99-335. Pursuant to this law, the FERS and Social
Security automatically cover most employees hired after December 31, 1983. Employees who had five years of Federal civilian
service prior to 1984 and who are rehired after a break in service of more than one year may elect to join the FERS and Social
Security system or be placed in the CSRS offset retirement system.

The USPTO’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or liabilities applicable
to its employees. The reporting of such amounts is the responsibility of the U.S. Office of Personnel Management (OPM),
who administers the plans. While the USPTO reported no liability for future payments to employees under these programs,
the Federal Government is liable for future payments to employees through the OPM who administers these programs.
The USPTO financial statements recognize a funded expense and an imputed cost for the USPTO’s share of the costs to the
Federal Government of providing pension, post-retirement health, and post-retirement life insurance benefits to all eligible
USPTO employees. The USPTO’s appropriation requires full funding of the present costs, as determined by the OPM, of post-
retirement benefits for the Federal Employees Health Benefit Program (FEHB), the Federal Employees Group Life Insurance
Program (FEGLI), and pensions under the CSRS. While ultimate administration of any post-retirement benefits or retirement
system payments will continue to be administered by the OPM, the USPTO is responsible for the payment of the present value
associated with these costs calculated using the OPM factors. Any difference between the OPM factors for funding purposes
and the OPM factors for reporting purposes is recognized as an imputed cost. (Note 9)

For the years ended September 30, 2010 and 2009, the USPTO made current year contributions through agency payroll
contributions and quarterly supplemental payments to OPM equivalent to approximately 18.2 percent and 19.1 percent of the
employee’s basic pay for those employees covered by CSRS, based on OPM cost factors, respectively. For the years ended
September 30, 2010 and 2009, the USPTO made current year contributions through agency payroll contributions and quarterly
supplemental payments to OPM equivalent to approximately 11.2 percent and 11.5 percent of the employee’s basic pay for
those employees covered by FERS, based on OPM cost factors, respectively.



www.uspto.gov	                                                                                                                 77
Fin ancial Se ct ion




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)

All employees are eligible to contribute to a thrift savings plan. For those employees participating in the FERS, a thrift savings
plan is automatically established, and the USPTO makes a mandatory contribution to this plan equal to one percent of the
employees’ compensation. In addition, the USPTO makes matching contributions ranging from one to four percent of the
employees’ compensation for FERS-eligible employees who contribute to their thrift savings plans. No matching contributions
are made to the thrift savings plans for employees participating in the CSRS. Employees participating in the FERS are also
covered under the Federal Insurance Contributions Act (FICA), for which the USPTO contributes a matching amount to the
Social Security Administration.

Deferred Revenue
Deferred revenue represents fees that have been received by the USPTO for requested services that have not been substantially
completed. Two types of deferred revenue are recorded. The first type results from checks received, accompanied by
requests for services, which were not yet deposited due to the lag time between receipt and initial review. The second
type of deferred revenue relates primarily to fees for applications that have been partially processed. The deferred revenue
calculation is a complex accounting estimate, dependent upon numerous business and administrative processes, workloads,
and inventories. (Note 6)

Environmental Cleanup
The USPTO does not have any liabilities for environmental cleanup.



NOTE 2.          F und B alance with T reasury

As of September 30, 2010 and 2009, Fund Balance with Treasury consisted of the following:

(Dollars in Thousands)                                                  2010                                 2009
Fund Balances by Treasury Fund Type:
	 Special Funds                                                     $     233,529                        $    233,529
	 General Funds                                                         1,101,228                             979,154
	 Deposit Funds                                                           101,675                              97,124
Total Fund Balance with Treasury                                    $   1,436,432                        $   1,309,807


Status of Fund Balance with Treasury:
	 Obligated Balance Not Yet Disbursed                               $     297,324                        $    331,775
	 Unobligated Balance Available                                           222,674                             118,692
	 Temporarily Not Available Pursuant to Public Law                        581,230                             528,687
	 Non-Budgetary Fund Balance with Treasury                                335,204                             330,653
Total Fund Balance with Treasury                                    $   1,436,432                        $   1,309,807

No discrepancies exist between the Fund Balance reflected in the general ledger and the balance in the Treasury accounts.

As of September 30, 2010 and 2009, the Non-Budgetary Fund Balance with Treasury includes surcharge receipts of
$233,529 thousand and non-entity customer deposit accounts of $101,675 thousand and $97,124 thousand, respectively.



78	                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                       F i n a n c ia l Se ct ion




NOTE 3.           N on - E ntity A ssets

Non-entity assets consist of amounts held on deposit for the convenience of the USPTO customers and fees collected on
behalf of the World Intellectual Property Organization (WIPO) and the European Patent Office (EPO). Customers have the
option of maintaining a deposit account at the USPTO to facilitate the order process. Customers can draw from their deposit
account when they place an order and can replenish their deposit account as desired. Funds maintained in customer deposit
accounts are not available for the USPTO use until an order has been placed. Once an order has been placed, the funds are
reclassified to entity funds. Also, in accordance with the Patent Cooperation Treaty and the Madrid Protocol Implementation
Act, the USPTO collects international fees on behalf of the WIPO and the EPO.

(Dollars in Thousands)                                                  2010                               2009

Fund Balance with Treasury:
	   Intragovernmental Deposit Accounts                          $          5,823                   $          5,419
	   Other Customer Deposit Accounts                                       95,852                             91,705
Total Fund Balance with Treasury                                         101,675                             97,124

Cash:
	 Other Customer Deposit Accounts                                   	          629                     	          954

Total Non-Entity Assets                                                  102,304                             98,078

Total Entity Assets                                                     1,525,649                          1,434,262

Total Assets                                                    $       1,627,953                  $       1,532,340




www.uspto.gov	                                                                                                               79
Fin ancial Se ct ion




NOTE 4.           P roperty , P L A N T , and E quipment , N E T

As of September 30, 2010, property, plant, and equipment, net consisted of the following:

(Dollars in Thousands)
                                       Depreciation/   Service                     Accumulated
Classes of Property, Plant,            Amortization      Life       Acquisition    Depreciation/          Net Book
and Equipment                            Method        (Years)        Value        Amortization            Value
IT Equipment                                SL           3-5        $   291,893     $     249,092     $       42,801
Software                                    SL           3-5            280,916           246,359             34,557
Software in Progress                        —            —               22,763         	      —              22,763
Furniture                                   SL           5-7             23,265            18,433              4,832
Equipment                                   SL           3-8             13,738            12,405              1,333
Leasehold Improvements                      SL          5-20             97,218            29,107             68,111
Total Property, Plant, and Equipment                                $   729,793     $       555,396   $      174,397

As of September 30, 2009, property, plant, and equipment, net consisted of the following:

(Dollars in Thousands)
                                       Depreciation/   Service                     Accumulated
Classes of Property, Plant,            Amortization      Life       Acquisition    Depreciation/          Net Book
and Equipment                            Method        (Years)        Value        Amortization            Value
IT Equipment                                SL           3-5        $   284,681     $     235,850     $       48,831
Software                                    SL           3-5            271,084           221,858             49,226
Software in Progress                        —            —               25,771         	      —              25,771
Furniture                                   SL            5              28,315            19,931              8,384
Equipment                                   SL           3-5             13,730            11,497              2,233
Leasehold Improvements                      SL          5-20             94,923            23,566             71,357
Total Property, Plant, and Equipment                                $   718,504     $       512,702   $      205,802




80	                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                              F i n a n c ia l Se ct ion




N O T E 5 . L iabilities C overed and N ot C overed by B udgetary R esources

The USPTO records liabilities for amounts that are likely to be paid as the direct result of events that have already occurred.
The USPTO considers liabilities covered by three types of resources: realized budgetary resources; unrealized budgetary resources
that become available without further Congressional action; and cash and Fund Balance with Treasury. Realized budgetary
resources include obligated balances funding existing liabilities and unobligated balances as of September 30, 2010. Unrealized
budgetary resources are amounts that were not available for spending through September 30, 2010, but become available for
spending on October 1, 2010 once apportioned by the OMB. In addition, cash and Fund Balance with Treasury cover liabilities
that will never require the use of a budgetary resource. These liabilities consist of deposit accounts, refunds payable to customers
for fee overpayments, undeposited collections, and amounts collected by the USPTO on behalf of other organizations.

Liabilities not covered by budgetary resources include Accrued Workers’ Compensation, Accounts Payable, Accrued Payroll and
Benefits, Accrued Leave, Deferred Revenue, Actuarial Liability, and Contingent Liability. Although future appropriations to fund
these liabilities are probable and anticipated, Congressional action is needed before budgetary resources can be provided.

As of September 30, 2010 and 2009, liabilities covered and not covered by budgetary resources were as follows:

(Dollars in Thousands)                                                                       2010              2009

Liabilities Covered by Resources
	 Intragovernmental:
		 Accounts Payable                                                                  $          4,732     $       4,852
		 Accrued Payroll and Benefits                                                                12,974            12,486
		 Accrued Unemployment Compensation                                                              186               149
		 Customer Deposit Accounts                                                                    5,823             5,419
	   Total Intragovernmental                                                                    23,715            22,906

	   Accounts Payable                                                                           65,382            85,174
	   Accrued Payroll and Benefits                                                               58,114            49,771
	   Customer Deposit Accounts                                                                  96,481            92,659
	   Deferred Revenue                                                                          223,125           119,224
Total Liabilities Covered by Resources                                               $        466,817     $     369,734

Liabilities Not Covered by Resources
	 Intragovernmental:
		 Accrued Workers’ Compensation                                                     $          1,692     $       1,622
	   Total Intragovernmental                                                                     1,692             1,622

	   Accounts Payable                                                                     	         —                162
	   Accrued Payroll and Benefits	                                                              36,359            26,987
	   Accrued Leave                                                                              71,018            67,512
	   Deferred Revenue                                                                          551,263           681,032
	   Actuarial Liability                                                                         8,299             8,097
	   Contingent Liability                                                                          200             1,400
Total Liabilities Not Covered by Resources                                           $        668,831     $     786,812
Total Liabilities                                                                    $       1,135,648    $   1,156,546




www.uspto.gov	                                                                                                                      81
Fin ancial Se ct ion




NOTE 6.         D eferred R evenue

As of September 30, 2010, deferred revenue consisted of the following:

(Dollars in Thousands)                                          Patent              Trademark                   Total
	   Unearned Fees                                           $    710,807            $     63,130            $    773,937
	   Undeposited Checks                                               403                      48                     451
Total Deferred Revenue                                      $    711,210            $     63,178            $    774,388

As of September 30, 2009, deferred revenue consisted of the following:

(Dollars in Thousands)                                          Patent              Trademark                   Total
	   Unearned Fees                                           $    741,829            $     57,895            $    799,724
	   Undeposited Checks                                               470                      62                     532
Total Deferred Revenue                                      $    742,299            $     57,957            $    800,256




NOTE 7.         A ctuarial L iability

The FECA provides income and medical cost protection to covered Federal civilian employees injured on the job and for
those who have contracted a work-related occupational disease, and beneficiaries of employees whose death is attributable
to a job-related injury or occupational disease. Claims incurred for benefits under the FECA for the USPTO’s employees are
administered by the DOL and are paid ultimately by the USPTO.

The DOL estimated the future workers compensation liability by applying actuarial procedures developed to estimate the
liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims.
The actuarial liability is updated annually.

The DOL method of determining the liability uses historical benefit payment patterns for a specific incurred period to predict
the ultimate payments for that period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the OMB’s economic assumptions for ten-year Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

                                             2010                                  2009
                                        3.65 % in year 1,                     4.22% in year 1,
                                        4.30 % in year 2,                     4.72% in year 2,
                                         and thereafter                       and thereafter

Based on information provided by the DOL, the U.S. Department of Commerce estimated the USPTO’s liability as of September 30,
2010 and 2009 was $8,299 thousand and $8,097 thousand, respectively.




82	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                                                    F i n a n c ia l Se ct ion




NOTE 8.        L eases


Operating Leases:
The General Services Administration (GSA) negotiates long-term office space leases and levies rent charges, paid by the
USPTO, approximate to commercial rental rates. These operating lease agreements for the USPTO’s office buildings expire
at various dates between FY 2014 and FY 2024. During the years ended September 30, 2010 and 2009, the USPTO paid
$91,876 thousand and $90,533 thousand, respectively, to the GSA for rent.

Under existing commitments, the future minimum lease payments as of September 30, 2010 are as follows:

                 Fiscal Year                                           (Dollars in Thousands)
                 2011                                                         $	    67,630
                 2012                                                               67,630
                 2013                                                               67,630
                 2014                                                               65,721
                 2015                                                               64,827
                 Thereafter                                                        516,169
                 Total Future Minimum Lease Payments                          $	 849,607


The commitments shown above relate primarily to the operating lease for the USPTO headquarters in Alexandria, Virginia,
beginning in FY 2004 and extending to FY 2024.



NOTE 9.        P O S T- E M P L O Y M E N T B E N E F I T S

For the years ended September 30, 2010 and 2009, the post-employment benefit expenses were as follows:

(Dollars in Thousands)                               2010                                                    2009
                                  Funded         Imputed           Total                     Funded      Imputed                 Total
CSRS                          $     12,610   $         3,435   $     16,045              $    14,790   $ 	          —       $      14,790
FERS                                96,424            15,711        112,135                   97,778     	          —              97,778
FEHB                                48,253             2,621         50,874                   50,389     	          —              50,389
FEGLI                                  160       	        —             160                      155     	          —                 155
FICA                                66,811       	        —          66,811                   63,857     	          —              63,857
Total Cost                    $    224,258   $        21,767   $    246,025              $   226,969   $ 	          —       $     226,969




www.uspto.gov	                                                                                                                              83
Fin ancial Se ct ion




NOTE 10.                        E armarked F unds

Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be accounted
for separately from the Government’s general revenues. At the USPTO, earmarked funds include the salaries and expenses
fund and the special fund receipts. Non-entity funds, as disclosed in Note 3, are not earmarked funds and are therefore
excluded from the below amounts.

The following tables provide the status of the USPTO’s earmarked funds as of and for the years ended September 30, 2010
and 2009.

(Dollars in Thousands)                                         Salaries and             Surcharge      Total Earmarked
                                                              Expenses Fund               Fund               Funds
Balance Sheet as of September 30, 2010	
        	   Fund Balance with Treasury                         $    1,101,228       $        233,529    $     1,334,757
        	   Cash                                                       2,570             	       —               2,570
        	   Accounts Receivable, Net                                     758             	       —                 758
        	   Other Assets                                             187,564             	       —             187,564
        	   Total Assets                                       $    1,292,120       $        233,529    $     1,525,649

        	   Total Liabilities                                  $    1,033,344       $ 	          —      $     1,033,344
        	   Cumulative Results of Operations                         258,776                 233,529           492,305
        	   Total Liabilities and Net Position                 $    1,292,120       $        233,529    $     1,525,649

Statement of Net Cost For the Year
Ended September 30, 2010
        	   Total Program Cost                                 $    2,006,938       $ 	          —      $     2,006,938
        	   Less Earned Revenue                                    (2,101,682)           	       —           (2,101,682)

	           Net Income from Operations                         $      (94,744)      $ 	          —      $       (94,744)

Statement of Changes in Net Position
For the Year Ended September 30, 2010
    	        Net Position, Beginning of Year                   $     142,265        $        233,529    $      375,794
    	        Other Financing Sources:
    		             Imputed Financing                           $      21,767        $ 	          —      $       21,767
    	        Net Income from Operations                               94,744             	       —              94,744
    	        Change in Net Position                            $     116,511        $ 	          —      $      116,511
    	        Net Position, End of Year                         $     258,776        $        233,529    $      492,305




84	                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                          F i n a n c ia l Se ct ion




NOTE 10.                        E armarked F unds (Continued)



(Dollars in Thousands)                                       Salaries and             Surcharge      Total Earmarked
                                                            Expenses Fund               Fund               Funds
Balance Sheet as of September 30, 2009	
        	   Fund Balance with Treasury                       $      979,154       $        233,529    $      1,212,683
        	   Cash                                                      2,277            	       —                 2,277
        	   Accounts Receivable, Net                                    438            	       —                   438
        	   Other Assets                                            218,864            	       —              218,864
        	   Total Assets                                     $    1,200,733       $        233,529    $      1,434,262

        	   Total Liabilities                                $    1,058,468       $ 	          —      $      1,058,468
        	   Cumulative Results of Operations                        142,265                233,529            375,794
        	   Total Liabilities and Net Position               $    1,200,733       $        233,529    $      1,434,262

Statement of Net Cost For the Year
Ended September 30, 2009
        	   Total Program Cost                               $    1,981,940       $ 	          —      $      1,981,940
        	   Less Earned Revenue                                   (1,927,130)          	       —            (1,927,130)

	           Net Cost of Operations                           $       54,810       $ 	          —      $         54,810

Statement of Changes in Net Position
For the Year Ended September 30, 2009
    	        Net Position, Beginning of Year                 $      199,075       $        233,529    $       432,604
    	        Budgetary Financing Sources                     $        (2,000)     $ 	          —      $         (2,000)
    	        Net Cost of Operations                                 (54,810)           	       —               (54,810)
    	        Change in Net Position                          $      (56,810)      $ 	          —      $        (56,810)
    	        Net Position, End of Year                       $      142,265       $        233,529    $       375,794

The Salaries and Expenses Fund contains moneys used for the administering of the laws relevant to patents and
trademarks and advising the Secretary of Commerce, the President of the United States, and the Administration on patent,
trademark, and copyright protection, and trade-related aspects of intellectual property. This fund is used for the USPTO’s
three core business activities – granting patents, registering trademarks, and intellectual property policy, protection, and
enforcement – that promote the use of intellectual property rights as a means of achieving economic prosperity. These
activities give innovators, businesses, and entrepreneurs the protection and encouragement they need to turn their creative
ideas into tangible products, and also provide protection for their inventions and trademarks. The USPTO may use moneys
from this account only as authorized by Congress via appropriations.

The Surcharge Fund was created in FY 1992 through the Patent and Trademark Office Surcharge provision in the OBRA of
1990 (Section 10101, Public Law 101-508). This required that the USPTO impose a surcharge on certain patent fees and set
in statute the amounts of money that the USPTO should deposit in a special fund receipt account at the U.S. Department of
the Treasury. This surcharge was eliminated in FY 1999. The USPTO may use moneys from this account only as authorized
by Congress, and only as made available by the issuance of a Treasury warrant.




www.uspto.gov	                                                                                                                  85
Fin ancial Se ct ion




N O T E 1 1 . I ntragovernmental C osts and E x change R evenue

Total intragovernmental costs and exchange revenue, by Strategic Goal, for the years ended September 30, 2010 and
2009 were as follows:

(Dollars in Thousands)                                                                          2010
                                                                Patent          Trademark              Intellectual         Total
                                                                                                         Property
                                                                                                        Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $         377,272   $ 	­—              $ 	­—              $       377,272
	 Gross Cost with the Public                                        1,400,599     	­—                	­—                    1,400,599
		     Total Program Cost                                           1,777,871       	­—                  	­—                1,777,871

	   Intragovernmental Earned Revenue                            	 (8,652)           	­—                  	­—              	    (8,652)
	   Earned Revenue from the Public                              	(1,878,886)        	­—                  	­—              	(1,878,886)
		     Total Program Earned Revenue                             	(1,887,538)        	­—                  	­—              	(1,887,538)
		     Net Program Income                                   $ 	 (109,667)       $ 	­—              $ 	­—              $ 	 (109,667)

Strategic Goal 2: Optimize Trademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $ 	           —     $      38,741      $ 	­—              $       38,741
	 Gross Cost with the Public                                  	           —           143,824        	­—                     143,824
		     Total Program Cost                                       	         —           182,565            	­—                 182,565

	   Intragovernmental Earned Revenue                            	         —         	     (723)          	­—              	     (723)
	   Earned Revenue from the Public                              	         —         	 (213,421)          	­—              	 (213,421)
		     Total Program Earned Revenue                             	         —         	 (214,144)          	­—              	 (214,144)
		     Net Program Income                                   $ 	           —     $ 	 (31,579)       $ 	­—              $ 	 (31,579)

Strategic Goal 3: Provide Domestic and Global Leadership
	 to Improve Intellectual Property Policy, Protection and
	 Enforcement Worldwide
	 Intragovernmental Gross Cost                              $ 	           —     $ 	­—              $         9,868    $        9,868
	 Gross Cost with the Public                                  	           —       	­—                       36,634            36,634
		     Total Program Cost                                       	         —         	­—                     46,502            46,502
Net (Income)/Cost from Operations                           $ 	 (109,667)       $ 	 (31,579)       $        46,502    $ 	     (94,744)

Total Entity
	 Total Program Cost (Notes 12 and 13)                      $     1,777,871     $      182,565     $      46,502      $     2,006,938
	 Total Earned Revenue                                          	(1,887,538)        	 (214,144)          	­—              	(2,101,682)
Net (Income)/Cost from Operations                           $ 	 (109,667)       $ 	 (31,579)       $        46,502    $ 	     (94,744)




86	                                                                 Performance and accountability Report: Fiscal Year 2010
                                                                                                                    F i n a n c ia l Se ct ion




N O T E 1 1 . I ntragovernmental C osts and E x change R evenue (Continued)


(Dollars in Thousands)                                                                        2009
                                                                Patent          Trademark            Intellectual       Total
                                                                                                       Property
                                                                                                      Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $         356,328   $ 	­—            $ 	­—              $     356,328
	 Gross Cost with the Public                                        1,388,348     	­—              	­—                  1,388,348
		     Total Program Cost                                           1,744,676       	­—                	­—              1,744,676

	   Intragovernmental Earned Revenue                                (7,163)         	­—                	­—                  (7,163)
	   Earned Revenue from the Public                              (1,690,269)         	­—                	­—              (1,690,269)
		     Total Program Earned Revenue                             (1,697,432)         	­—                	­—              (1,697,432)
		     Net Program Cost                                     $         47,244    $ 	­—            $ 	­—              $      47,244

Strategic Goal 2: Optimize Trademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $ 	           —     $    39,456      $ 	­—              $     39,456
	 Gross Cost with the Public                                  	           —         153,731        	­—                   153,731
		     Total Program Cost                                       	         —         193,187            	­—               193,187

	   Intragovernmental Earned Revenue                            	         —             (280)          	­—                   (280)
	   Earned Revenue from the Public                              	         —         (229,418)          	­—               (229,418)
		     Total Program Earned Revenue                             	         —         (229,698)          	­—               (229,698)
		     Net Program Income                                   $ 	           —     $    (36,511)    $ 	­—              $     (36,511)

Strategic Goal 3: Provide Domestic and Global Leadership
	 to Improve Intellectual Property Policy, Protection and
	 Enforcement Worldwide
	 Intragovernmental Gross Cost                              $ 	           —     $ 	­—            $         9,002    $       9,002
	 Gross Cost with the Public                                  	           —       	­—                     35,075           35,075
		     Total Program Cost                                       	         —         	­—                   44,077           44,077
Net Cost/(Income) from Operations                           $         47,244    $    (36,511)    $        44,077    $      54,810

Total Entity
	 Total Program Cost (Notes 12 and 13)                      $    1,744,676      $    193,187     $      44,077      $    1,981,940
	 Total Earned Revenue                                          (1,697,432)         (229,698)          	­—              (1,927,130)
Net Cost/(Income) from Operations                           $         47,244    $    (36,511)    $        44,077    $      54,810

Intragovernmental expenses relate to the source of the goods or services, not the classification of the related revenue.




www.uspto.gov	                                                                                                                            87
Fin ancial Se ct ion




NOTE 12.              P rogram C osts

Program costs consist of both costs related directly to the individual business lines and overall support costs
allocated to the business lines. All costs are assigned to specific programs. Total program or operating costs
for the years ended September 30, 2010 and 2009 by cost category were as follows:

(Dollars in Thousands)                                                        2010
                                                               Direct       Allocated       Total
Personnel Services and Benefits                              $	 1,303,805   $	 95,599     $	 1,399,404
Travel and Transportation                                           1,877          720           2,597
Rent, Communications, and Utilities                                86,042       28,887         114,929
Printing and Reproduction                                          77,742          309          78,051
Contractual Services                                              181,474      113,850         295,324
Training                                                              569          846           1,415
Maintenance and Repairs                                             4,145       35,727          39,872
Supplies and Materials                                              9,736          961          10,697
Equipment not Capitalized                                           1,309        3,860           5,169
Insurance Claims and Indemnities                                      308           89             397
Depreciation, Amortization, or Loss on Asset Dispositions          33,269       25,814          59,083
Total Program Costs                                          $	 1,700,276   $	 306,662    $	 2,006,938


(Dollars in Thousands)                                                        2009
                                                               Direct       Allocated       Total
Personnel Services and Benefits                               $	1,224,763   $	 96,794      $	1,321,557
Travel and Transportation                                           2,230         641            2,871
Rent, Communications, and Utilities                                83,643      34,631          118,274
Printing and Reproduction                                          58,688         312           59,000
Contractual Services                                              224,999     131,952          356,951
Training                                                            3,350       1,048            4,398
Maintenance and Repairs                                             2,374      32,912           35,286
Supplies and Materials                                              7,980         799            8,779
Equipment not Capitalized                                           3,584       7,622           11,206
Insurance Claims and Indemnities                                      198          75              273
Depreciation, Amortization, or Loss on Asset Dispositions          39,044      24,301           63,345
Total Program Costs                                           $	1,650,853   $	 331,087     $	1,981,940


The unfunded portion of personnel services and benefits for the years ended September 30, 2010 and
2009 was $13,149 thousand and $2,540 thousand, respectively.




88	                                                           Performance and accountability Report: Fiscal Year 2010
                                                                                                            F i n a n c ia l Se ct ion




NO T E 1 3 . P rogram Costs by Category and Responsibility Segment

The program costs for the years ended September 30, 2010 and 2009 by cost category and business line were as follows:

(Dollars in Thousands)                                                  2010
                                            Patent          Trademark         Intellectual        Total
                                                                                Property
                                                                               Protection

Direct Costs
	 Personnel Services and Benefits       $	 1,172,190   $	 111,862         $	    19,753       $	 1,303,805
	 Travel and Transportation                      195          105                1,577              1,877
	 Rent, Communications, and Utilities         76,690        6,725                2,627             86,042
	 Printing and Reproduction                   77,611          119                   12             77,742
	 Contractual Services                       160,082       10,671               10,721            181,474
	 Training                                       306          225                   38                569
	 Maintenance and Repairs                      2,274        1,777                   94              4,145
	 Supplies and Materials                       9,183          336                  217              9,736
	 Equipment not Capitalized                      880          384                   45              1,309
	 Insurance Claims and Indemnities               292           16         	         —                 308
	 Depreciation, Amortization, or 		
		 Loss on Asset Dispositions                28,848           4,081                340            33,269
Subtotal Direct Costs                   $	 1,528,551   $	 136,301         $	    35,424       $	 1,700,276

Allocated Costs
	 Automation                            $	 131,047     $	    25,176       $	      2,640      $	 158,863
	 Resource Management                       118,273          21,088               8,438          147,799
Subtotal Allocated Costs                $	 249,320     $	    46,264       $	    11,078       $	 306,662

Total Program Costs                     $	 1,777,871   $	 182,565         $	    46,502       $	 2,006,938


The unfunded portion of personnel services and benefits for the year ended September 30, 2010 was $13,149 thousand.




www.uspto.gov	                                                                                                                    89
Fin ancial Se ct ion




NOTE 13. Program Costs by Category and Responsibility Segment (Continued)


(Dollars in Thousands)                                                  2009
                                            Patent          Trademark         Intellectual        Total
                                                                                Property
                                                                               Protection

Direct Costs
	 Personnel Services and Benefits       $	 1,098,854   $	 107,900         $	    18,009       $	 1,224,763
	 Travel and Transportation                      325           87                1,818              2,230
	 Rent, Communications, and Utilities         73,424        7,631                2,588             83,643
	 Printing and Reproduction                   58,249          430                    9             58,688
	 Contractual Services                       202,956       13,252                8,791            224,999
	 Training                                     3,002          306                   42              3,350
	 Maintenance and Repairs                      1,735          562                   77              2,374
	 Supplies and Materials                       7,441          246                  293              7,980
	 Equipment not Capitalized                    2,296        1,049                  239              3,584
	 Insurance Claims and Indemnities               167           31         	         —                 198
	 Depreciation, Amortization, or 		
		 Loss on Asset Dispositions                34,409           4,183                452            39,044
Subtotal Direct Costs                   $	 1,482,858   $	 135,677         $	    32,318       $	 1,650,853

Allocated Costs
	 Automation                            $	 126,254     $	    31,612       $	      2,812      $	 160,678
	 Resource Management                       135,564          25,898               8,947          170,409
Subtotal Allocated Costs                $	 261,818     $	    57,510       $	    11,759       $	 331,087

Total Program Costs                     $	 1,744,676   $	 193,187         $	    44,077       $	 1,981,940


The unfunded portion of personnel services and benefits for the year ended September 30, 2009 was $2,540 thousand.




90	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                                          F i n a n c ia l Se ct ion




NOTE 14.         C ommitments and C ontingencies


Commitments

In addition to the future lease commitments discussed in Note 8, the USPTO is obligated for the purchase of goods and
services that have been ordered, but not yet received. Total undelivered orders for all of the USPTO’s activities were
$169,709 thousand and $192,549 thousand as of September 30, 2010 and 2009, respectively. Of these amounts, $156,542 thousand
and $179,487 thousand, respectively, were unpaid.


Contingencies

The USPTO is a party to various routine administrative proceedings, legal actions, and claims brought by or against it,
including threatened or pending litigation involving labor relations claims, some of which may ultimately result in settlements
or decisions against the Federal Government.

As of September 30, 2010, management expects it is reasonably possible that approximately $85,612 thousand may be owed
for awards or damages involving labor relations claims. As of September 30, 2009, management expects it is reasonably
possible that approximately $82,676 thousand may be owed for awards or damages involving labor relations claims.

The USPTO is subject to suits where adverse outcomes are probable and claims are $200 thousand and $1,400 thousand as of
September 30, 2010 and 2009, respectively.

For the year ended September 30, 2010, the USPTO was not required to make any payments to the Judgment Fund. For the
year ended September 30, 2009, the USPTO was required to make one payment totaling $5 thousand to the Judgment Fund.




www.uspto.gov	                                                                                                                  91
Fin ancial Se ct ion




NOTE 15.            F iduciary A ctivities

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the Federal
Government of cash or other assets in which non-Federal individuals or entities have an ownership interest that the Federal
Government must uphold. Fiduciary cash and other assets are not assets of the Federal Government and accordingly are not
recognized on the proprietary financial statements.

The Patent Cooperation Treaty authorized the USPTO to collect patent filing and search fees on behalf of the WIPO, EPO,
Korean Intellectual Property Office, and the Australian Patent Office from U.S. citizens requesting an international patent.
The Madrid Protocol Implementation Act authorized the USPTO to collect trademark application fees on behalf of the Inter-
national Bureau of the WIPO from U.S. citizens requesting an international trademark.

Schedule of Fiduciary Activity
For the Years ended September 30, 2010 and 2009
                                                               2010                                                2009
                                            Patent                            Total              Patent                            Total
                                          Cooperation      Madrid           Fiduciary          Cooperation         Madrid        Fiduciary
(Dollars in Thousands)                      Treaty         Protocol           Funds              Treaty            Protocol        Funds
Fiduciary Net Assets, Beginning of Year   $     9,134      $        452     $ 	   9,586        $    11,598     $        311      $     11,909
Contributions                                 121,679             9,923       	 131,602            116,818            8,618           125,436
Disbursements To and on Behalf of             (121,361)        	 (9,799)         	 (131,160)       (119,282)       	 (8,477)         (127,759)
   Beneficiaries
Increase/(Decrease) in Fiduciary                   318             124           	      442          (2,464)               141       	 (2,323)
   Net Assets
Fiduciary Net Assets, End of Year         $       9,452    $       576      $ 	      10,028    $      9,134    $           452   $      9,586


Fiduciary Net Assets
As of September 30, 2010 and 2009
                                                               2010                                                 2009
                                            Patent                             Total             Patent                            Total
                                          Cooperation      Madrid            Fiduciary         Cooperation         Madrid        Fiduciary
(Dollars in Thousands)                      Treaty         Protocol            Funds             Treaty            Protocol        Funds
Cash and Cash Equivalents                 $        9,452   $          576    $       10,028    $      9,134    $           452   $      9,586

Total Fiduciary Net Assets                $        9,452   $          576    $       10,028    $      9,134    $           452   $      9,586




92	                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                                         F i n a n c ia l Se ct ion




 NOTE 16.            R econciliation of N et C ost of O perations to B udget

 Most entity transactions are recorded in both budgetary and proprietary accounts. However, because different accounting
 bases are used for budgetary and proprietary accounting, some transactions may appear in only one set of accounts.
 The following reconciliation provides a means to identify the relationships and differences that exist between the
 aforementioned budgetary and proprietary accounts.

 The reconciliation of net cost of operations to budget for the years ended September 30, 2010 and 2009 is as follows:

 (Dollars in Thousands)                                                                    2010                  2009

 RESOURCES USED TO FINANCE ACTIVITIES
 	 Budgetary Resources Obligated:
 		    Obligations Incurred                                                            $    1,938,958    $        1,862,512
 		    Spending Authority from Offsetting Collections and Recoveries                       (2,095,483)           (1,911,125)
 		    Net Obligations                                                                      (156,525)              (48,613)
 		 Other Resources
 			 Imputed Financing from Cost Absorbed by Others                                           21,767         	          —
 Total Resources Used to Finance Activities                                                 (134,758)              (48,613)

 RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
 	 Change in Budgetary Resources Obligated for Goods, Services and Benefits
 		 Ordered but not yet Provided                                                              22,840               149,246
 	 Resources that Fund Costs Recognized in Prior Periods                                      (1,363)               (4,913)
 	 Budgetary Offsetting Collections that do not Affect Net Cost of Operations                (26,161)              (47,128)
 	 Resources that Finance the Acquisition of Assets Capitalized on the Balance Sheet         (27,678)              (64,963)
 Total Resources Used to Finance Items not Part of the Net Cost of Operations                (32,362)               32,242

 COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
 	 GENERATE RESOURCES IN THE CURRENT PERIOD
 	 Components Requiring or Generating Resources in Future Periods:
 		 Costs that will be Funded by Resources in Future Periods                                  13,148                 7,615
 		 Net (Increase)/Decrease in Revenue Receivables not Generating
 			 Resources until Collected                                                                    (28)                  77
 		 Total Components of Net Cost of Operations that will Require or Generate
 			 Resources in Future Periods                                                              13,120                 7,692
 	 Components not Requiring or Generating Resources:
 		 Depreciation, Amortization, or Loss on Asset Dispositions                                 59,083                63,345
 		 Other Costs that will not Require Resources                                                  173                   144
 		 Total Components of Net Cost of Operations that will not Require or
 			 Generate Resources                                                                       59,256                63,489
 Total Components of Net Cost of Operations that will not Require or Generate
 	 Resources in the Current Period                                                            72,376                71,181
 Net (Income)/Cost from Operations                                                     $     (94,744)    $          54,810




www.uspto.gov	                                                                                                                 93
Fin ancial Se ct ion




94	                    Performance and accountability Report: Fiscal Year 2010
Independent
Auditors’ Report
In depende nt Audito rS ’ R ep o rt




            November 12, 2010

            MEMORANDUM FOR:               David Kappos, Under Secretary of Commerce for Intellectual Property
                                          and Director of the U.S. Patent and Trademark Office



            FROM:                         Todd J. Zinser

            SUBJECT:                      FY 2010 Financial Statements
                                          Final Report No. 11-009-FS

            I am pleased to provide you with the attached audit report, which presents an unqualified opinion on
            the U.S. Patent and Trademark Office’s fiscal year 2010 financial statements. KPMG LLP, an
            independent public accounting firm, performed the audit in accordance with U.S. generally accepted
            government auditing standards and Office of Management and Budget Bulletin 07-04, Audit
            Requirements for Federal Financial Statements, as amended.

            In its audit of USPTO, KPMG found

            •   that the financial statements were fairly presented in all material respects and in conformity with
                U.S. generally accepted accounting principles;

            •   one significant deficiency related to controls over general information technology, which was not
                considered a material weakness in internal control as defined in the report; and

            •   no instances of reportable noncompliance with applicable laws, regulations, and contracts.

            My office oversaw the audit performance. We reviewed KPMG’s report and related documentation,
            and made inquiries of its representatives. Our review disclosed no instances where KPMG did not
            comply, in all material respects, with generally accepted government auditing standards. However,
            our review cannot be construed as an audit in accordance with these standards; it was not intended to
            enable us to express—nor do we express—any opinion on USPTO’s financial statements,
            conclusions about the effectiveness of internal controls, or conclusions on compliance with laws,
            regulations, and contracts. KPMG is solely responsible for the attached audit report, dated November
            9, 2010, and the conclusions expressed in the report.

            An audit action plan is not required to address the significant deficiency reported by KPMG. We
            have asked the Chief Information Officer to provide a plan that addresses the related specific
            recommendations included in the separate, limited-distribution information technology general
            controls report (report no. 11-009-IT) in accordance with Department Administrative Order 213-5,
            Audit Resolution and Follow-up.




96	                                                          Performance and accountability Report: Fiscal Year 2010
                                                                                        I n d e p e n d e n t A u d i t orS’ Re port




             If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C. Eilers,
             Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

             We appreciate the cooperation and courtesies USPTO extended to KPMG and my staff during the
             audit.


             Attachment


             cc:    Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
                    Anthony P. Scardino, Chief Financial Officer, USPTO
                    John B. Owens II, Chief Information Officer, USPTO




www.uspto.gov	                                                                                                                  97
In depende nt Audito rS ’ R ep o rt




                                            KPMG LLP
                                            2001 M Street, NW
                                            Washington, DC 20036-3389




                                                      Independent Auditors’ Report


            Inspector General, U.S. Department of Commerce and
            Under Secretary of Commerce for Intellectual Property and
               Director of the U.S. Patent and Trademark Office:


            We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
            Office (USPTO) as of September 30, 2010 and 2009, and the related consolidated statements of net cost,
            and changes in net position and combined statements of budgetary resources for the years then ended
            (hereinafter referred to as “consolidated financial statements”). The objective of our audits was to express
            an opinion on the fair presentation of these consolidated financial statements. In connection with our fiscal
            year 2010 audit, we also considered the USPTO’s internal control over financial reporting and tested the
            USPTO’s compliance with certain provisions of applicable laws, regulations, and contracts that could have
            a direct and material effect on these consolidated financial statements.

            Summary
            As stated in our opinion on the consolidated financial statements, we concluded that the USPTO’s
            consolidated financial statements referred to above are presented fairly, in all material respects, in
            conformity with U.S. generally accepted accounting principles.

            Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
            relating to general information technology controls that we consider to be, collectively, a significant
            deficiency, as defined in the Internal Control Over Financial Reporting section of this report.

            We did not identify any deficiencies in internal control over financial reporting that we consider to be
            material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.

            The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
            no instances of noncompliance or other matters that are required to be reported herein under Government
            Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended.

            The following sections discuss our opinion on the USPTO’s consolidated financial statements; our
            consideration of the USPTO’s internal control over financial reporting; our tests of the USPTO’s
            compliance with certain provisions of applicable laws, regulations, and contracts; and management’s and
            our responsibilities.

            Opinion on the Financial Statements
            We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
            Office as of September 30, 2010 and 2009, and the related consolidated statements of net cost and changes
            in net position and the combined statements of budgetary resources for the years then ended.




                                             KPMG LLP is a Delaware limited liability partnership,
                                             the U.S. member firm of KPMG International Cooperative
                                             (“KPMG International”), a Swiss entity.




98	                                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                I n d e p e n d e n t A u d i t orS’ Re port




             United States Patent and Trademark Office
             Independent Auditors’ Report
             November 9, 2010
             Page 2 of 8



             In our opinion, the consolidated financial statements referred to above present fairly, in all material
             respects, the financial position of the United States Patent and Trademark Office as of September 30, 2010
             and 2009, and its net costs, changes in net position, and budgetary resources for the years then ended, in
             conformity with U.S. generally accepted accounting principles.

             The information in the Management’s Discussion and Analysis and Required Supplementary Information
             sections is not a required part of the consolidated financial statements, but is supplementary information
             required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
             which consisted principally of inquiries of management regarding the methods of measurement and
             presentation of this information. However, we did not audit this information and, accordingly, we express
             no opinion on it.

             Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
             taken as a whole. The consolidated statements of cash flow for the years ended September 30, 2010 and
             2009 are presented for purposes of additional analysis of the consolidated financial statements and are not a
             required part of the consolidated financial statements. The consolidated statements of cash flow for the
             years ended September 30, 2010 and 2009 have been subjected to the auditing procedures applied in the
             audits of the consolidated financial statements and, in our opinion, are fairly stated, in all material respects,
             in relation to the consolidated financial statements taken as a whole. The information in the Other
             Accompanying Information section and the information on pages 3 and 64 through 65 are presented for
             purposes of additional analysis and are not required as part of the consolidated financial statements. This
             information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

             Internal Control Over Financial Reporting
             A deficiency in internal control exists when the design or operation of a control does not allow
             management or employees, in the normal course of performing their assigned functions, to prevent, or
             detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
             of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
             the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

             Our consideration of internal control over financial reporting was for the limited purpose described in the
             Responsibilities section of this report and was not designed to identify all deficiencies in internal control
             over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
             fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that
             we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
             internal control over financial reporting described in Exhibit I that we consider to be a significant
             deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
             combination of deficiencies, in internal control that is less severe than a material weakness, yet important
             enough to merit attention by those charged with governance.

                     General information technology controls. We found that although the USPTO has taken corrective
                     actions to address certain information technology (IT) control weaknesses, general IT weaknesses
                     still exist. Despite the positive efforts made by the USPTO, the USPTO needs to make continued
                     improvement in its IT general control environment to fully ensure that financial data being
                     processed on the USPTO’s systems is complete, reliable, and has integrity.




www.uspto.gov	                                                                                                                          99
In depende nt Audito rS ’ R ep o rt




               United States Patent and Trademark Office
               Independent Auditors’ Report
               November 9, 2010
               Page 3 of 8



               Exhibit II presents the status of the prior year significant deficiency.

               We noted certain additional matters that we have reported to management of the USPTO in a separate
               letter.

               Compliance and Other Matters
               The results of our tests of compliance described in the Responsibilities section of this report disclosed no
               instances of noncompliance or other matters that are required to be reported herein under Government
               Auditing Standards or OMB Bulletin No. 07-04.

                                                                 *******

               Responsibilities
               Management’s Responsibilities. Management is responsible for the consolidated financial statements;
               establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
               applicable to the USPTO.

               Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2010 and 2009
               consolidated financial statements of the USPTO based on our audits. We conducted our audits in
               accordance with auditing standards generally accepted in the United States of America; the standards
               applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
               General of the United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
               require that we plan and perform the audits to obtain reasonable assurance about whether the consolidated
               financial statements are free of material misstatement. An audit includes consideration of internal control
               over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
               but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s internal control over
               financial reporting. Accordingly, we express no such opinion.

               An audit also includes:

               •     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
                     financial statements;
               •     Assessing the accounting principles used and significant estimates made by management; and
               •     Evaluating the overall consolidated financial statement presentation.
               We believe that our audits provide a reasonable basis for our opinion.

               In planning and performing our fiscal year 2010 audit, we considered the USPTO’s internal control over
               financial reporting by obtaining an understanding of the USPTO’s internal control, determining whether
               internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
               basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
               financial statements, but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s
               internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
               the USPTO’s internal control over financial reporting. We did not test all controls relevant to operating
               objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.




100	                                                              Performance and accountability Report: Fiscal Year 2010
                                                                                               I n d e p e n d e n t A u d i t orS’ Re port




                 United States Patent and Trademark Office
                 Independent Auditors’ Report
                 November 9, 2010
                 Page 4 of 8



                 As part of obtaining reasonable assurance about whether the USPTO’s fiscal year 2010 consolidated
                 financial statements are free of material misstatement, we performed tests of the USPTO’s compliance with
                 certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
                 material effect on the determination of the consolidated financial statement amounts, and certain provisions
                 of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to
                 the provisions described in the preceding sentence, and we did not test compliance with all laws,
                 regulations, and contracts applicable to the USPTO. However, providing an opinion on compliance with
                 laws, regulations, and contracts was not an objective of our audit and, accordingly, we do not express such
                 an opinion.

                                                    ______________________________

                 The USPTO’s response to the finding identified in our audit is presented in Exhibit I. We did not audit the
                 USPTO’s response and, accordingly, we express no opinion on it.

                 This report is intended solely for the information and use of the USPTO management, the U.S. Department
                 of Commerce management, the U.S. Department of Commerce Office of Inspector General, OMB, the U.S.
                 Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
                 by anyone other than these specified parties.




                 November 9, 2010




www.uspto.gov	                                                                                                                        101
In depende nt Audito rS ’ R ep o rt




            United States Patent and Trademark Office
            Independent Auditors’ Report
            November 9, 2010
            Page 5 of 8

            Exhibit I – Significant Deficiency


            Financial Management Systems Need Improvement (Repeat Condition)

            Effective Information Technology (IT) general controls add assurance that data used to prepare and report
            financial information and statements is complete, reliable, and has integrity. Our fiscal year 2010 IT
            assessment, performed in support of the fiscal year 2010 financial statement audit, was focused on the IT
            general controls over the USPTO’s major financial management systems and supporting network
            infrastructure, using GAO’s Federal Information System Controls Audit Manual (FISCAM). The five
            FISCAM IT general control review areas, and our related findings, are as follows:

               Security management. These controls provide a framework and continuing cycle of activity for
                assessing risk, developing and implementing effective security procedures, assigning responsibilities,
                and monitoring the effectiveness of these procedures. The Office of Management and Budget (OMB)
                Circular A-130, Management of Federal Information Resources, provides key guidance for
                establishing and maintaining an entity-wide information security program. The Department of
                Commerce IT Security Program Policy and Minimum Implementation Standards reiterates OMB
                Circular A-130 guidance and implements key elements of such guidance as Department-wide policy.

                During our fiscal year 2010 audit, we did not identify weaknesses related to security management
                controls.

               Access controls. In close concert with an organization’s security management, access controls for
                general support systems and financial systems should provide reasonable assurance that computer
                resources such as data files, application programs, and computer-related facilities and equipment are
                protected against unauthorized modification, disclosure, loss, or impairment. Access controls are
                facilitated by an organization’s entity-wide security program. Such controls include physical controls
                and logical controls.

                The objectives of limiting access are to ensure that users have only the access needed to perform their
                duties; that access to very sensitive resources, such as security software programs, is limited to very
                few individuals; and that employees are restricted from performing incompatible functions or functions
                beyond their responsibility. This is reiterated by Federal guidelines. For example, OMB Circular A-
                130 and supporting NIST Special Publications provide guidance related to the maintenance of technical
                access controls. In addition, the Department of Commerce IT Security Program Policy and Minimum
                Implementation Standards contain many requirements for operating Department IT devices in a secure
                manner.

                During fiscal year 2010, we noted that USPTO should improve access controls by (1) appropriately
                removing and periodically re-certifying viewing data center access, (2) strengthening network and
                financial database password controls, (3) preventing the use of shared user accounts and passwords, (4)
                disabling inactive network and database user accounts, (5) defining auditable events and activities and
                consistently monitoring audit logs, (6) strengthening access authorizations and recertification efforts,
                (7) strengthening session locks, and (8) implementing, monitoring, tracking, and documenting incident
                response training to Computer Incident Response Team (CIRT) contractors. We recognize that
                USPTO has certain compensating controls in place to help reduce the risk of the identified


                                            KPMG LLP is a Delaware limited liability partnership,
                                            the U.S. member firm of KPMG International Cooperative
                                            (“KPMG International”), a Swiss entity.

102	                                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                              I n d e p e n d e n t A u d i t orS’ Re port




         United States Patent and Trademark Office
         Independent Auditors’ Report
         November 9, 2010
         Page 6 of 8

         Exhibit I – Significant Deficiency, continued


             vulnerabilities, and we have considered such compensating controls as part of our financial statement
             audit.

            Configuration management. Configuration management involves the identification and management
             of security features for all hardware, software, and firmware components of an information system at a
             given point and systematically controls configuration changes throughout the system’s life cycle.
             Establishing controls over modifications to information system components and related documentation
             helps to ensure that only authorized systems and related program modifications are implemented. This
             is accomplished by instituting policies, procedures, and techniques to help ensure that hardware,
             software and firmware programs and program modifications are properly authorized, tested, and
             approved, and that access to and distribution of programs is carefully controlled. Without proper
             controls, there is a risk that security features could be inadvertently or deliberately omitted or turned
             off, or that processing irregularities or malicious code could be introduced into the IT environment.

             Effective configuration management prevents unauthorized changes to information system resources
             and provides reasonable assurance that systems are configured and operating securely and as intended.
             Without effective configuration management, users do not have adequate assurance that the system and
             network will perform as intended and to the extent needed to support missions.

             During fiscal year 2010, we noted that configuration management controls should be improved by
             (1) consistently applying patches and configuring devices for the protection against external and
             internal vulnerabilities, (2) implementing documented and approved configuration management policy
             and procedures, (3) configuring audit settings so that they are consistent with approved baselines, and
             (4) conducting vulnerability scans as frequently as set in the Department’s policy.

            Segregation of duties. Work responsibilities should be segregated so that an individual does not
             control more than one critical function within a process. Inadequately segregated duties increase the
             risk that erroneous or fraudulent transactions could be processed, improper program changes could be
             implemented, and computer resources could be damaged or destroyed. Key areas of concern for
             segregation of duties involve duties among major operating and programming activities, including
             duties performed by users, application programmers, and data center staff. Policies outlining
             individual responsibilities should be documented, communicated, and enforced. The prevention and/or
             detection of unauthorized or erroneous actions by personnel require effective supervision and review
             by management, as well as formal operating procedures.

             During fiscal year 2010, we noted that segregation of duties controls should be improved by preventing
             developers and programmers from having conflicting access to the production environment.

            Contingency planning. Losing the capability to process, retrieve, and protect information maintained
             electronically can significantly affect an agency’s ability to accomplish its mission. For this reason, an
             agency should have: (1) procedures in place to protect information resources and minimize the risk of
             unplanned interruptions, and (2) a plan to recover critical operations should interruptions occur.




www.uspto.gov	                                                                                                                       103
In depende nt Audito rS ’ R ep o rt




            United States Patent and Trademark Office
            Independent Auditors’ Report
            November 9, 2010
            Page 7 of 8

            Exhibit I – Significant Deficiency, continued


                During fiscal year 2010, we noted that contingency planning controls should be improved by
                continuing to develop an alternate processing site.

            Recommendations

            Specific recommendations are included in a separate limited distribution IT general controls report, issued
            as part of the fiscal year 2010 financial statement audit.

            Management’s Response

            We agreed with our findings, conclusions, and recommendations related to improving the USPTO’s
            financial management systems controls. The USPTO is in the process of developing corrective action
            plans to address the recommendations presented in the separate limited distribution IT general controls
            report.




104	                                                           Performance and accountability Report: Fiscal Year 2010
                                                                                                    I n d e p e n d e n t A u d i t orS’ Re port




            United States Patent and Trademark Office
            Independent Auditors’ Report
            November 9, 2010
            Page 8 of 8

            Exhibit II – Status of Prior Year Significant Deficiency




                      Reported                                           Prior Year                       Fiscal Year 2010
                       Issue                                          Recommendation                           Status
             Financial Management Systems Need Improvement
             Weaknesses in general            The USPTO should monitor actions to ensure               Still considered a
             controls were identified in      effective implementation of our                          significant deficiency
             four FISCAM review areas.        recommendations.                                         (see comments in
                                                                                                       Exhibit I).




www.uspto.gov	                             KPMG LLP is a Delaware limited liability partnership,
                                           the U.S. member firm of KPMG International Cooperative                                          105
                                           (“KPMG International”), a Swiss entity.
In depende nt Audito rS ’ R ep o rt




106	                                  Performance and accountability Report: Fiscal Year 2010
Other Accompanying
Information
Inspector General’s Top Management
Challenges Facing the USPTO

          E
                ach year, the Inspector General provides the management challenges for the
                Department of Commerce in accordance with the provisions of the Reports
                Consolidation Act of 2000 (PL 106-531). The IG’s statement of management
          challenges can be found below. The USPTO is solely responsible for resolving one
          of the management challenges – USPTO: Improving the Efficiency of the Patent Office
          and Mitigating Financial Vulnerabilities. Reducing the Patent application backlog will
          help to support the Departments’ overarching goals of advancing economic growth
          and creating job opportunities. The USPTO is also responsible for strengthening and
          enhancing information technology security on its infrastructure in support of resolving
          the Department-wide management challenge. In addition, while the USPTO does not
          issue grants, the USPTO has a shortage of skilled, specially trained contract personnel,
          which is a part of the overall Department-wide management challenge of managing
          acquisition and contract operations.


          The Inspector General’s Statement
          of Management Challenges

            A    s FY 2011 begins, advancing economic growth and creating job opportunities
                 remain two of the Department of Commerce’s overarching goals. For the
            upcoming fiscal year, the Department plans to spend about $9 billion on a wide
            range of programs and initiatives to meet these objectives, and the Office of Inspector
            General (OIG) continues to support its efforts through our audits, evaluations, and
            investigations. In late November 2010, we will issue our annual report on the
            Department’s top management challenges. The purpose of the report is to identify
            what we consider, from our oversight perspective, the most significant management
            and performance issues facing the Department in the coming fiscal year.

            In the November 2010 report, we will identify eight management challenges.
            Several of these challenges are longstanding concerns. They include strengthening
            Department-wide information security, managing the cost and technical performance
            of the National Oceanic and Atmospheric Administration’s (NOAA) environmental
            satellite acquisition programs, and reducing patent and trademark application
            backlogs. At the same time, the Department must address new concerns, such as
            overseeing the rapid disbursement of billions of dollars to stimulate the economy
            as a result of the American Recovery and Reinvestment Act (ARRA) of 2009. We are
            performing an ongoing body of work, and planning additional efforts, to help the
            Department effectively manage these and other emerging issues. The table on the
            following page compares the FY 2011 management challenges with those identified
            in FY 2010.

                                                                                           (continued)



108	                              Performance and accountability Report: Fiscal Year 2010
                                                                                                      O t h e r A c c o mpa n y i n g I n format ion




  Additionally, as required by the Office of Management and Budget (OMB) Circular A-136, our top management challenges
  report from FY 2010 briefly assessed the Department’s progress in addressing the challenges identified. This statement
  contains a summary of the challenges from FY 2010. Our FY 2010 management challenge report is available on our
  Web site at www.oig.doc.gov.

  The management challenges are not easily resolved; they may require the Department or its operating units to invest
  in new technologies or substantially change such areas as procedures, program activities, or organizational culture. To
  completely address a management challenge typically takes several fiscal years. The Department has been proactive
  in its efforts to address several challenges we have identified in previous years. For example, we recognize the
  commitment of the Secretary and his staff to the Office of the Secretary’s restructuring initiatives, including establishing
  new leadership positions for performance management and program evaluation. Additionally, the Secretary recently
  began a comprehensive review of Department-wide acquisition processes to identify ways to strengthen and improve
  the quality of its acquisitions. While these initiatives should help to improve performance accountability, sustained
  leadership attention is needed to ensure desired results are achieved.

  We welcome the opportunity to discuss these challenges and any comments you might have.

                                                                        Inspector General
                                                                        Todd J. Zinser




                                 Comparison of FY 2011 and FY 2010 Top Management Challenges
   Challenge                                                                                                          FY 2011           FY 2010
   Department-wide: Strengthening Information Security                                                                    3                 3
   NOAA: Development and Acquisition of Environmental Satellite Programs                                                  3                 3
   Department-wide: Managing Acquisition and Contract Operations1                                                         3                 3
   ARRA: Enhancing Accountability and Transparency                                                                        3                 3
   USPTO: Improving the Efficiency of the Patent Office and Mitigating Financial Vulnerabilities                          3                 3
   NOAA: Protecting Environment while Promoting Fishing Industry                                                          3
   Department-wide: Commerce Headquarters Renovation                                                                      3                 3
   Census: 2020 Decennial Planning                                                                                        3                 3
   Census: Mitigate Issues with the 2010 Decennial                                                                                          3
   Department-wide: Centralized Management and Oversight                                                                                    3
   NOAA: Headquarters Leadership Structure                                                                                                  3
   Department-wide: Major Systems Acquisitions                                                                                              3
   Department-wide: Grant and Contract Management Workforce                                                                                 3
   1 This FY 2011 challenge combines elements from two FY 2010 challenges: Major Systems Acquisitions and Grant and Contract Management Workforce.




www.uspto.gov	                                                                                                                                       109
Othe r Accompany i ng I nf o rm ati o n




TOP Management Challenges For FY 2010

Challenge 1: Decennial Census – Mitigate Issues with the
2010 Decennial While Addressing Future Census Challenges

The mission of the 2010 Census—to succeed in counting each of the over 300 million people in more than 130 million households
in the United States once, only once, and in the right place—is a massive undertaking with many moving parts. With a projected
life-cycle cost estimate of $14.7 billion, the Bureau must integrate 44 separate operations (with a total of some 9,400 program- and
project-level activities).

U.S. residents have by now received their forms, and the Census Bureau has built an extensive communications campaign and
partnership program to encourage a prompt and accurate decennial response. The rate at which responses are returned will be
critical in determining the overall cost of the census. Households that do not mail back forms will be visited by an enumerator
during nonresponse follow-up (NRFU) operations. The most expensive decennial operation, NRFU is now estimated to cost
$2.3 billion. The Bureau cannot predict with certainty the public’s response rate and thus the total number of housing units that
will have to be visited during this phase. Census estimates that costs will increase by about $85 million for every percentage point
of addresses that census takers have to visit.

While much of the Bureau’s plan appears to be on schedule, the efficiency and accuracy of NRFU are at some risk, and final
decennial costs remain uncertain. The Bureau’s ability to manage NRFU effectively, and thus control its cost, hinges on two
systems: the paper-based operations control system (PBOCS) and the Decennial Applicant, Personnel, and Payroll System (DAPPS).
Described by the Bureau as the “nerve center” of its field offices, PBOCS manages enumerator assignments and provides current
information on enumerator productivity. DAPPS supports recruiting, applicant, personnel, and payroll processing and is therefore
also critical to the smooth functioning of NRFU. Both systems support smaller early field operations such as those in rural areas
where Census leaves a form for households to mail back (known as update/leave), doorstep interviews occurring in places
such as Native American reservations (update/enumerate), and counting residents living in group situations and nontraditional
households (group quarters enumeration, service-based enumeration, and enumeration of transitory locations). Both systems have
experienced problems in testing and, more importantly, during field operations.

Census is on a very tight schedule to complete the PBOCS capabilities needed for NRFU and to resolve existing problems.
Once NRFU begins, the system has no margin for error. Yet PBOCS development and testing remain behind schedule, and frequent
outages and slow performance are impacting early operations. If not revamped for NRFU, these problems place the schedule and
cost of this massive operation at serious risk. As a core requirement with a high level of uncertainty late in the decennial life cycle,
PBOCS is one of the most significant decennial challenges facing the Department. While DAPPS also experienced outages and
slow performance in early operations, a recent hardware upgrade appears to have significantly improved performance.

To contain decennial costs, better management of census fieldwork is essential. We found inefficiencies in wages, travel, and
training during the address canvassing operation. Given the significantly larger scale of NRFU, Census must have effective internal
controls in place and ensure that managers meticulously follow them during this operation.

Calendar year 2010 is also a critical time for the 2020 Census. The Bureau must begin to develop its 2020 decennial Census
plans even though its workforce is already stretched thin by 2010 operations. Our work throughout the decade demonstrates
that Census needs to identify more cost-effective approaches to the decennial and seriously consider using such alternatives as
administrative records, the Internet, and targeted address canvassing. These and other possible approaches could contain costs
while increasing accuracy and efficiency.




110	                                                              Performance and accountability Report: Fiscal Year 2010
                                                                                         O t h e r A c c o mpa n y i n g I n format ion




Challenge 2: IT Security – Continue Enhancing the Department’s Ability
to Defend its Systems and Data Against Increasing Cyber Security Threats

Cyber attacks and other security threats persistently challenge the Department in ensuring information confidentiality, integrity,
and availability. Commerce continues to invest in and otherwise enhance IT security, but more work is needed. The annual
Performance and Accountability Report has reported IT security as a material weakness since FY 2001. Based on our FY 2009
FISMA assessments, we again recommended—and the Department agreed—that the material weakness remain until more
improvements are made.

We completed two United States Patent and Trademark Office (USPTO) assessments during this reporting period. While both
revealed improvements, we did not have sufficient evidence of consistent, effective security practices to support removing
USPTO’s IT security material weakness. However, USPTO’s management concluded that IT security issues had been resolved
and did not report the material weakness in its FY 2009 PAR.

Our evaluations have focused on the Department’s process for planning, implementing, and assessing security controls,
including continuous monitoring, for the more than 300 systems employed by various operating units (including USPTO), each
with its own management structure. We found deficiencies in security planning (including defining security requirements and
implementing controls), assessments (leaving risks inadequately understood), vulnerability remediation (through required plans
of action and milestones), and continuous monitoring. In recent years we have increased our efforts to independently assess
technical security controls and have consistently found vulnerabilities requiring remediation.

We also found, in an FY 2009 audit, that the Department needs to improve the development, guidance, and performance
management of its IT security workforce. The Department has taken positive steps in response, including plans to enhance
employee development and training as well as to require professional certifications for employees with significant IT security
responsibilities.


Challenge 3: NOAA Environmental Satellites – Effectively Manage Technical, Budgetary, and Governance
Issues Surrounding the Acquisition of NOAA’s Two Environmental Satellite Systems

The National Oceanic and Atmospheric Administration (NOAA) is modernizing its environmental monitoring capabilities, in
part by spending an estimated total of nearly $20 billion on two critical satellite systems: the Joint Polar Satellite System ( JPSS)
and the Geostationary Operational Environmental Satellite-R Series (GOES-R). Both JPSS’ predecessor program, the National
Polar-orbiting Operational Environmental Satellite System (NPOESS), and GOES-R have a history of cost overruns, schedule
delays, and reduced performance capabilities.

As a result of the fall 2009 decision to significantly restructure the NPOESS program, JPSS was established as NOAA’s component
of the polar environmental satellite system, which is designed to provide global environmental data to monitor Earth, support the
Nation’s economy, and protect lives and property. JPSS is intended to meet a portion of the requirements originally established
under the NPOESS program. NPOESS was managed jointly by NOAA, the National Aeronautics and Space Administration
(NASA), and the Department of Defense, with NOAA and Defense equally sharing NPOESS costs. Under the restructuring,
NOAA/NASA and Defense will acquire satellites separately. The life-cycle cost estimate for JPSS is $11.9 billion.

At its 1995 inception, NPOESS planned to purchase six satellites at a $6.5 billion cost, with a first launch in 2008. But problems
with a key sensor raised costs and delayed the date of the first launch, even as the number of satellites in the system was
reduced to four. In March 2009, with estimated life-cycle costs totaling $14 billion, the first launch was delayed to 2014 because
of continuing sensor problems; the NASA-led NPOESS Preparatory Project (NPP) launch date was also delayed, from 2010 to
2011. NPP was planned as a risk-reduction effort to test NPOESS’ new instruments in flight, but will now be used operationally
as a gap-filler between the current NOAA polar-orbiting operational environmental satellite and the first JPSS satellite.



www.uspto.gov	                                                                                                                    111
Othe r Accompany i ng I nf o rm ati o n




The transition to the restructured program will continue into FY 2011. The JPSS program will continue to develop instruments
needed to fulfill NOAA’s responsibilities. The JPSS management structure will be similar to GOES-R, in which NOAA manages the
overall program with assistance from NASA. NOAA will acquire two JPSS satellites and will continue climate sensor acquisitions
under the NOAA climate program. Defense is evaluating the best approach for maintaining continuity of its polar satellites. It is
critical that NOAA and Defense implement their satellite programs on schedule to reduce the risk of gaps in coverage.

Budget increases, capability reductions, and delays have also plagued the GOES-R program. The projected cost has increased
from $6.2 billion to $7.7 billion; a major sensor was removed; the number of satellites to be purchased was reduced from
four to two; and the launch readiness dates for the first two satellites have slipped by 6 months to October 2015 and February
2017. The GOES-R system is intended to offer an uninterrupted flow of high-quality data for short-range weather forecasting
and warning, as well as provide climate research data through 2028. Working with NASA, NOAA is responsible for managing
the entire program and for acquiring the ground segment, which is used to control satellite operations and to generate and
distribute instrument data products.

According to program documentation, overall GOES-R program acquisition is on track and within budget to meet the revised launch
schedule. However, any further delays in the satellite’s launch readiness will increase NOAA’s risk of not meeting its requirement to
have an on-orbit spare and two operational GOES satellites available to monitor the Pacific and Atlantic basins in 2015.

Both the JPSS and GOES-R programs will continue to require close oversight to minimize further disruption to programs and
prevent any satellite coverage gaps, which could compromise the United States’ ability to forecast weather and monitor climate.
Such a compromise would have serious consequences for the Nation’s safety and security.


Challenge 4: American Recovery and Reinvestment Act – Meet the Challenges of Accountability and
Transparency with Effective Oversight of Program Performance, Compliance, Spending, and Reporting

The Department continues to implement programs under the American Recovery and Reinvestment Act (ARRA) of 2009,
which provided Commerce with $7.9 billion. The Office of Inspector General (OIG) ARRA oversight priorities include agency
and recipient reporting, the Broadband Technology Opportunities Program (BTOP), and National Institute of Standards and
Technology (NIST) and NOAA construction contracts and grants.

The sheer amount of ARRA money received by the Department, coupled with the act’s unique requirements, makes ensuring
appropriate spending—while also providing economic stimulus as quickly as possible—a particular challenge. The Department’s
operating units must spend funds appropriately with little time to prepare for the many new and expanded programs, grants,
and contracts established under the act.

As of March 31, 2010, the Department had obligated approximately $2.8 billion and spent approximately $890 million.
Although spending volumes are relatively low, all funds must be obligated by September 30, 2010. The need to distribute
funds quickly to communities and businesses increases the risks of fraud, waste, and abuse in both ARRA-funded activities
and those Department operations with more traditional funding mechanisms. ARRA operating units need sufficient resources
to ensure that programs deliver as intended, while providing oversight to guard against misuse of funds.

The ARRA substantially increases the Department’s contracting and grants workload, particularly at NIST and NOAA, whose
grants and contracts offices must manage not only the more than $1.4 billion they received under ARRA, but the $4.7-billion
BTOP program as well. NTIA relies on NIST and NOAA for grants administration because it does not have its own staff and
systems for this purpose. Such increases place added pressure on these operating units to hire and retain qualified personnel.

The ARRA provided a relatively significant funding increase for NIST and NOAA construction projects. To complete them
successfully, NIST and NOAA need to dedicate construction managers across ARRA grants, contracts, and regular appropriation-
funded projects. Our oversight will focus on this high-risk area, including assessments of compliance with contract and grant
requirements and project results.


112	                                                             Performance and accountability Report: Fiscal Year 2010
                                                                                            O t h e r A c c o mpa n y i n g I n format ion




We recently reviewed the adequacy of key IT and operational controls of the primary (source) grants, contracts, and/or
financial systems for Census, the Economic Development Administration (EDA), NIST, NOAA, and NTIA to determine whether
their controls ensure that the Department reports posted on Recovery.gov are complete, accurate, and reliable. Generally, the
Department systems we reviewed had adequate data input/edit controls. However, the lack of automated data transmission
or interfaces from the grants systems to the Department’s financial system could lead to errors.

Without additional automation, it will be more difficult for Department operating units to effectively manage their own
reporting with the increased volume of grants and contracts. Ensuring complete and accurate recipient reporting will also be
difficult. Additional automation would add reporting process efficiencies and would decrease the risks of reporting errors and
delays.

We identified several concerns in the BTOP pre-award process and expressed concern with whether NTIA has identified
and obtained needed resources to execute a grant program of BTOP’s magnitude in the ARRA’s timeframe. According to the
act, BTOP must spend all of its $4.7 billion in grant funding by September 30, 2010. Over the next 6 months, NTIA must
address several challenges as it concurrently monitors first-round grant awards and issues new awards. Challenges include
(1) coordinating with other federal organizations supporting contract and grants management and (2) overseeing contractors
implementing BTOP. In the next semiannual period, we will issue a report detailing our concerns with BTOP’s program
management and pre-award process.


Challenge 5: USPTO – Address the Patent Office’s Resource and Process Issues


With an enacted budget of $1.7 billion in FY 2010 and a $2 billion FY 2011 budget request for patent operations, USPTO
continues to struggle with increasing patent backlogs and the need to improve patent examination efficiency and quality.

Since FY 2000, the number of patent examiners has more than doubled, from 2,900 to 6,200. But the length of time to process
a patent has increased 40 percent from 25 to 35 months. Further, the backlog of applications awaiting review increased
139 percent, from 308,000 to 736,000.

Over the years, USTPO has increased the number of patent examiners to address the growing backlog; however, simply
adding to the workforce will not suffice. USPTO must consider how to reform and reengineer various components of the
patent application process and must update its IT systems to ensure timely and high-quality application review.

USPTO must also address funding mechanisms and fee structure challenges. USPTO is now funded entirely by application,
maintenance, and other fees paid by patent and trademark applicants and owners. Congress sets many of the fees legislatively
and establishes a ceiling, through the appropriations process, for the maximum amount of fees USTPO can spend in a given
year. For FY 2011, the Administration proposes a 15-percent increase in certain patent fees to generate additional revenue
to cover operating expenses. It also proposes that USTPO have authority to set fees and to establish an operating reserve to
manage operations on a multiyear basis.

In November 2008, our Top Management Challenges report suggested that USTPO’s unique financing structure could become
increasingly risky. Subsequent downturns in the U.S. and global economies quickly showed the structure’s vulnerabilities. In the
President’s FY 2009 budget, USPTO estimated that it would collect over $1.8 billion in patent fees. However, by the end of that
year, patent fee collections totaled just over $1.6 billion. Multiple factors contributed to the difference, including a reduction in the
number of patent applications filed and a decline in maintenance fees collected for existing patents. To align expenses with actual
patent fee collections, USTPO deferred hiring patent examiners and curtailed or suspended overtime and training. USPTO currently
projects a FY 2010 surplus, but does not have authority to spend above its legislatively mandated appropriation ceiling.

Potential fee shortfalls and fluctuations introduce inherent instability to the funding structure. This unstable structure increases
the risk to USTPO’s ability to operate effectively in current and future years, and its capacity to ensure that America’s intellectual



www.uspto.gov	                                                                                                                       113
Othe r Accompany i ng I nf o rm ati o n




property (IP) system encourages investment in innovation and contributes to a strong global economy. More immediately, USTPO
may not be able to process as many patent applications, which will add to the backlog instead of working toward reducing it.
In effect, fewer maintenance fees will be available to collect in the future because fewer patents are being issued today.

The Under Secretary of Commerce for IP, who is also the Director of USPTO, has publicly acknowledged these and other
difficulties. A 5-year plan in the President’s FY 2011 budget sets forth bold goals, such as reducing the time it takes for initial
patent application review to 10 months (from the present 26 months) by FY 2013. Similarly, by FY 2014, USPTO’s goal to
decide a patent application is 20 months, down from the present 35.


Other Issues Requiring Significant Management Attention

Centralized Management and Oversight


It will be a complex, but necessary, organizational challenge for the Department to establish consistent internal operations to
support all of its operating units. However, by doing so, it will be better positioned to provide efficient and reliable support
to the Secretary’s priorities. The Department needs to continue its efforts to centralize management and oversight in order to
make the whole organization more efficient, consistent, and productive. The Department’s operating units have long-standing
and independent business models, cultures, and practices. This decentralized structure has created obstacles to Department
efforts to integrate and administer internal processes like financial services, human resources, grant and contract management,
and major acquisitions.

For example, the administrative management structure of the Department gives its Chief Information Officer (CIO) little
authority over the IT security operations of the Department’s operating units, making the cyber security challenge (Challenge
2, above) even more difficult to manage. In addition, prior to the ARRA, the Department awarded an average of $1.5 billion
in grants to over 1,600 recipients annually and approximately $2 billion in contracts to nearly 6,000 contractors annually.
Yet the Department’s Office of Acquisition Management has similarly limited authority over the various operating units’ grants
and procurement offices, resulting in inconsistent approaches to grant and contract management across the Department and
adding to the difficulty in overseeing the effectiveness of these operations and programs.

Efforts to achieve greater consistency have been slow. To illustrate, grants are managed by three of the Department’s seven
grant-making agencies, which cross-service the other grant agencies using three different IT systems. The Department has
been working since 2003 to migrate all Department grants management operations to NOAA’s Grants Online system, but this
effort is not projected to be completed until 2011.


Major Systems Acquisition


In a related challenge, the Department and its operating units must develop effective processes for planning, managing, and
overseeing major system acquisitions. In FY 2010, the Department plans to spend $3 billion on IT investments (excluding
grants). The lack of cohesive policies and procedures for program and project management and oversight has contributed to
many of these acquisitions—such as the decennial handheld computers, as well as the NPOESS and GOES-R environmental
satellite programs—becoming mired in cost overruns and developmental delays. This weakness also leaves the Department
without adequate visibility into progress and risks on major system acquisitions, which results in costly delays in identifying
and correcting problems.

The Department has not been successful in updating its policies and oversight approach for major systems acquisition.
The effort was begun in 2006 in response to OIG and GAO recommendations, and while some improvements in Departmental




114	                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                     O t h e r A c c o mpa n y i n g I n format ion




oversight have been made, formal policies and governance have yet to be established. The Deputy Secretary recently convened
a steering committee to develop a Department-wide major investment oversight policy. Developing formal, unified policies
and procedures for complicated acquisitions will ultimately save time, money, and effort for all the Department’s operating
units. The Department must exercise effective oversight to ensure system acquisitions are adequately planned and conducted
according to best practices, and that they meet their cost, schedule and performance goals.


Contracts and Grants Management Workforce


Sufficient contracts and grants management workforce staffing has been a long-standing issue for the Department. Now,
primarily as a result of the ARRA, the Department and its operating units issue more grants and contracts than ever.

According to Department data, more than 1,500 Commerce employees hold certifications in various acquisition positions.
While the Department does not track the number of grants personnel, we recently conducted a survey of the sufficiency and
qualifications of the Recovery Act acquisition and grants workforce. Based on our survey, the grants workforce for the five
Department operating units receiving ARRA funding totaled over 800 employees. This includes grant officers, grants program
managers, and grants specialists.

Despite these numbers, however, a serious shortage of skilled, specially trained staff hampers the Department’s ability to
appropriately issue and oversee grants and contracts. To ensure that grants and contracts are issued effectively and funds are
properly spent, the Department must build up the size and skill of this workforce and improve its oversight processes.


NOAA Headquarters Leadership Structure


NOAA continues to face the challenge of carrying out its multifaceted mission to understand and predict changes in Earth’s
environment and to conserve and manage coastal and marine resources to meet our Nation’s economic, environmental,
and recreational needs. NOAA is realigning its headquarters leadership structure to streamline decision making and provide
greater policy-level attention to day-to-day management and oversight of its programs. The realignment is intended to provide
additional strategic guidance and leadership direction for NOAA’s stewardship responsibilities, including fisheries.

One of the key mission components is management, research, and services related to the protection and rational use of
living marine resources. Our 2008 Top Management Challenges report discussed NOAA’s need to balance conservation and
commercial fishing. Over the past 18 months, we have issued several reports that demonstrate, in particular, the difficulty
of achieving this balance. In a 2009 report, we evaluated a series of issues regarding the work and scientific methods of
the National Marine Fisheries Service’s (NMFS) Northeast Fisheries Science Center. In 2010, we issued three reports on
the programs and operations of the Office of Law Enforcement within NMFS and NOAA’s Office of General Counsel for
Enforcement and Litigation.


Department Headquarters Renovation


The Department’s headquarters, the General Services Administration (GSA)-owned Herbert C. Hoover Building in Washington,
D.C., is undergoing an extensive renovation. The renovation will take about 13 years and is estimated to cost almost
$960 million. The project is being funded mostly by GSA and the ARRA. Because of its scale, the renovation has the potential
to disrupt Commerce operations and affect its workforce. Accordingly, the Department has a primary interest in ensuring that
the renovation is completed on time, within budget, and free of fraud. To meet this goal, Commerce and GSA need to provide
comprehensive oversight throughout the project’s life cycle.




www.uspto.gov	                                                                                                                115
Improper Payments Information
Act (IPIA) Reporting Details

         D
                 uring FY 2010, the USPTO did not have any erroneous payments that exceeded
                 the ten million dollar threshold. The USPTO continuously seeks to identify
                 overpayments and erroneous payments by reviewing (1) credit memos and refund
          checks issued by vendors or customers and (2) undelivered electronic payments returned
          by financial institutions.

          In FY 2008, the USPTO participated in the Department of Commerce Consolidated Risk
          Assessment. The USPTO was assessed as low risk in all categories: Program/Activity
          Inherent Risk, Program/Activity Specific Risk Factors, Corporate Control Environment, and
          Procurement Management Functions. The Risk Assessment was reviewed in FY 2009 and
          FY 2010 and resulted in no changes being needed to the assessment.

                           Improper Payment Reduction Outlook (Dollars in Millions)
                                      FY 2009                           FY 2010                            FY 2011
                          Outlays Improper Improper Outlays Improper Improper Estimated Improper Improper
                                   Payment Payment           Payment Payment Outlays Payment Payment
           Program                 Percent  Dollars          Percent  Dollars            Percent  Dollars
          Patent          $	1,749     0.03%     $	0.53      $	1,730      0.01%      $	 0.02    $	2,009      0.01%    $	 0.17
          Trademark          192      0.03%     	 0.06          178      0.01%      		 –          217       0.01%      0.02
          Intellectual        43      0.03%     	 0.01             45    0.01%      		 –           57       0.01%      0.00
          Property
          Total           $	1,984     0.03%     $	0.60      $	1,953      0.01%      $	 0.02    $	2,283      0.01%    $	 0.19


           Improper Payment Reduction Outlook (Dollars in Millions) continued
                                          FY 2012                                   FY 2013
                             Estimated    Improper       Improper       Estimated   Improper     Improper
                              Outlays      Payment        Payment        Outlays     Payment      Payment
             Program                       Percent         Dollars                   Percent       Dollars
           Patent           $	 2,273       0.01%         $	 0.17        $	2,435      0.01%       $	      0.17
           Trademark                235    0.01%            0.02            253      0.01%               0.02
           Intellectual             67     0.01%            0.00             71      0.01%               0.00
           Property
           Total            $	 2,575       0.01%         $	 0.19        $	2,759      0.01%       $	      0.19




116	                                       Performance and accountability Report: Fiscal Year 2010
                                                                                    O t h e r A c c o mpa n y i n g I n format ion




During FY 2005, the USPTO entered into an agreement            During FY 2008, the USPTO initiated an internal recovery
with the DOC to use an existing contract for recovery          audit program. Under this program, a letter similar to that
audit services. The audit was limited to closed obligations    sent by our recovery audit contractor is sent to vendors on a
greater than $0.1 million. Further excluded were grants,       rotational basis. There were no items identified as recoverable.
travel payments, purchase card transactions, inter-agency      This program excludes grants, travel payment, purchase card
agreements, government bills of lading, and gift and bequest   transactions, inter-agency agreements, government bills of
transactions.                                                  lading, and gift and bequest transactions. This program
                                                               continued through FY 2010.
The audit was completed in FY 2006 and resulted in three
invoices that were identified as recoverable improper          In FY 2010, the USPTO continued its reporting procedures
payments, which are insignificant. The improper payments       to senior management and to the Department of Commerce
identified of $0.1 million were recovered during FY 2006.      on improper payments, identifying the nature and magnitude
No recovery audit services were conducted during FY 2007,      of any improper payments, along with any necessary control
FY 2008, FY 2009, or FY 2010.                                  enhancements to prevent further occurrences of the types of
                                                               improper payments identified.
           Summary of Recovery Audit Effort
                 (Dollars in Millions)
 Amount subject to review                       $	159.4
 # of invoices                                  	 4,433
 Actual amount reviewed                          $	107.3
 # of invoices                                  	   985




www.uspto.gov	                                                                                                               117
Summary of Financial Statement Audit
and Management Assurances
       Table 1. – Summary of Financial Statement Audit
       Audit Opinion                     Unqualified
       Restatement                       No
            Material Weaknesses          Beginning Balance          New             Resolved           Consolidated     Ending Balance
       	   NONE                                    0                  0                  0                  0                   0
       Total Material Weaknesses                   0                  0                  0                  0                   0

       Table 2. – Summary of Management Assurances

                                Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
       Statement of Assurance                 Unqualified
              Material Weaknesses             Beginning Balance     New     Resolved    Consolidated     Reassessed     Ending Balance
       	   NONE                                        0             0          0              0                0               0
       Total Material Weaknesses                       0             0          0              0                0               0
                                    Effectiveness of Internal Control over Operations (FMFIA § 2)
       Statement of Assurance                 Unqualified
              Material Weaknesses             Beginning Balance     New     Resolved    Consolidated     Reassessed     Ending Balance
       	   NONE                                        0             0          0              0                0               0
       Total Material Weaknesses                       0             0          0              0                0               0
                          Conformance with Financial Management System Requirements (FMFIA § 4)
       Statement of Assurance                 Systems conform to financial management system requirements
               Non-Conformances               Beginning Balance     New     Resolved    Consolidated     Reassessed     Ending Balance
       	   NONE                                        0             0          0              0                0               0
       Total Material Weaknesses                       0             0          0              0                0               0
                          Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                    Agency                            Auditor
       Overall Substantial Compliance                                                  Yes                             Yes
       1. System Requirements                                                          Yes                             Yes
       2. Accounting Standards                                                         Yes                             Yes
       3. USSGL at Transaction Level                                                   Yes                             Yes




118	                                                               Performance and accountability Report: Fiscal Year 2010
The Nature of the Training
Provided to USPTO Examiners

E
      xaminer training is a key driver for achieving organizational excellence. Examiner
      training is focused on delivering high quality work products and providing
      customer service excellence. Patent examiners and Trademark examining attorneys
received extensive legal, technical, and automation training in FY 2010. The USPTO has
comprehensive training programs for new patent examiners and trademark examining
attorneys, embedding a well-established curriculum including initial legal training,
automation training, and training in examination practice and procedure. Automation
training is provided to all examiners as new systems are deployed and existing systems
are enhanced. New technology-specific legal and technical training was conducted
throughout the examining operations. This specific training either focuses on practices
particular to a technology or was developed to address training needs identified through
patent and trademark examination reviews or staff requests.

The USPTO training staff works with the Patent and Trademark organizations to address
specific training concerns and serve as consultants to design specific internal programs
to fit the education needs of each business unit. Training is reviewed and evaluated on
an ongoing basis to ensure it is up-to-date and that coursework reflects developments
and changes that have taken place in the industry.

In FY 2010, the Office of Patent Training (OPT) was awarded the DOC Silver Medal
for the ISO 9001:2008 Certification of the new examiner training program in 2009. The
OPT implemented two new examiner training programs: 20 day training program for
new examiners with prior IP experience and a redesigned eight-month new examiner
program into a two-phased 12-month program. OPT also developed a Refresher Training
Program and delivered legal and procedural refresher training to experienced patent
examiners.

The IP Experienced Examiner Training program is a 20-day program for new examiners
with at least one year of IP experience. Training consists of high level legal training,
with emphasis on procedural and automation training. Each class can accommodate up
to 128 examiners that are placed in labs of 16 for small group discussions and tailored
training in their specific fields of study.

A two-phased 12 month New Examiner Training Program is for new examiners with
no prior IP experience. The first phase includes four months of training at the Patent
Training Academy (PTA) before transitioned to the TCs. Phase 2 includes months five-
12 when they return to the PTA each month to complete the first year training. Each
Academy class can accommodate up to 144 examiners that are placed in labs of 16
for large group lectures and small group workshops. Examiners have access to tutors,
library and search assistance, and automation guidance. In addition to extensive lecture
and lab training, attendees spend considerable time learning their jobs through the




www.uspto.gov	                                                                             119
Othe r Accompany i ng I nf o rm ati o n




       examination of real patent applications in a setting that provides immediate assistance when needed. The training is
       structured to provide new examiners with advanced entry-level competencies, as well as providing instruction in a
       variety of skills that will produce well-rounded, motivated employees.




                                                  PATENT EXAMINER TRAINING

         U.S. Patent Training Academy      Training in the Academy
         –	 Mandatory training for first
                                           Two training programs: Intellectual Property (IP) Experienced Examiner Training and a two-phase
            year examiners
                                           12-month program.

                                           ■■   Intellectual Property (IP) Experienced Examiner Training Curriculum
                                                This training includes enhanced instruction in automation, including classes in more than a dozen
                                                specialized applications used in patent examination, multiple search systems, databases, and
                                                commonly used office applications, areas such as: Classification Systems, Searching (classification,
                                                text), Claim Interpretation, Advanced Text Searching, training on TC Specific tools such as STN and
                                                Dialog, Writing an Effective Examiner’s Answer, Appeal Procedure and Practice (Appeal Conference
                                                & Pre-Conference; Prevent Administrative Remand).

                                           ■■   Two-Phased 12 Month New Examiner Training Curriculum
                                                The legal and procedural training includes enhanced instruction in areas such as: Classification
                                                Systems, Searching (classification, text), Claim Interpretation, and Advanced Text Searching,
                                                Writing an Effective Examiner’s Answer, Appeal Procedure and Practice (Appeal Conference & Pre-
                                                Conference; Prevent Administrative Remand).

                                                Technical training includes: Introduction to examining applications in specific areas of technology,
                                                the current state of specific technologies, ongoing technology topics, etc.

                                                Automation training includes classes in more than a dozen specialized applications used in patent
                                                examination, multiple search systems, databases, and commonly used office applications.

                                                Life skills training includes: time management, physical security, ethics, stress management,
                                                balancing quality and production, professionalism, balancing work and personal life, diversity
                                                training, dealing with conflict and difficult situations, and benefits and financial planning basics.

                                           Individual Development Plan

                                           Examiners in both the IP Experienced and two-phased 12-month training programs have an Individual
                                           Development Plan (IDP). The IDP is composed of formal training courses, development assignments,
                                           and on-the-job training. The IDP is designed to assist the examiner from day one, through the
                                           first 24 months of employment. When the examiner transitions to the Technology Center from the
                                           program and graduates from the Academy the IDP will continue to enable the examiner to acquire the
                                           competencies essential to perform assigned duties and to prepare for further development.




120	                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                                                   O t h e r A c c o mpa n y i n g I n format ion




                                               PATENT EXAMINER TRAINING (Continued)

  Programs for all Examiners                      Legal, Practice & Procedure Training

                                                  ■■   Examiner Refresher Training
                                                       Courses developed to enhance examiners’ knowledge and skills in procedural and legal topics
                                                       pertaining to patent examination. Participants may enroll in one or more courses in consultation
                                                       with their supervisor.

                                                  ■■   Legal Lecture Series
                                                       Training offered periodically to Examiners based on major court decisions and office policies

                                                  ■■   In-House Patent Law and Evidence Course
                                                       Training for Examiners on authoritative court decisions on statutory issues under 35 U.S.C. 101,
                                                       102, 103 and 112 and the handling of evidence during the examination of applications.

                                                  Continuing Education Series

                                                  Training for Patent examiners to enhance their technical and legal knowledge in the examination
                                                  of patent applications.

                                                       Courses Offered:
                                                       ■■ Non-Duty Hours Legal Studies Program (Budget Dependent) *
                                                       ■■ Non-Duty Hours Technical Training Program (Budget Dependent) *
                                                       ■■ Examiner Education Program (Budget Dependent) *
                                                       ■■ Technology Center Specific Technology Training (Budget Dependent) *
                                                       ■■ Updated Automation Tools Training (in coordination with SIRA)

  *	   These programs were suspended in FY 2010 due to budget constraints.




www.uspto.gov	                                                                                                                                              121
Othe r Accompany i ng I nf o rm ati o n




                                            TRADEMARK EXAMINING ATTORNEY TRAINING

         In FY 2010 in the Trademark organization, using data gathered from the results of quality reviews that were analyzed, were used to prepare the
         content of on-line e-learning training materials for trademark examining attorneys. Live and Web cast Training Sessions and Modules were
         developed and released covering the following list of topics.

               ■■   Examining Claims of Acquired Distinctiveness Under Section 2(f)
               ■■   Examination Procedures for Section 2(a) Deceptiveness Refusals for Non-Geographic Marks
               ■■   Examination of Trade Dress Issues
               ■■   Unauthorized Practice in Trademark Cases
               ■■   Discussion of Revisions in the TMEP
               ■■   Industry training on trademark issues in the Ag-Chem industry sponsored by the International Trademark Association (INTA)
               ■■   Industry training on trademark issues regarding Famous Marks sponsored by the INTA
               ■■   Examiner-Led Mutilation of Mark Workshop

         Law Office Presentations and Computer-Based Training Modules were developed and released covering the following list of topics.

               ■■   Evidence for Refusals/Requirements - When Needed, Types Available, and Strategies for Gathering
               ■■   Top Amendment Entry Issues in Trademark Examination
               ■■   X-SEARCH - Truncation, Pattern Matching and Limiting by Class
               ■■   Genericness issues
               ■■   Resources Index/Annotated TMEP
               ■■   Color Marks

         Two Exam Guides and One Exam Note was published:

               ■■ Examination Guide 1-10 – Marks with Designs Replacing Letters
               ■■ Examination Guide 2-10 – Examination Procedures for Section 2(f) Claims in Part
               ■■ Examination Note 4-10 – EA-PA Examiner’s Amendments and Priority Actions


         Other Guidance covering the following topics was also published and released.

               ■■   TMEP Sixth Edition, Revision 2
               ■■   TMEP Sixth Edition – Answers to Follow-up Questions
               ■■   Highlights for TMEP Sixth Edition
               ■■   Rules of Practice & Federal Statutes
               ■■   Summary of Requirements For Signature, Recognition Of Representatives And Changing The Correspondence Address In Trademark Cases
               ■■   Series of Five Guides on Examination of Trade Dress Issues




122	                                                                      Performance and accountability Report: Fiscal Year 2010
 Measures that Have Been Either
 Discontinued or Changed Since
 the FY 2009 PAR

   Strategic Goal   Optimize patent quality and timeliness

  Corresponding     ■■   Patent in-process examination compliance rate
  Measures          ■■   Patent allowance compliance rate

  Change            USPTO replaced these measures with:
                    ■■ Patent non-final in-process examination compliance rate
                    ■■ Patent final rejection/allowance compliance rate

  Justification     The USPTO is seeking input from stakeholders on how quality should be measured. A Federal Register Notice has
                    been published, asking for stakeholders’ comments on quality. New quality measures will be introduced based on
                    this feedback. In the meantime, the Agency shifted resources from end-process review to place more emphasis on
                    front-end quality and reviewing non-final actions in order to prevent unnecessary re-work. This approach also allows
                    the Agency to focus on final disposition of applications including final rejections.

   Strategic Goal   Provide domestic and global leadership to improve intellectual property
                    policy, protection and enforcement worldwide

  Corresponding     ■■   Percentage of counties on the USTR 301 list, awaiting WTO accession, or targeted by
  Measures               OIPPE for improvements that have positively amended or improved their IP system
                    ■■   Number of countries that implemented at least 75% of action steps which improve
                         IP protections in the joint cooperation, action or work plans

  Change            USPTO replaced these measures with:
                    ■■ Percentage of prioritized countries that have implemented at least 75% of action steps in the country-specific
                       action plans toward progress along following dimensions:
                       1.	 Institutional improvements of IP office administration for advancing IPR
                       2.	 Institutional improvements of IP enforcement entities
                       3.	 Improvements in IP laws and regulations
                       4.	 Establishment of government-to-government cooperative mechanisms

  Justification     To better track USPTO’s efforts in accomplishing the 2010-2015 Strategic Plan.




www.uspto.gov	                                                                                                                             123
  Fiscal Year 2010 USPTO Workload Tables

            Index of Tables                                                                       Page
            Table 1       Summary of Patent Examining Activities                                   125
            Table 2       Patent Applications Filed                                                126
            Table 3       Patent Applications Pending Prior to Allowance                           127
            Table 4       Patent Pendency Statistics                                               128
            Table 5       Summary of Total Pending Patent Applications                             128
            Table 6       Patents Issued                                                           129
            Table 7       Patent Applications Filed by Residents of the United States              130
            Table 8       Patents Issued to Residents of the United States                         131
            Table 9       United States Patent Applications Filed by Residents of Foreign          132
                          Countries
            Table 10      Patents Issued by the United States to Residents of Foreign Countries    134
            Table 11      Statutory Invention Registrations Published                              135
            Table 12      United States Government Agency Patents                                  136
            Table 13A     Ex Parte Reexamination                                                   137
            Table 13B     Inter Partes Reexamination                                               137
            Table 14      Summary of Contested Patent Cases                                        138
            Table 15      Summary of Trademark Examining Activities                                139
            Table 16      Trademark Applications Filed for Registration and Renewal and            140
                          Trademark Affidavits Filed
            Table 17      Summary of Pending Trademark Applications                                141
            Table 18      Trademarks Registered, Renewed, and Published Under Section 12(C)        142
            Table 19      Trademark Applications Filed by Residents of the United States           143
            Table 20      Trademarks Registered to Residents of the United States                  144
            Table 21      Trademark Applications Filed by Residents of Foreign Countries           145
            Table 22      Trademarks Registered to Residents of Foreign Countries                  147
            Table 23      Summary of Contested Trademark Cases                                     149
            Table 24      Actions on Petitions to the Director of the U.S. Patent and Trademark    150
                          Office
            Table 25      Cases in Litigation                                                      151
            Table 26      Patent Classification Activity                                           152
            Table 27      Scientific and Technical Information Center Activity                     152
            Table 28      End of Year Personnel                                                    153
            Table 29A     Top 50 Trademark Applicants                                              154
            Table 29B     Top 50 Trademark Registrants                                             154




124	                                  Performance and accountability Report: Fiscal Year 2010
                                                                                                                       O t h e r A c c o mpa n y i n g I n format ion



                                                     SUMMARY OF PATENT EXAMINING ACTIVITIES
             TA B L E 1
                                                               (FY 2006 - FY 2010)
                                                                 (PRELIMINARY FOR FY 2010) 1
       Patent Examining Activity                                                                  2006             2007            2008            2009              2010

       Applications filed, total1,2                                                              445,613         468,330        496,886          486,499           509,367
       	     Utility3                                                                            417,453         439,578        466,258          458,901           478,649
       	     Reissue                                                                               1,204           1,057          1,080            1,035             1,144
       	     Plant                                                                                 1,103           1,002          1,331              988             1,015
       	     Design                                                                               25,853          26,693         28,217           25,575            28,559

       Provisional applications filed2,4                                                         121,471         132,459        143,034          134,438           140,551

       First actions
       	     Design                                                                               23,291          29,029         28,756           27,858            26,051
       	     Utility, Plant, and Reissue                                                         320,349         367,953        422,065          469,946           447,485
       	     PCT/Chapter                                                                          25,034          24,741         51,300           20,797            15,574

       Patent application disposals, total                                                       332,535         362,227        396,228          487,140           553,549

       Allowed patent applications, total                                                        186,593         195,530        187,607          214,523           264,119
       	     Design                                                                               20,721          25,747         24,735           25,403            23,681
       	     Utility, Plant, and Reissue                                                         165,872         169,783        162,872          189,120           240,438

       Abandoned, total                                                                          145,912         166,690        208,610          272,607           289,419
       	     Design                                                                                2,125           2,661          2,936            3,840             3,101
       	     Utility, Plant, and Reissue                                                         143,787         164,029        205,674          268,767           286,318

       Statutory invention registration disposals, total                                               30                 7            11              10                 11

       PCT/Chapter II examinations completed                                                       7,295            5,336          2,937            3,468             2,265
       Applications published5                                                                   291,259         302,678        309,194          325,988           338,452
       Patents issued2,6                                                                         183,187         184,376        182,556          190,122           233,127
       	     Utility                                                                             162,509         160,306        154,699          165,213           207,915
       	     Reissue                                                                                 500             548            662              398               861
       	     Plant                                                                                 1,106             979          1,179            1,096               978
       	     Design                                                                               19,072          22,543         26,016           23,415            23,373

       Pendency time of average patent application7                                                 31.1            31.9           32.2             34.6              35.3
       Reexamination certificates issued                                                             329             367            575              698               776
       PCT international applications received by USPTO as receiving office                       52,524          54,214         54,488           47,572            45,701
       National requirements received by USPTO as designated/elected office                       48,158          52,339         57,345           57,879            61,587
       Patents renewed under Public Law (Pub.L.) 102-204 8                                       324,913         343,894        353,923          304,096           361,668
       Patents expired under Pub.L. 102-204 8                                                     72,654          67,122         67,127           66,330            79,993

       1	   FY 2010 data are preliminary and will be finalized in the FY 2011 PAR.
       2	   FY 2009 application data has been updated with final end of year numbers.			
       3	   Utility patents include chemical, electrical and mechanical applications.
       4	   Provisional applications provided for in Pub.L. 103-465.	
       5	   Eighteen-month publication of patent applications provided for in the American Inventors Protection Act of 1999, Pub.L.106-113.		
       6	   Excludes withdrawn numbers. Past years’ data may have been revised from prior year reports.
       7	   Average time (in months) between filing and issuance or abandonment of utility, plant, and reissue applications. This average does not include design patents.	
       8	   The provisions of Pub.L.102-204 regarding the renewal of patents superseded Pub.L. 96-517 and Pub.L. 97-247.




www.uspto.gov	                                                                                                                                                                 125
Othe r Accompany i ng I nf o rm ati o n




              TA B L E 2                                           PATENT APPLICATIONS FILED
                                                                       (FY 1990 - FY 2010)
                                                                (PRELIMINARY FOR FY 2010) 1
                   Year                       Utility                     Design                Plant          Reissue           Total

                  1990                       162,708                      11,140                 395              468           174,711
                  1991                       166,765                      10,368                 414              536           178,083
                  1992                       171,623                      12,907                 335              581           185,446
                  1993                       173,619                      13,546                 362              572           188,099
                  1994                       185,087                      15,431                 430              606           201,554
                  1995                       220,141                      15,375                 516              647           236,679
                  1996                       189,922                      15,160                 557              637           206,276
                  1997                       219,486                      16,272                 680              607           237,045
                  1998                       238,850                      16,576                 658              582           256,666
                  1999                       259,618                      17,227                 759              664           278,268
                  2000                       291,653                      18,563                 786              805           311,807
                  2001                       324,211                      18,636                 914              956           344,717
                  2002                       331,580                      19,706                1,134             974           353,394
                  2003                       331,729                      21,966                 785              938           355,418
                  2004                       353,319                      23,457                1,212             996           378,984
                  2005                       381,797                      25,304                1,288           1,143           409,532
                  2006                       417,453                      25,853                1,204           1,103           445,613
                  2007                       439,578                      26,693                1,002           1,057           468,330
                  2008                       466,258                      28,217                1,331           1,080           496,886
                  20092                      458,901                      25,575                 988            1,035           486,499
                  20101                      478,649                      28,559                1,015           1,144           509,367

        1	   FY 2010 data are preliminary and will be finalized in the FY 2011 PAR.
        2	   FY 2009 application data has been updated with final end of year numbers.




126	                                                                                  Performance and accountability Report: Fiscal Year 2010
                                                                                                                             O t h e r A c c o mpa n y i n g I n format ion




        TA B L E 3                  PATENT APPLICATIONS PENDING PRIOR TO ALLOWANCE 1
                                                    (FY 1990 - FY 2010)
                           Year                                     Awaiting Action by Examiner                               Total Applications Pending2

                           1990                                                   104,179                                                    244,964
                           1991                                                   104,086                                                    254,507
                           1992                                                   112,201                                                    269,596
                           1993                                                     99,904                                                   244,646
                           1994                                                   107,824                                                    261,249
                           1995                                                   124,275                                                    298,522
                           1996                                                   139,943                                                    303,720
                           1997                                                   112,430                                                    275,295
                           1998                                                   224,446                                                    379,484
                           1999                                                   243,207                                                    414,837
                           2000                                                   308,056                                                    485,129
                           2001                                                   355,779                                                    542,007
                           2002                                                   433,691                                                    636,530
                           2003                                                   471,382                                                    674,691
                           2004                                                   528,685                                                    756,604
                           2005                                                   611,114                                                    885,002
                           2006                                                   701,147                                                  1,003,884
                           2007                                                   760,924                                                  1,112,517
                           2008                                                   771,529                                                  1,208,076
                           2009                                                   735,961                                                  1,207,794
                           2010                                                   726,331                                                  1,163,751

  1	   Includes patent applications pending at end of period indicated, and includes utility, reissue, plant, and design applications. Does not include allowed
       applications.
  2	   Applications under examination, including those in preexamination processing.




www.uspto.gov	                                                                                                                                                        127
Othe r Accompany i ng I nf o rm ati o n




               TA B L E 4                                           PATENT PENDENCY STATISTICS
                                                                             (FY 2010)
                                                                                                                   Average First Action       Total Average
         UPR Pendency Statistics by Technology Center (in months)                                                       Pendency                Pendency

         Total UPR Pendency                                                                                                   25.7                35.3
         Tech Center 1600 - Biotechnology & Organic Chemistry                                                                 22.8                36.0
         Tech Center 1700 - Chemical and Materials Engineering                                                                25.7                37.4
         Tech Center 2100 - Computer Architecture, Software & Information Security                                            29.3                42.5
         Tech Center 2400 - Networks, Multiplexing, Cable & Security                                                          27.5                42.7
         Tech Center 2600 - Communications                                                                                    32.0                42.9
         Tech Center 2800 - Semiconductor, Electrical, Optical Systems & Components                                           20.7                30.6
         Tech Center 3600 - Transportation, Construction, Agriculture & Electronic Commerce                                   25.2                35.7
         Tech Center 3700 - Mechanical Engineering, Manufacturing & Products                                                  27.7                38.4




               TA B L E 5                     SUMMARY OF TOTAL PENDING PATENT APPLICATIONS
                                                                                        (FY 2010)
                                                                                          Utility, Plant and                    Design         Total Patent
         Stage of Processing                                                            Reissue Applications                  Applications     Applications

         Pending patent applications, total                                                    1,216,226                             29,348     1,245,574

         In preexamination processing, total                                                      89,867                              3,561        93,428

         Under examination, total                                                              1,050,266                             19,386     1,069,652
         	     Undocketed                                                                        167,549                              2,850       170,399
         	     Awaiting first action by examiner                                                 451,119                             11,385       462,504
         	     Subtotal applications awaiting first action by examiner3                          708,535                             17,796       726,331
         	     Rejected, awaiting response by applicant                                          281,797                              4,044       285,841
         	     Amended, awaiting action by examiner                                              109,886                               956        110,842
         	     In interference                                                                        207                                4            211
         	     On appeal, and other1                                                              39,708                               147         39,855

         In post-examination processing, total                                                    76,093                              6,401        82,494
         	     Awaiting issue fee                                                                 58,335                              5,226        63,561
         	     Awaiting printing2                                                                 14,550                              1,174        15,724
         	     D-10s (secret cases in condition for allowance)                                      3,208                                1          3,209

         1	   Includes cases on appeal and undergoing petitions.	
         2	   Includes withdrawn cases.
         3	   Sub-category not previously reported; sub total is not included in the overall total of applications pending.




128	                                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                               O t h e r A c c o mpa n y i n g I n format ion




        TA B L E 6                                                     PATENTS ISSUED
                                                                      (FY 1990 - FY 2010) 1
             Year                      Utility2                      Design            Plant   Reissue               Total

            1990                        88,972                        7,176             295      282                 96,725
            1991                        91,819                        9,387             318      334                101,858
            1992                        99,406                        9,612             336      375                109,729
            1993                        96,675                        9,946             408      302                107,331
            1994                       101,270                       11,138             513      346                113,267
            1995                       101,895                       11,662             390      294                114,241
            1996                       104,900                       11,346             338      291                116,875
            1997                       111,977                       10,331             400      267                122,975
            1998                       139,297                       14,419             577      284                154,577
            1999                       142,852                       15,480             436      393                159,161
            2000                       164,486                       16,718             453      561                182,218
            2001                       169,571                       17,179             563      504                187,817
            2002                       160,839                       15,096             912      465                177,312
            2003                       171,493                       16,525            1,178     394                189,590
            2004                       169,295                       16,533             998      343                187,169
            2005                       151,077                       13,395             816      195                165,483
            2006                       162,509                       19,072            1,106     500                183,187
            2007                       160,306                       22,543             979      548                184,376
            2008                       154,699                       26,016            1,179     662                182,556
            2009                       165,213                       23,415            1,096     398                190,122
            20103                      207,915                       23,373             978      861                233,127

  1	   Past years’ data may have been revised from prior year reports.
  2	   Includes chemical, electrical, and mechanical applications.
  3	   FY 2010 data is preliminary.




www.uspto.gov	                                                                                                                          129
Othe r Accompany i ng I nf o rm ati o n




               TA B L E 7              PATENT APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES 1
                                                          (FY 2006 - FY 2010) 2
         State/Territory                  2006       2007        2008      20092       20103   State/Territory         2006       2007       2008       20092       20103

         Total                          236,012 247,898 257,818 246,777                N/A     Nebraska                  532        689        592        504       N/A
                                                                                               Nevada                   1,426      1,629      1,996      1,680      N/A
         Alabama                             837        886         996         912    N/A     New Hampshire            1,474      1,450      1,564      1,510      N/A
         Alaska                               86           82        88          95    N/A     New Jersey               8,973      8,649      9,428      9,622      N/A
         Arizona                           4,123      4,486       4,460        3,927   N/A     New Mexico                802        960        857        814       N/A
         Arkansas                            365        406         420         418    N/A     New York                14,595     15,518     16,838     15,098      N/A
         California                      57,608      63,027     66,370     66,132      N/A     North Carolina           5,427      5,841      7,008      5,803      N/A
         Colorado                          4,889      4,918       4,898        5,019   N/A     North Dakota              217        218        178        207       N/A
         Connecticut                       4,368      4,281       4,326        4,009   N/A     Ohio                     7,508      8,104      7,791      7,528      N/A
         Delaware                            897        954         922         904    N/A     Oklahoma                 1,079      1,129      1,048      1,052      N/A
         District of Columbia                223        250         262         261    N/A     Oregon                   5,197      4,841      4,487      3,911      N/A
         Florida                           7,896      8,184       8,480        7,839   N/A     Pennsylvania             7,448      7,811      7,951      7,568      N/A
         Georgia                           4,906      4,818       4,946        5,051   N/A     Rhode Island              652        716        740        666       N/A
         Hawaii                              245        294         300         293    N/A     South Carolina           1,541      1,506      1,585      1,596      N/A
         Idaho                             3,114      2,495       1,905        1,544   N/A     South Dakota              170        198        193        220       N/A
         Illinois                          9,108      9,323       9,340        8,985   N/A     Tennessee                2,357      2,320      2,010      2,034      N/A
         Indiana                           3,085      3,178       3,345        3,181   N/A     Texas                   14,803     15,886     17,339     15,667      N/A
         Iowa                              1,580      1,490       1,641        1,481   N/A     Utah                     2,304      2,391      2,516      2,594      N/A
         Kansas                            1,355      1,475       1,587        1,671   N/A     Vermont                   983       1,001      1,309       616       N/A
         Kentucky                          1,184      1,129       1,215        1,132   N/A     Virginia                 3,242      3,554      3,532      3,402      N/A
         Louisiana                           808        838         709         795    N/A     Washington              10,444     11,163     12,602     12,619      N/A
         Maine                               382        415         411         344    N/A     West Virginia             309        294        274        300       N/A
         Maryland                          3,731      3,840       3,694        3,503   N/A     Wisconsin                4,453      4,631      4,341      4,054      N/A
         Massachusetts                   10,506      11,218     11,534     11,417      N/A     Wyoming                   147        198        183        158       N/A
         Michigan                          7,964      8,249       8,447        7,881   N/A     Puerto Rico                75         70         70         82       N/A
         Minnesota                         7,755      7,997       8,164        7,805   N/A     Virgin Islands                 7      10         10         11       N/A
         Mississippi                         367        329         320         337    N/A     U.S. Pacific Islands4          2          3          -       1       N/A
         Missouri                          2,166      2,273       2,335        2,285   N/A     United States5                 6          2          3           -   N/A
         Montana                             291        281         258         239    N/A

         -	   Represents zero.
         1	   Data include utility, plant, design, and reissue applications.
         2	   Finalized data for FY 2006 to 2009 provided.
         3	   FY 2010 data should be finalized in the FY 2011 PAR.
         4	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
         5	   State/Territory information not available.




130	                                                                                     Performance and accountability Report: Fiscal Year 2010
                                                                                                             O t h e r A c c o mpa n y i n g I n format ion




                                          PATENTS ISSUED TO RESIDENTS OF THE UNITED STATES 1
        TA B L E 8
                                                        (FY 2009 - FY 2010)
  State/Territory                                  20094             2010             State/Territory                 20094           2010

  Total                                           93,727           115,866           Nebraska                           231              235
                                                                                     Nevada                             408              612
  Alabama                                             345              492           New Hampshire                      567              780
  Alaska                                               48               43           New Jersey                       3,273            4,164
  Arizona                                           1,853            2,079           New Mexico                         309              449
  Arkansas                                            132              210           New York                         6,217            7,383
  California                                      22,973            28,563           North Carolina                   2,277            2,810
  Colorado                                          1,933            2,381           North Dakota                        82              118
  Connecticut                                       1,645            2,024           Ohio                             2,989            3,837
  Delaware                                            335              399           Oklahoma                           426              551
  District of Columbia                                 64               85           Oregon                           2,094            2,288
  Florida                                           2,804            3,585           Pennsylvania                     3,020            3,689
  Georgia                                           1,616            2,108           Rhode Island                       314              340
  Hawaii                                               94              119           South Carolina                     572              613
  Idaho                                             1,044            1,125           South Dakota                        54               76
  Illinois                                          3,567            4,235           Tennessee                          791              975
  Indiana                                           1,205            1,591           Texas                            6,417            7,618
  Iowa                                                692              789           Utah                               829            1,119
  Kansas                                              519              687           Vermont                            545              618
  Kentucky                                            435              606           Virginia                         1,153            1,627
  Louisiana                                           288              383           Washington                       4,632            5,884
  Maine                                               129              196           West Virginia                       93              131
  Maryland                                          1,420            1,614           Wisconsin                        1,830            2,170
  Massachusetts                                     3,880            5,003           Wyoming                             59               79
  Michigan                                          3,525            4,194           Puerto Rico                         18               26
  Minnesota                                         2,902            3,773           Virgin Islands                       3                3
  Mississippi                                         126              183           U.S. Pacific Islands2                -                1
  Missouri                                            850            1,110           United States3                       1                2
  Montana                                              99               91

  -	   Represents zero.
  1	   Data include utility, design, plant, and reissue patents.
  2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
  3	   No State indicated in database.
  4	   Finalized data for FY 2009 provided.




www.uspto.gov	                                                                                                                                        131
Othe r Accompany i ng I nf o rm ati o n




            TA B L E 9              UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
                                     	                    (FY 2006 - FY 2010)
        Residence                     2006      2007      2008      20092     20103   Residence                 2006     2007     2008     20092    20103
        Total                         209,601   220,432   239,068   239,722   N/A     Denmark                    1,259    1,232    1,654    1,783   N/A
                                                                                      Dominican Republic             8        7        9        5   N/A
        Afghanistan                         -         -         -         1   N/A     Ecuador                       12        5        5        9   N/A
        Albania                             -         -         -         1   N/A     Egypt                         17       33       53       33   N/A
        Algeria                             2         3         1         -   N/A     El Salvador                    -        3        -        1   N/A
        Andorra                             -         5         8         5   N/A     Estonia                       14       18       35       36   N/A
        Anguilla                            1         -         -         3   N/A     Ethiopia                       1        1        -        -   N/A
        Antigua & Barbuda                   -         2         1         1   N/A     Fiji4                          -        -        -        1   N/A
        Argentina                         133       166       139       151   N/A     Finland                    2,310    2,517    2,782    2,793   N/A
        Armenia                            10         3         9         2   N/A     France                     7,228    8,204    9,281    9,726   N/A
        Australia                       3,078     3,612     4,194     4,211   N/A     French Polynesia               1        -        -        -   N/A
        Austria                         1,200     1,417     1,785     1,713   N/A     Georgia                       10       14        5        2   N/A
        Azerbaijan                          4         1         1         3   N/A     Germany                   22,263   23,535   26,331   26,855   N/A
        Bahamas                            18        13        20        16   N/A     Ghana                          -        3        1        3   N/A
        Bahrain                             1         1         -         2   N/A     Gibraltar                     10        3        3        7   N/A
        Bangladesh                          -         -         1         -   N/A     Greece                        81       86      128      118   N/A
        Barbados                            2         6         7         6   N/A     Greenland                      -        3        4        -   N/A
        Belarus                            13        15        11         7   N/A     Guatemala                      7        3        2        2   N/A
        Belgium                         1,578     1,700     1,748     1,917   N/A     Guinea4                        -        -        -        1   N/A
        Belize                              -         -         4         1   N/A     Haiti                          -        1        -        -   N/A
        Benin                               -         -         1         -   N/A     Honduras                       1        1        1        1   N/A
        Bermuda                             8         4         8         8   N/A     Hungary                      172      193      203      234   N/A
        Bolivia                             2         2         3         4   N/A     Iceland                       47       37       41       49   N/A
        Bosnia & Herzegovina                -         3         6         -   N/A     India                      1,862    2,280    2,869    2,878   N/A
        Brazil                            333       385       499       497   N/A     Indonesia                     31       37       25       19   N/A
        British Virgin Islands              7        11        10        11   N/A     Iran                          10       18       28       29   N/A
        Brunei Darussalam                   -         1         -         1   N/A     Iraq                           1        -        1        1   N/A
        Bulgaria                           52        49        83       114   N/A     Ireland                      528      561      740      711   N/A
        Burkina Faso                        -         1         -         -   N/A     Israel                     3,617    4,114    4,916    4,772   N/A
        Burundi                             -         -         1         -   N/A     Italy                      3,691    3,832    4,273    4,460   N/A
        Cameroon                            1         3         1         9   N/A     Jamaica                        4        4       12       11   N/A
        Canada                         10,243    10,788    11,436    11,250   N/A     Japan                     76,940   79,725   84,473   86,456   N/A
        Cayman Islands                      2         4         6        10   N/A     Jordan                         7       12        8       14   N/A
        Chad                                1         -         -         -   N/A     Kazakhstan                     4        1        2        3   N/A
        Chile                              50       105        63        65   N/A     Kenya                          7        9        4        4   N/A
        China (Hong Kong)               1,318     1,447     1,419     1,254   N/A     Korea, Dem. Republic of        -        1        2        1   N/A
        China (Macau)                       5         3         5         5   N/A     Korea, Republic of        21,963   23,589   25,507   24,066   N/A
        China (People's Republic)       3,838     4,422     5,148     5,301   N/A     Kuwait                        36       25       18       39   N/A
        Colombia                           15        27        35        28   N/A     Latvia                         8       10        6       15   N/A
        Costa Rica                         25        33        20        18   N/A     Lebanon                       14       12       11       17   N/A
        Croatia                            37        32        39        35   N/A     Libya4                         -        -        -        1   N/A
        Cuba                                9        16        38        23   N/A     Liechtenstein                 27       26       35       42   N/A
        Cyprus                             11         5         8        12   N/A     Lithuania                     10       11       13       13   N/A
        Czech Republic                    102       129       180       245   N/A     Luxembourg                    84      118      102       94   N/A




132	                                                                            Performance and accountability Report: Fiscal Year 2010
                                                                                                                                O t h e r A c c o mpa n y i n g I n format ion




         TA B L E 9           UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
          C O N T.             	                    (FY 2006 - FY 2010)

 Residence                         2006       2007         2008       20092     20103       Residence                       2006       2007       2008       20092      20103
 Macedonia                               -          1           -          2     N/A        Saudi Arabia                        51         69          90        153     N/A
 Madagascar                              -          1           -          -     N/A        Serbia                               7         12          16          5     N/A
 Malaysia                              392        378         326        325     N/A        Seychelles                           1          -           1          1     N/A
 Malta                                  13          5          10         11     N/A        Singapore                        1,183      1,192       1,376      1,278     N/A
 Mauritius                               -          2           1          -     N/A        Slovakia                            29         32          36         30     N/A
 Mexico                                229        216         269        244     N/A        Slovenia                            47         53          71         69     N/A
 Moldova                                 1          1           1          1     N/A        South Africa                       243        280         319        323     N/A
 Monaco                                 21         15          16         21     N/A        Spain                              868      1,080       1,294      1,224     N/A
 Morocco                                 2          2          11          6     N/A        Sri Lanka                            9          9          16         12     N/A
 Namibia                                 -          -           1          -     N/A        Sweden                           2,793      3,132       3,508      3,610     N/A
 Nepal4                                  -          -           -          2     N/A        Switzerland                      2,968      3,138       3,681      3,714     N/A
 Netherlands                         4,098      4,249       4,240      4,510     N/A        Syria Arab Rep                       -          -           1          2     N/A
 Netherlands Antilles                    -          1           1          4     N/A        Taiwan                          21,165     20,447      19,733     17,974     N/A
 New Zealand                           449        474         580        579     N/A        Thailand                            82        111         127        116     N/A
 Nigeria                                 2          5           1          2     N/A        Trinidad & Tobago                    3          4           6          8     N/A
 Norway                                593        662         856        871     N/A        Tunisia                              3          7           9          5     N/A
 Oman                                    1          2           5          4     N/A        Turkey                              68         86         103        113     N/A
 Pakistan                               12         10          21          7     N/A        Turkmenistan4                        -          -           -          1     N/A
 Panama                                  6          7          12          6     N/A        Turks and Caicos Islands             1          5           2          1     N/A
 Paraguay                                1          -           1          -     N/A        Ukraine                             32         35          46         61     N/A
 Peru                                    3          9           9          5     N/A        United Arab Emirates                22         22          30         54     N/A
 Philippines                            85         87          72         61     N/A        United Kingdom                   9,127      9,185      10,795     11,205     N/A
 Poland                                 93        104         122        150     N/A        Uruguay                             18          8          13         27     N/A
 Portugal                               43         66          91         87     N/A        Uzbekistan                           1          -           -          1     N/A
 Qatar                                   -          4           -          4     N/A        Vanuatu (New Hebrides)               1          -           4          -     N/A
 Romania                                31         39          47         58     N/A        Venezuela                           33         37          27         32     N/A
 Russian Federation                    377        443         531        498     N/A        Vietnam                                4          3        13           4    N/A
 Samoa                                    5            -          4        1     N/A        West Bank/Gaza                         1          -         -           -    N/A
 San Marino                               -            1          -        3     N/A        Zimbabwe                               -          3          2          2    N/A
 Saudi Arabia                           51          69         90        153     N/A

  -	 Represents zero.	
  1	    Data include utility, design, plant, and reissue applications. Country listings include possessions and territories of that country unless listed separately in the
        table. Data are subject to minor revisions.
  2	    FY 2009 data are updated and final.
  3 	   FY 2010 data should be finalized in the FY 2011 PAR.
  4	    Countries/Territories not previously reported.
  5	    Country of origin information not available.




www.uspto.gov	                                                                                                                                                                  133
Othe r Accompany i ng I nf o rm ati o n




           TA B L E 1 0          PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
                                                            (FY 2006 - FY 2010) 2
        Residence                 2006     2007     2008     2009     2010     Residence              2006       2007       2008       2009       2010

        Total                     87,014   89,760   90,713   96,395 117,261    France                  3,542      3,757      3,683      3,836      4,835
                                                                               French Polynesia            -          1          -          1          -
        Algeria                        1        -        -        -        1   Gabon                       -          1          -          -          -
        Andorra                        -        1        1        2        8   Georgia                     2          7          3          1          2
        Anguilla                       -        1        -        1        -   Germany                10,083     10,256      9,794     10,279     12,916
        Antigua and Barbuda            -        -        1        -        1   Ghana                       -          1          -          -          1
        Argentina                     39       52       46       47       60   Gibralter                   -          1          3          1          -
        Armenia                        3        1        1        1        2   Greece                     22         26         25         26         59
        Australia                  1,413    1,493    1,485    1,717    1,940   Greenland                   -          -          -          3          -
        Austria                      575      553      572      729      850   Guatemala                   1          -          4          1          2
        Azerbaijan                     1        2        2        -        -   Honduras                    -          2          -          -          -
        Bahamas                        7        3        5        6        9   Hungary                    41         55         68         53         92
        Bahrain4                       -        -        -        -        1   Iceland                    22         20         23         26         22
        Bangladesh                     -        -        1        -        -   India                     470        560        650        678      1,076
        Barbados                       2        2        2        3        2   Indonesia                  11         16         21         20          5
        Belarus                        3        7        8        6        7   Iran                        -          4          3          6          7
        Belgium                      665      629      602      677      853   Iraq                        -          -          1          -          -
        Belize                         -        -        -        1        -   Ireland                   186        174        174        180        260
        Benin                          -        1        -        -        -   Israel                  1,231      1,218      1,322      1,426      1,828
        Bermuda                        -        6        1        -        2   Italy                   1,817      1,791      1,890      1,842      2,149
        Bolivia                        -        -        1        -        1   Jamaica                     -          1          2          4          4
        Bosnia and Herzegovina         -        -        -        2        -   Japan                  36,482     36,658     35,847     37,879     44,893
        Brazil                       152      112      131      146      209   Jordan                      1          1          1          1          -
        British Virgin Islands         5        1        1        4        -   Kazakhstan                  1          3          -          2          1
        Brunei Darussalam              -        -        -        1        -   Kenya                       4          1          2          6          4
        Bulgaria                       4        3       18       31       57   Korea, Republic of      5,835      6,882      8,410      9,401     11,811
        Burkina Faso                   -        -        -        1        -   Kuwait                      6          7         12         12         17
        Cameroon                       -        1        -        1        4   Kyrgyzstan                  -          -          1          -          -
        Canada                     3,743    3,974    4,052    4,361    5,223   Latvia                      2          2          2          4          5
        Cayman Islands                 -       12        2        1        3   Lebanon                     2          2          5          4          5
        Chad                           -        -        1        -        -   Liechtenstein              13         14         15         20         18
        Chile                         12       25       19       28       23   Lithuania                   6          9         13          4          7
        China (Hong Kong)            717      733      738      576      725   Luxembourg                 48         58         40         55         50
        China (Macau)                  3        -        2        1        2   Macedonia                   -          -          -          1          -
        China (Mainland)             868    1,139    1,684    2,195    3,060   Malaysia                  124        154        179        173        230
        Colombia                       7        8        9       11       10   Malta                       1          1          2          7          3
        Costa Rica                    29       14       17       14       13   Mauritius                   -          -          1          -          -
        Croatia                       17       15       14       19        9   Mexico                     93         89         78         82        105
        Cuba                           2        2        6        5        8   Monaco                      9         13          9          8          9
        Cyprus                         4        4        1        2        5   Morocco                     4          1          3          4          1
        Czech Republic                28       39       58       48       79   Namibia                     -          -          1          -          -
        Denmark                      547      494      573      512      706   Netherlands             1,504      1,594      1,670      1,634      1,822
        Dominican Republic             3        2        3        5        3   Netherlands Antilles        -          1          -          -          1
        Ecuador                        2        5        3        3        5   New Zealand               159        157        180        179        243
        Egypt                          3       10        6        2       14   Nigeria                     -          1          1          -          -
        El Salvador                    2        -        -        -        1   Norway                    250        285        288        303        414
        Estonia                        4       10        2        4       11   Oman                        1          -          2          4          2
        Ethiopia                       -        1        -        -        -   Pakistan                    3          4          6          5          2
        Fiji                           -        1        -        -        -   Panama                      -          -          1          3          4
        Finland                      946      967      894      974    1,223   Paraguay                      1          -          -          -       1



134	                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                                                                O t h e r A c c o mpa n y i n g I n format ion




       TA B L E 1 0             PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
        C O N T.                                           (FY 2006 - FY 2010) 2

  Residence                       2006       2007        2008       2009       2010         Residence                      2006       2007          2008     2009         2010

  Peru                                  2          2           1          8          1     Sweden                            1,255      1,298        1,249    1,230        1,509
  Philippines                          30         26          22         24         33     Switzerland                       1,295      1,283        1,340    1,428        1,833
  Poland                               26         37          64         50         48     Syrian Arab Rep                       3          1            -        -            -
  Portugal                             18         16          30         18         28     Taiwan                            7,356      7,569        7,424    7,958        9,202
  Qatar                                 2          -           1          1          1     Tanzania                              -          -            -        -            -
  Romania                              11         11          11          7         17     Thailand                             38         29           38       32           58
  Russian Federation                  169        183         186        206        246     Trinidad & Tobago                     3          1            -        3            5
  Saint Kitts & Nevis                   -          -           1          -          -     Tunisia                               1          1            2        -            2
  Samoa                                 -          4           -          -          2     Turkey                               24         19           35       32           49
  Saudi Arabia                         21         23          28         20         51     Turks and Caicos Islands              1          1            1        -            -
  Senegal4                              -          -           -          -          1     Ukraine                              27         14           16       21           12
  Serbia2                               2          6           2          5          4     United Arab Emirates                  7          5            6       10            7
  Seychelles                            -          2           1          -          -     United Kingdom                    3,978      4,100        3,882    3,904        4,830
  Singapore                           424        457         426        496        591     Uruguay                               1          3            3        5            5
  Slovakia                              2          8          13         13         15     Uzbekistan                            1          -            -        -            -
  Slovenia                             21         23          17         27         26     Venezuela                            14         13           19       11           16
  South Africa                        123        117         111        148        143     Vietnam                               -          1            -        2            2
  Spain                               373        350         386        415        484     Zimbabwe                              1          1            -        4            -
  Sri Lanka                             1          5           1          6          4

  -	 Represents zero.	
  1	   Data includes utility, design, plant, and reissue patents. Country listings include possessions and territories of that country unless separately listed in the table.
  2	   Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated during the year. It is not uncommon for
       the withdrawal status of patents issued in prior years to change.
  3	   Each patent grant is listed under only one country of residence.
  4	   Countries/Territories not previously reported.




                                         STATUTORY INVENTION REGISTRATIONS PUBLISHED
       TA B L E 1 1
                                                        (FY 2006 - 2010)
  Assignee                                                                 2006                  2007                  2008                  2009                   2010

  Air Force                                                                    8                   7                     3                      2                     -
  Army                                                                         -                   -                     -                      -                     -
  Energy                                                                       -                   -                     -                      -                     -
  Navy                                                                        13                   4                     6                      3                     5
  Health & Human Services                                                      -                   -                     -                      -                     -
  USA1,2                                                                       -                   -                     -                      -                     -
  Other Than U.S. Government                                                  20                  16                    12                      4                    12
  	     Total                                                                 41                  27                    21                      9                    17

  -	 Represents zero.
  1	   United States of America - no agency indicated in database.
  2	   Past year’s data may have been revised from prior year reports.




www.uspto.gov	                                                                                                                                                                     135
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 1 2                        UNITED STATES GOVERNMENT AGENCY PATENTS 1
                                                              (FY 2006 - FY 2010) 3
        Activity                                           2006                  2007                 2008                  2009               2010            TOTAL

        Agriculture                                           35                   30                    27                   24                 39              155
        Air Force                                             58                   33                    36                   45                 51              223
        Army                                                 167                  155                   134                  119                136              711
        Attorney General                                       1                    -                     -                    -                  1                2
        Commerce                                               5                    2                     3                    5                 10               25
        Energy                                                23                   22                    20                   17                 42              124
        EPA                                                   11                    9                    10                    9                  9               48
        FCC                                                    -                    -                     -                    -                  -                0
        HEW/HHS                                              108                  116                   101                  105                128              558
        Interior                                               2                    6                     1                    4                  4               17
        NASA                                                  74                   65                    72                   86                 89              386
        Navy                                                 267                  255                   241                  230                284            1,277
        NSA                                                   16                   11                    16                   15                 24               82
        NSF                                                    0                    1                     0                    -                  1                2
        Postal Service                                        14                   15                    19                   14                 37               99
        State Department                                       -                    -                     0                    -                  -                0
        Transportation                                         -                    -                     0                    -                  1                1
        TVA                                                    1                    -                     1                    -                  1                3
        USA2                                                   2                    1                     3                    3                  5               14
        VA                                                     2                    5                     8                   10                  9               34
        Total                                                786                  726                   692                  686                871            3,761

        -	 Represents zero.
        1	   Data in this table represent utility patents assigned to agencies at the time of patent issue. Data subject to minor revisions.
        2	   United States of America - no agency indicated in database.
        3	   Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated during the year. It is not uncommon
             for the withdrawal status of patents issued in prior years to change.




136	                                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                  O t h e r A c c o mpa n y i n g I n format ion




    TA B L E 1 3 A                             EX PARTE REEXAMINATION
                                                   (FY 2006 - FY 2010)
  Activity                                           2006     2007         2008             2009            2010

  Requests filed, total                              511       643         680               658            780
  	 By patent owner                                  129       124          87                67             63
  	 By third party                                   382       519         593               591            717
  	 Commissioner ordered                               -         -           -                 -              -

  Determinations on requests, total                  458       594         666               614            662
  	 Requests granted:
  		 By examiner                                     422       575         626               574            606
  		 By petition                                       5         2           -                                1
  	 Requests denied                                   31        17          40                40             55

  Requests known to have related litigation          229       369         316               372            347

  Filings by discipline, total                       511       643         680               658            780
  	 Chemical                                         118       133         138               120            137
  	 Electrical                                       228       275         305               335            414
  	 Mechanical                                       165       235         237               203            229

  -	 Represents zero.




    TA B L E 1 3 B                            INTER PARTES REEXAMINATION
                                                    (FY 2006 - FY 2010)
  Activity                                           2006     2007         2008             2009            2010

  Requests filed, total                               70       126         168               258            281

  Determinations on requests, total                   47       119         150               229            231
  	 Requests granted:                                 43       118         142               218            224
  		 By examiner                                      43       118         142               217            224
  		 By petition                                       -         -           -                 1              -
  	 Requests denied                                    4         1           8                11              7

  Requests known to have related litigation           32        81         115               220            196

  Filings by discipline, total                        70       126         168               258            281
  	 Chemical                                          17        30          38                35             45
  	 Electrical                                        27        53          67               153            174
  	 Mechanical                                        26        43          63                70             62

  -	 Represents zero.




www.uspto.gov	                                                                                                             137
Othe r Accompany i ng I nf o rm ati o n




            TA B L E 1 4                                    SUMMARY OF CONTESTED PATENT CASES
                                                           (Within the USPTO, as of September 30, 2010)
        Item                                                                                                     Total

        Ex parte cases
        Appeals
        	 Cases pending as of 9/30/09                                                                           12,5811
        	 Cases filed during FY 2010                                                                            12,582

        	 Disposals during FY 2010, total
        	 Decided, total                                                                                         7,312
        		 Affirmed                                                                                              3,565
        		 Affirmed-in-Part                                                                                      1,044
        		 Reversed                                                                                              2,158
        		 Dismissed/Withdrawn                                                                                     180
        		 Remanded                                                                                                365

        	   Cases pending as of 9/30/10                                                                         17,851


        Rehearings
        	 Cases pending as of 9/30/10                                                                               44


        Inter partes cases
        	 Cases pending as of 9/30/09                                                                               44
        	 Cases declared or reinstituted during FY 2010                                                             52
        		 Inter partes cases, FY 2010 total                                                                        96

        	   Cases terminated during FY 2010                                                                         50
        	   Cases pending as of 9/30/10                                                                             46

        1	 Past years data has been revised from prior year reports.




138	                                                                    Performance and accountability Report: Fiscal Year 2010
                                                                                                                                               O t h e r A c c o mpa n y i n g I n format ion




        TA B L E 1 5                            SUMMARY OF TRADEMARK EXAMINING ACTIVITIES
                                                            (FY 2006 - FY 2010)
  Item                                                                                                 2006                2007                2008                2009               2010

  Applications for Registration:
  	 Applications including Additional Classes                                                         354,775             394,368              401,392             352,051           368,939
  	 Applications Filed                                                                                275,790             298,796              302,253             266,939           280,649

  Disposal of Trademark Applications:
  	 Registrations including Additional Classes                                                        188,899             194,327              274,250             241,637           221,090
  	 Abandonments including Additional Classes                                                         126,884             129,200              156,093             189,687           151,027
  Trademark First Actions including Additional Classes                                                405,998             455,802              415,896             372,830           367,027
  Applications Approved for Publication including Additional Classes                                  288,042             344,617              345,067             320,246           307,001

  Certificates of Registration Issued:1
  	 1946 Act Principal Register                                                                         95,188              98,564             120,173             102,607            93,238
  	 Principal Register
  		 ITU-Statements of Use Registered                                                                  45,720              44,108               81,387              69,920            64,086
  	 1946 Act Supplemental Register                                                                      6,210               7,392                8,344               7,993             7,006
  Total Certificates of Registration                                                                  147,118             150,064              209,904             180,520           164,330

  Renewal of Registration:*
  	 Section 9 Applications Filed                                                                        36,939              40,786              42,388              43,953            48,214
  	 Section 8 Applications Filed**                                                                      36,952              40,798              42,395              43,868            48,275
  	 Registrations Renewed                                                                               37,305              47,336              42,159              42,282            46,734
  Affidavits, Sec. 8/15:
  	 Affidavits Filed                                                                                   48,444              49,241               68,470              65,322            61,499
  	 Affidavits Disposed                                                                                45,676              55,888               65,222              63,483            58,510
  Amendments to Allege Use Filed                                                                       10,007               9,646                9,140               8,633             7,629
  Statements of Use Filed                                                                              67,543              76,866               96,415              90,493            80,927
  Notice of Allowance Issued                                                                          164,752             172,422              220,333             181,702           169,085

  Total Active Certificates of Registration                                                         1,322,155           1,380,150           1,497,131           1,547,168          1,614,121

  Pendency - Average Months:
  	 Between Filing and Examiner’s First Action                                                              4.8                  2.9                   3                 2.7               3.0
  	 Between Filing, Registration (Use Applications)
  	 Abandonments and NOAs - including suspended and inter                                                  18.0                15.1                13.9                 13.5              13.0
  		 partes proceedings
  	 Between Filing, Registration (Use Applications)
  		 Abandonments and NOAs - excluding suspended and                                                       15.5                13.4                11.8                 11.2              10.5
  			 inter partes proceedings

  - Represents zero.
  1	    With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count includes extra classes.
  	     “Applications filed” refers simply to the number of individual trademark applications received by the USPTO. There are, however, 47 different classes of items in which a trademark may
        be registered. An application must request registration in at least one class, but may request registration in multiple classes. Each class application must be individually researched
        for registerability. “Applications filed, including additional classes” reflects this fact, and therefore more accurately reflects the Trademark business workload. With the exception of
        Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count includes extra classes.
  *	    Renewal of registration is required beginning 10 years following registration concurrent with 20 - year renewals coming due.
  **	   Section 8 Affidavit is required for filing a renewal beginning October 30, 1999 (FY 2000) with the implementation of the Trademark Law Treaty.




www.uspto.gov	                                                                                                                                                                                      139
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 1 6                  TRADEMARK APPLICATIONS FILED FOR REGISTRATION
                                            AND RENEWAL AND TRADEMARK AFFIDAVITS FILED
                                                         (FY 1990 - FY 2010)
                         Year                             For Registration                           For Renewal1                         Section 8 Affidavit

                         1990                                  127,294                                    6,602                                   20,636
                         1991                                  120,365                                    5,634                                   25,763
                         1992                                  125,237                                    6,355                                   20,982
                         1993                                  139,735                                    7,173                                   21,999
                         1994                                  155,376                                    7,004                                   20,850
                         1995                                  175,307                                    7,346                                   23,497
                         1996                                  200,640                                    7,543                                   22,169
                         1997                                  224,355                                    6,720                                   20,781
                         1998                                  232,384                                    7,413                                   33,231
                         1999                                  295,165                                    7,944                                   33,104
                         2000                                  375,428                                   24,435                                   28,920
                         2001                                  296,388                                   24,174                                   33,547
                         2002                                  258,873                                   34,325                                   39,484
                         2003                                  267,218                                   35,210                                   43,151
                         2004                                  298,489                                   32,352                                   41,157
                         2005                                  323,501                                   39,354                                   47,752
                         2006                                  354,775                                   36,939                                   48,444
                         2007                                  394,368                                   40,786                                   49,241
                         2008                                  401,392                                   42,388                                   68,470
                         2009                                  352,051                                   43,953                                   65,322
                         2010                                  368,939                                   48,214                                   61,499

        1	   Renewal of registration term changed with implementation of the Trademark Law Reform Act (P.L. 100-667) beginning November 16, 1989 (FY1990).




140	                                                                              Performance and accountability Report: Fiscal Year 2010
                                                                                                                        O t h e r A c c o mpa n y i n g I n format ion




       TA B L E 1 7                            SUMMARY OF PENDING TRADEMARK APPLICATIONS
                                                                (FY 2010)
  Stage of Processing                                                                                    Application Files                Classes

  Pending applications, total                                                                                 413,804                      575,720

  In preexamination processing                                                                                 61,551                       76,701

  Under examination, total                                                                                    274,658                      392,702
  	 Applications under initial examination                                                                     84,673                      123,625
  		 Amended, awaiting action by Examiner                                                                      81,691                      119,904
  		 Awaiting first action by Examiner                                                                          2,982                        3,721
  	 Intent-To-Use applications pending Use                                                                    148,164                      207,021
  	 Applications under second examination                                                                       8,785                       11,894
  		 Administrative processing of Statements of Use                                                                79                           94
  		 Undergoing second examination                                                                              2,709                        3,560
  		 Amended, awaiting action by Examiner                                                                       5,997                        8,240
  	 Other pending applications1                                                                                33,036                       50,162

  In post-examination processing                                                                               77,595                      106,317
   (Includes all applications in all phases of publication and issue and registration)

  1	   Includes applications pending before the Trademark Trial and Appeal Board, and suspended cases.




www.uspto.gov	                                                                                                                                                   141
Othe r Accompany i ng I nf o rm ati o n




              TA B L E 1 8                  Trademarks Registered, Renewed, and Published
                                                        Under Section 12(c) 1
                                                          (FY 1990 - FY 2010)
                Year                   Certificates of Regis. Issued                          Renewed2                         Registrations (Incl. Classes)

                1990                                56,515                                        7,122                                             -
                1991                                43,152                                        6,416                                             -
                1992                                62,067                                        5,733                                             -
                1993                                74,349                                        6,182                                       86122
                1994                                59,797                                        6,136                                      68,853
                1995                                65,662                                        6,785                                      75,372
                1996                                78,674                                        7,346                                      91,339
                1997                                97,294                                        7,389                                     112,509
                1998                                89,634                                        6,504                                     106,279
                1999                                87,774                                        6,280                                     104,324
                2000                               106,383                                        8,821                                     127,794
                2001                               102,314                                       31,477                                     124,502
                2002                               133,225                                       29,957                                     164,457
                2003                               143,424                                       34,370                                     185,182
                2004                               120,056                                       34,735                                     155,991
                2005                               112,495                                       32,279                                     143,396
                2006                               147,118                                       37,305                                     188,899
                2007                               150,064                                       47,336                                     194,327
                2008                               209,904                                       42,159                                     274,250
                2009                               180,520                                       42,282                                     241,637
                2010                               164,330                                       46,734                                     221,090

         -	 Represents zero.
         1	   Includes withdrawn numbers.
         2	   Includes Renewal of registration term changed with implemention of the Trademark Law Reform Act (P.L. 100-667) beginning November 16, 1989 (FY 1990).




142	                                                                               Performance and accountability Report: Fiscal Year 2010
                                                                                                                O t h e r A c c o mpa n y i n g I n format ion




       TA B L E 1 9           TRADEMARK APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES
                                                         (FY 2010)
  State/Territory                        2010                  State/Territory                 2010     State/Territory                2010

  Total                                289,275                 Kentucky                         1,590   Oklahoma                       1,345
                                                               Louisiana                        1,632   Oregon                         3,128
  Alabama                                 1,496                Maine                             742    Pennsylvania                   8,609
  Alaska                                    219                Maryland                         4,907   Rhode Island                   1,221
  Arizona                                 5,350                Massachusetts                    7,878   South Carolina                 1,823
  Arkansas                                1,059                Michigan                         5,605   South Dakota                     425
  California                            61,589                 Minnesota                        5,979   Tennessee                      3,862
  Colorado                                6,057                Mississippi                       598    Texas                         17,044
  Connecticut                             4,413                Missouri                         4,003   Utah                           3,206
  Delaware                                2,757                Montana                           641    Vermont                          604
  District of Columbia                    2,554                Nebraska                         1,273   Virginia                       6,715
  Florida                               20,228                 Nevada                           4,936   Washington                     5,993
  Georgia                                 7,622                New Hampshire                    1,125   West Virginia                    322
  Hawaii                                    804                New Jersey                      11,948   Wisconsin                      3,807
  Idaho                                     833                New Mexico                        822    Wyoming                          305
  Illinois                              12,975                 New York                        29,416   Puerto Rico                      393
  Indiana                                 3,252                North Carolina                   5,481   Virgin Islands                    29
  Iowa                                    1,349                North Dakota                      218    U.S. Pacific Islands1             26
  Kansas                                  1,474                Ohio                             7,438   United States2                   155

  1	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
  2	   No state indicated in database, includes APO filings.




www.uspto.gov	                                                                                                                                           143
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 2 0                TRADEMARKS REGISTERED TO RESIDENTS OF THE UNITED STATES 1
                                                                (FY 2010)
        State/Territory                        2010                  State/Territory                  2010               State/Territory               2010

        Total                                132,475                 Kentucky                            493             Oklahoma                        575
                                                                     Louisiana                           550             Oregon                         1,276
        Alabama                                   501                Maine                               339             Pennsylvania                   2,679
        Alaska                                     76                Maryland                          1,535             Rhode Island                    326
        Arizona                                 1,657                Massachusetts                     2,004             South Carolina                  551
        Arkansas                                  218                Michigan                          2,140             South Dakota                    189
        California                            15,059                 Minnesota                         2,377             Tennessee                      1,147
        Colorado                                1,994                Mississippi                         176             Texas                          5,007
        Connecticut                             1,060                Missouri                          1,523             Utah                           1,185
        Delaware                              25,726                 Montana                             253             Vermont                         204
        District of Columbia                      810                Nebraska                            449             Virginia                       2,022
        Florida                                 6,227                Nevada                            3,039             Washington                     2,154
        Georgia                                 2,487                New Hampshire                       310             West Virginia                   128
        Hawaii                                    289                New Jersey                        3,134             Wisconsin                      1,614
        Idaho                                     305                New Mexico                          250             Wyoming                         231
        Illinois                                3,959                New York                          7,644             Puerto Rico                      93
        Indiana                                 1,272                North Carolina                    1,756             Virgin Islands                   26
        Iowa                                      621                North Dakota                        139             U.S. Pacific Islands2            21
        Kansas                                    648                Ohio                              2,830             United States3                19,197

        1	   When a trademark is registered, the trademark database is corrected to indicate the home state of the entity registering the trademark.
        2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.				
        3	   No state indicated in database, includes APO filings.




144	                                                                                   Performance and accountability Report: Fiscal Year 2010
                                                                                                      O t h e r A c c o mpa n y i n g I n format ion




     TA B L E 2 1                 TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                                       (FY 2006 - FY 2010)
  Residence                2006     2007      2008     2009     2010     Residence                 2006     2007     2008     2009     2010
  Total                    71,551    84,072   86,882   77,448   79,664   Cyprus                       115       88      101      115      151
                                                                         Czechoslovakia               164      212      256      266      164
  Afghanistan                   3         2        2        9        3   Denmark                      886      922    1,197      997      884
  Albania                      19         1        3        -        -   Dominica                       6        2        9        -        2
  Algeria                       -         1        -        -        -   Dominican Republic            64       70       77       50       79
  Andorra                       7         2        1        8        7   Ecuador                       15       28       24       32       27
  Angola                        -         -        -        -       11   Egypt                          8       11       11       14       27
  Anguilla                      8         4        7       23        3   El Salvador                   31       69       56       34       36
  Antarctica                    -         -        1        -        -   Estonia                       24       26       35       48       64
  Antigua & Barbuda            97         2       20        4       18   Ethiopia                       -        -        2        1        -
  Argentina                   228       253      266      223      279   Faroe Islands                  -        -       12        1        -
  Armenia                      22         5        4       10        7   Fiji                           1        3        1        -        6
  Aruba                         -        18        1        3        3   Finland                      476      548      526      547      746
  Australia                 2,593     3,685    3,164    3,025    3,004   France                     4,843    5,460    6,254    5,620    6,176
  Austria                   1,125     1,187    1,344    1,181      980   French Polynesia               9        9        3        2        -
  Azerbaijan                    -         2        3        -        -   Georgia                        4        2        3       11        8
  Bahamas                     192       218      152      121       99   Germany                    9,896   11,455   12,686   11,345   10,300
  Bahrain                       7        17       11       19       20   Ghana                          -        -        2        1        -
  Bangladesh                    -        10        3        4        1   Gibraltar                     50       59       32       52       30
  Barbados                    177       322      310      164      274   Greece                       120      126      244      137      209
  Belarus                       3        16       20       10       46   Greenland                      5        -        -        -        -
  Belgium                     606       804      869      997      788   Grenada                        1        1        -        -        -
  Belize                       52        30       19       20       20   Guadeloupe                     -        2        -        -        3
  Bermuda                     234       353      296      178      164   Guatemala                     31       56       39       29       27
  Bhutan                        -         1        -        -        -   Guinea                         -        -        1        -        3
  Bolivia                       -         3        5        8        3   Guyana                         5        2        7        1        -
  Bosnia & Herzegovinia         -         2        -        1        1   Haiti                          3        2        1        -        5
  Botswana                      -         -        -        3        1   Honduras                      19        5        9       17       15
  Brazil                      445       525      517      477      546   Hungary                      115      135       77      155      118
  British Virgin Islands      665       625      623      498      558   Iceland                       74      140      240       87       67
  Brunei Darussalam             2         3        3        8       13   India                        346      412      697      461      645
  Bulgaria                     81       145      101       95       77   Indonesia                     32       35       62       64       51
  Burkina Faso2                 -         -        -        -        1   Iran                          13        9       39       27       38
  Cambodia                      1         -        -        2        1   Iraq                           -        -        -        4        -
  Cameroon                      8         -        -        -        -   Ireland                      488      634      724      441      567
  Canada                    8,337     9,127    9,614    8,354    8,707   Isle of Man                   59       82      101       36       82
  Cape Verde                    1         1        -        -        -   Israel                       614      761      764      679      598
  Cayman Islands              134       296      360      390      263   Italy                      4,057    4,912    4,395    4,203    3,770
  Channel Islands              67       104       68       37       73   Jamaica                       55       32       49       53       14
  Chile                       161       201      206      185      193   Japan                      4,705    5,258    4,764    4,832    4,633
  China (Hong Kong)         1,113     1,305    1,211    1,162    1,190   Jordan                        14       15       23       21       28
  China (Macau)                 -         1        -        -        1   Kazakhstan                     -        5        7        -        -
  China (mainland)          1,784     2,364    2,262    2,096    2,808   Kenya                         13        1        3        2        9
  Colombia                    185       249      187      183      185   Korea, Dem. Republic of        3        2        -        1        6
  Cook Islands                  6         -        -        5        4   Korea, Republic of         1,207    1,599    1,566    1,554    2,069
  Costa Rica                   73        68      100       66       91   Kuwait                        12       37       37       16       20
  Croatia                      34        12       22       42       33   Latvia                        29       29       20       30       48
  Cuba                         11         3       13        6        1   Lebanon                       14        7       22       24       28




www.uspto.gov	                                                                                                                                  145
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 2 1                    TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
              C O N T.                                            (FY 2006 - FY 2010)
        Residence                     2006       2007       2008       2009        2010        Residence                      2006        2007      2008      2009     2010
        Liberia                             -          -          2          -          -      Saint Christ-Nevis                  10         26         31       16       6
        Liechtenstein                     180        202        247        240         99      Saint Lucia                          4          5         17       12      21
        Lithuania                          21          6         25         17         10      Saint Vincent/Grenadines             2          -          -        6      17
        Luxembourg                        403        403        550        499        888      Samoa                               11          6         11        5      15
        Macao                               4          2         20         12          5      San Marino                           4          4          3       17      10
        Macedonia                           2          8          7          -          8      Sao Tome/Principe2                   -          -          -        -       1
        Madagascar                          1          -          -          7          -      Saudi Arabia                        50         71         61       49      61
        Malaysia                           81         93        119        126        122      Scotland                           105         93         73       18      27
        Malta                              50         24         48         81         34      Senegal, Republic of                 2          -          1        -       -
        Marshall Islands                    4          -          5          4          4      Serbia/Montenegro                    -         42         11       14      38
        Martinique                          -          1          -          -          -      Seychelles                          23         24         27       26      19
        Mauritania                          -          -          -          1          -      Singapore                          355        503        479      526     470
        Mauritius                          61         63         32         28         39      Slovakia                            31         67         82       46      56
        Mexico                          1,487      1,592      1,484      1,393      1,790      Slovenia                            67        171        105      152      82
        Micronesia                          2          1          7          2          -      South Africa                       285        241        218      183     232
        Monaco                            147        158        113         81         96      Spain                            1,735      1,742      1,864    1,798   1,789
        Mongolia                            -          1          4          7          2      Sri Lanka                           21         16         33       15      17
        Morocco                            33         26         60         35         48      St. Kitts & Nevis                    3          -          -        -       -
        Mozambique                          -          4          -          -          -      Suriname2                            -          -          -        -       1
        Myanmar2                            -          -          -          -          1      Sweden                           1,127      1,521      1,482    1,222   1,467
        N. Mariana Island                   7          -          -          5          9      Switzerland                      3,687      4,692      4,772    3,883   4,750
        Namibia                             -          -          3          2          -      Syria                                3          1          6        7      14
        Nepal                               -          -          1          2          -      Taiwan                           1,427      1,257      1,283    1,221   1,359
        Netherlands                     2,133      2,367      2,618      2,220      2,387      Tanzania                             -          -          2        -       1
        Netherlands Antilles               56        130         76         68        113      Thailand                            80        155        206      146     105
        New Zealand                       513        648        534        486        482      Togo                                 1          -          5        -       -
        Nicaragua                           2          4          7          5          7      Trinidad & Tobago                   11         37          1       23      13
        Nigeria                             5         12          1         25          8      Tunisia                              3          6          2        7      14
        Norway                            354        616        630        835        556      Turkey                             461        632        602      511     363
        Oman                                2          1          2         11          5      Turks and Caicos Islands            24          4         13       10      30
        Pakistan                           20         25         27         19         17      Uganda                               -          -          3        1       -
        Palau                               -          -          -          1          -      Ukraine                             61         81         90       63     102
        Panama                            131         88        149        114        167      United Arab Emirates               150        171        307      212     135
        Papua New Guinea                    -          -          3          1          3      United Kingdom                   7,557      9,431      9,463    7,624   7,727
        Paraguay                           18          7         11          7          4      Uruguay                             37         57         35       35      47
        Peru                               40         46        101         49         38      Uzbekistan                           -          -          1        3       -
        Philippines                        86         55         62         66         54      Vanuatu (New Hebrides)               9         30          -        -       -
        Poland                            189        196        273        300        225      Venezuela                           61         77        120       35      38
        Portugal                          309        268        372        318        335      Vietnam                             41         40         61      101      71
        Qatar                              10         34         16         10         20      West Bank/Gaza2                      -          -          -        -       3
        Republic Moldova                   16         18          6          9         14      Yemen                                6          3          4        -       1
        Romania                            24         53         73         37         78      Yugoslavia                          36          8          4        -       3
        Russian Federation                380        441        733        676        650      Zimbabwe                             -          -          1        1       -
        Rwanda                              -          -          -          1          -      Other1                             183         35         16       33      11

        - 	 Represents zero.
        1	  Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization filings.
        2	 Countries/Territories not previously reported.




146	                                                                                  Performance and accountability Report: Fiscal Year 2010
                                                                                                     O t h e r A c c o mpa n y i n g I n format ion




     TA B L E 2 2                   TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
                                                      (FY 2006 - FY 2009)
  Residence                2006     2007     2008     2009     2010     Residence                 2006     2007     2008     2009     2010
  Total                    27,592   27,798   38,800   34,648   31,855   Cuba                          10        3       16        6       7
                                                                        Cyprus                        21       19       41       37      44
  Afghanistan                   3        3        5        2        3   Czechoslovakia                26       37       79       69      68
  Albania                       2        7        6        6        4   Denmark                      326      349      424      424     378
  Algeria                       1        4        3        3        3   Djibouti                       -        -        1        -       -
  Andorra                       6        2        2        1        1   Dominica                       -        4        2        1       1
  Angola, Republic of           1        -        1        2        -   Dominican Republic            18       29       32       25      26
  Anguilla                      5        2        8        5        7   East Timor                     -        2        -        -       -
  Antarctica                    1        1        -        -        -   Ecuador                       18       17       17       17      15
  Antigua & Barbuda            16       20       18       13        4   Egypt                         10        8        5        6       6
  Argentina                   123      130      182      131      127   El Salvador                   26       22       64       38      36
  Armenia                       7        7       19        6        8   Eritrea                        -        1        -        -       -
  Aruba                         1        2       18        5        -   Estonia                        5       12        9       13      16
  Australia                 1,030    1,076    1,609    1,383    1,295   Ethiopia                       1        1        3        1       4
  Austria                     267      273      397      367      322   Faroe Islands                  -        -        -        1       -
  Bahamas                      32       52       61       56       44   Fiji                           2        3        1        2       -
  Bahrain                       2        1        -        2        3   Finland                      173      203      218      221     196
  Bangladesh                    3        3        4        1        3   France                     2,055    2,046    2,638    2,278   2,154
  Barbados                     94       84      115       92       62   French Guiana                  -        1        1        -       -
  Belarus                       2        6       10       10        6   French Polynesia              20        7       10        2       -
  Belgium                     243      283      399      337      309   Georgia                        1        1        -        -       3
  Belize                        7       11       14        5       20   Germany                    3,866    3,708    4,674    4,409   3,759
  Benelux Convention            7        5        9       13        9   Ghana                          1        1        5        2       3
  Benin                         -        -        2        1        1   Gibraltar                     15       11       32       30      10
  Bermuda                     130      129      164      197      161   Greece                        27       40       68       53      52
  Bhutan                        -        -        1        -        -   Greenland                      -        1        -        -       1
  Bolivia                       4        4        4        5        7   Grenada                        -        1        -        -       -
  Bosnia & Herzegovina          -        -        1        1        -   Guatemala                     15       30        -        -      24
  Brazil                      195      164      235      227      188   Guyana                         4        2        4        5       -
  British Virgin Islands      211      242      381      323      302   Haiti                          8        1        6        2       5
  Brunei Darussalam             -        1        8        -        1   Honduras                       2        2       12        8      17
  Bulgaria                     30       46       47       26       24   Hungary                       38       39       45       36      64
  Burundi                       -        -        1        -        -   Iceland                       15       32       62       66      48
  Cambodia                      -        1        1        -        1   India                        126      129      186      213     202
  Cameroon                      1        1        -        2        2   Indonesia                     22       23       36       29      36
  Canada                    3,562    3,168    4,396    4,084    3,714   Iran                           5       12       16       13       9
  Cape Verde                    -        1        -        3        -   Iraq                           -        -        -        -       1
  Cayman Islands               86      129      146      170      151   Ireland                      175      165      264      260     211
  Channel Islands              22       25        5        2       15   Isle of Man                   11       12       10        7       -
  Chile                       109       86      145       84       97   Israel                       233      240      392      319     348
  China (Hong Kong)           373      424      633      521      502   Italy                      1,542    1,693    2,281    1,819   1,556
  China (Macau)                 -        -        -        2        5   Jamaica                       28       26       41       23      24
  China (mainland)            697    1,020    1,601    1,459    1,356   Japan                      2,197    2,216    2,941    2,453   2,344
  Colombia                     91       79      114      115      105   Jordan                         1        3        4       13       7
  Congo                         -        1        -        -        1   Kazakhstan                     2        -        1        1       -
  Cook Islands                  -        1        3        1        1   Kenya                          3        2        2        4       5
  Costa Rica                   18       16       24       27       36   Korea, Dem. Republic of        2        4        1        7       4
  Cote D'Ivoire                 1        -        -        1        -   Korea, Republic of           409      496      849      760     773
  Croatia                       9        8       22        8       10   Kuwait                         -        1        3        6       6




www.uspto.gov	                                                                                                                                147
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 2 2                        TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
              C O N T.                                             (FY 2006 - FY 2010)

        Residence                     2006       2007       2008     2009    2010    Residence                  2006     2007     2008     2009     2010
        Kyrgyzstan2                        -          -          -       -       1   Saint Lucia                     2        2        4        8       2
        Latvia                             6         10         17       6       8   Saint Vincent/Grenadines        4        -        1        2       1
        Lebanon                            6          7          7       6      12   San Marino                      1        3        4        2       7
        Liberia                            2          4          8      22      12   Saudi Arabia                   11       10       19       13      14
        Liechtenstein                     62         49         85      75      48   Scotland                       10        8       30       50      15
        Lithuania                          -          7          7       8       7   Senegal                         -        1        -        -       3
        Luxembourg                       103        131        168     184     177   Serbia                          -        -        -        -       4
        Macao                              3          1          -       -       -   Serbia/Montenegro               3        2        -        -       -
        Macedonia                          -          1          6       1       -   Seychelles                      1        5       11        8      12
        Malaysia                          37         52         58      57      63   Sierra Leone                    1        -        -        -       -
        Mali                               -          1          -       -       1   Singapore                     110      134      199      174     220
        Malta                              6          3         12       5      11   Slovakia                       11       12        9       26      12
        Marshall Islands                   1          2          3       3       6   Slovenia                       10       14       27       33      15
        Mauritius                         10         13         33      25      13   South Africa                    -        -      125      104     140
        Mexico                           544        589        952     830     736   Spain                         687      709    1,000      821     780
        Micronesia                         -          1          4       1       3   Sri Lanka                      10       13        7       21      13
        Monaco                            22         25         32      24      19   St. Kitts & Nevis               3        4        -        -       -
        Mongolia                           -          -          1       1       -   Sudan                           -        1        -        -       -
        Montenegro                         -          -          -       -       1   Swaziland                       1        5        1        4       -
        Morocco                            2          1          3       7       8   Sweden                        486      441      644      603     566
        Mozambique                         -          1          2       -       -   Switzerland                 1,427    1,345    1,953    1,672   1,338
        N. Mariana Island                  4          7          2       -       3   Syria                           1        3        2        2       -
        Namibia                            -          1          -       -       -   Taiwan                        768      820    1,096      845     782
        Nauru                              1          -          2       -       -   Tajikistan                      -        -        1        -       -
        Nepal                              -          -          -       1       -   Thailand                       65       57       82       71      53
        Netherlands                      879        788      1,001     931     883   Togo                            -        -        -        1       -
        Netherlands Antilles              30         33         47      32      39   Trinidad & Tobago              10        8       13        7      14
        New Zealand                      228        194        333     265     267   Tunisia                         -        -        3        3       3
        Nicaragua                          4          2          7       5       2   Turkey                        127      169      206      169     167
        Nigeria                            5          4         16      10       4   Turks and Caicos Islands        1        1        5        2       -
        Niue                               1          -          -       -       -   Uganda                          -        -        1        3       1
        Norway                            90        142        192     175     212   Ukraine                        22       19       33       18      30
        Oman                               -          1          -       -       1   United Arab Emirates           14       21       27       36      56
        Pakistan                           5          7         19      11      15   United Kingdom              2,384    2,246    3,136    3,098   3,010
        Panama                            45         63         98      58      68   Uruguay                        20       17       21       20      23
        Papua New Guinea                   -          -          1       1       -   Uzbekistan                      -        1        -        2       -
        Paraguay                           5          -          6       4       5   Vanuatu (New Hebrides)          3        1        4        1       -
        Peru                              13         26         49      57      26   Vatican City                    -        -        1        -       -
        Philippines                       34         27         42      50      41   Venezuela                      34       26       49       45      42
        Poland                            62         60        104     103      74   Vietnam                        50       32       42       34      39
        Portugal                          70         89        147     136     123   Western Samoa/Samoa             1        4        -        -       8
        Qatar                              1          1          9       6       9   Yemen                           -        -        2        1       1
        Republic Moldova                  11          4          8       3       2   Yugoslavia                      -        -        2        3       1
        Romania                           18         13         23      20      11   Zimbabwe                        -        -        2        2       -
        Russian Federation               132        118        168     162     154   Other1                         11        3       40       55      19
        Saint Christ & Nevis              10         10         16      26      26

        - 	 Represents zero.
        1	  Country of origin information not available.
        2	 Countries/Territories not previously reported.




148	                                                                           Performance and accountability Report: Fiscal Year 2010
                                                                                               O t h e r A c c o mpa n y i n g I n format ion




       TA B L E 2 3                    SUMMARY OF CONTESTED TRADEMARK CASES
                                        (Within the USPTO, as of September 30, 2010)
                                                                             Concurrent
  Activity                                Ex Parte       Cancellations          Use       Interference       Opposition   Total

  Cases pending as of 9/30/09, total       1,533     	       1,518       	       78            -         	     6,125       9,254
                                                                                               -
  Cases filed during FY 2010               2,895     	       1,374       	       21                      	     4,513       8,803
                                                                                               -
  Disposals during FY 2010, total          2,998     	       1,436       	       29                      	     5,185       9,648
  	 Before hearing                         2,677     	       1,410       	       28            -         	     5,076       9,191
  	 After hearing                            321     	          26       	        1            -         	       109         457
                                                                                               -
  Cases pending as of 9/30/10, total       1,430     	       1,456       	       70                      	     5,453       8,409
  	 Awaiting decision                         84     	           7       	        -            -         	        36         127
  	 In process before hearing1             1,346     	       1,449       	       70            -         	     5,417       8,282

  Requests for extension of time               -     	           -       	        -            -         	         -      15,424
  	 to oppose FY 2010

  -	 Represents zero.
  1	   Includes suspended cases.




www.uspto.gov	                                                                                                                          149
Othe r Accompany i ng I nf o rm ati o n




                                                 Actions on Petitions to the director of the
            TA B L E 2 4
                                                      U.s. Patent and Trademark office
                                                               (FY 2006 - FY 2010)
         Nature of Petition                                                                      2006              2007              2008      2009     2010
         Patent matters
         	 Actions on patent petitions, total                                                  41,271            51,420             51,774   51,482    51,649
         	 Acceptance of:
         		 Late assignments                                                                      477               619                621      628       773
         		 Late issue fees                                                                     1,195             1,787              1,819    1,792     1,720
         		 Late priority papers                                                                   16                 7                 10       13         5
         	 Access                                                                                   5                12                 12       42        14
         	 Certificates of correction                                                          23,129            28,715             26,878   25,527    27,611
         	 Deferment of issue                                                                      13                20                 21       20         9
         	 Entity Status Change                                                                   963             1,389              1,263    1,246     2,567
         	 Filing date                                                                          1,129             1,090                975      723       539
         	 Maintenance fees                                                                     2,038             2,355              2,774    1,949     2,173
         	 Revivals                                                                             6,075             8,279             10,339   11,478     9,326
         	 Rule 47 (37 CFR 1.47)                                                                1,492             1,864              1,837    2,583     2,259
         	 Supervisory authority                                                                  163               137                183      347       411
         	 Suspend rules                                                                          272               214                228      301       237
         	 Withdrawal from issue                                                                1,996             1,476              1,642    1,423     1,912
         	 Withdrawals of holding of aband.                                                     2,308             3,456              3,172    3,410     2,093
         Late Claim for Priority                                                                  788                981               986    1,121     1,094
         Withdraw as Attorney                                                                   3,030              5,246             6,164    6,133     5,237
         Matters Not Provided For (37 CFR 1.182)                                                  961                994             1,009    1,334     1,236
         To Make Special                                                                        2,018              3,913             4,653    4,797     4,264
         Patent Term Adjustment/Extension                                                         687                608               476    1,613    28,775
         Trademark matters
         	 Actions on trademark petitions, total                                               17,590            21,755             29,703   24,747    21,852
         		 Filing date restorations1                                                              65                72                 28       20        13
         		 Inadvertently issued registrations                                                    217               173                178      134       116
         		 Letters of Protest                                                                    722               735                876    1,011     1,003
               Madrid Petitions                                                                    13                19                 13       21        28
         		 Make special                                                                          185               205                121       94       225
         		 Reinstatements2                                                                       552               575              1,249      851       563
         		 Revive (reviewed on paper)                                                          4,379             4,275              6,524     2,526    1,096
               Revive (granted electronically)3                                                10,689            14,850             19,654    18,967   17,686
         		 Waive fees/refunds                                                                      7                11                 30        18       18
         		 Miscellaneous Petitions to the Director                                               580               749                940     1,008      971
         		 Board Matters                                                                          16                13                  9        11       16
         		 Post Registration Matters                                                             165                78                 81        86      117
         	 Petitions awaiting action as of 9/30
         		 Trademark petitions awaiting response                                                  275               166               56        72       51
         		 Trademark petitions awaiting action                                                    177               117               95         3        5
         		 Trademark pending filing date issues                                                    22                 2                -         -        -
         -	 Represents zero.
         1	 Trademark Applications entitled to a particular filing date; based on clear evidence of Trademark organization error.
         2	 Trademark Applications restored to pendency; inadvertently abandoned by the Trademark organization.
         3 	 The petition to revive numbers were not separated into two categories (paper versus electronic) in previous years.




150	                                                                                   Performance and accountability Report: Fiscal Year 2010
                                                                                                 O t h e r A c c o mpa n y i n g I n format ion




        TA B L E 2 5                                   CASES IN LITIGATION
                                 (Selected Courts of the United States, as of September 30, 2010)
                                                                             Patents   Trademarks         OED             Total

  United States District Courts
  	 Civil actions pending as of 9/30/09, total                                *100           1                3           *104
  	 Filed during FY 2010                                                       109           1                1            111
  	 Disposals, total                                                            96           2                2            100
  		 Reversed                                                                    -           -                -              -
  		 Remanded                                                                   68           -                -             68
  		 Dismissed                                                                  23           2                1             26
  		 SJ Granted -USPTO                                                           3           -                1              4
  		 SJ Granted - Opposing Party                                                 2           -                -              2
  		 Transfer                                                                    -           -                -              -
  Civil actions pending as of 9/30/10, total                                   113           0                2             115

  United States Courts of Appeals1
  	 Ex parte cases
  		 Cases pending as of 9/30/09                                              **29           7                2           **38
  		 Cases filed during FY 2010                                                 68           5                6             79
  		 Disposals, total                                                           48           9                5             62
  			 USPTO Affirmed                                                            24           4                -             28
  			 District Court Affirmed                                                    3           -                -              3
  			 Reversed                                                                   -           -                -              -
  			 Remanded                                                                   8           2                1             11
  			 Dismissed                                                                 13           3                2             18
  			 Vacated                                                                    -           -                -              -
  			 Transfer                                                                   -           -                2              2
  			 Mandamus Denied                                                            -           -                -              -
  			 Mandamus Granted                                                           -           -                -              -
  	 Total ex parte cases pending as of 9/30/10                                  49           3                3              55
  	 Inter partes cases
  		 Cases pending as of 9/30/09                                                 8        **11                -           **19
  		 Cases filed during FY 2010                                                  5          16                -             21
  		 Disposals, total                                                            9          17                -             26
  			 Affirmed                                                                   3           5                -              8
  			 Reversed                                                                   1           -                -              1
  			 Remanded                                                                   -           2                -              2
  			 Dismissed                                                                  3          27                -             30
  			 Transferred                                                                -           1                -              1
  	      Total inter partes cases pending as of 9/30/10                          4          10                -              14
  Total United States Courts of Appeals cases pending as of 9/30/10             53          13                -              69

  Supreme Court
  	 Ex parte cases
  		 Cases pending as of 9/30/09                                                 2           1       	        -               3
  		 Cases filed during FY 2010                                                  5           1       	        -               6
  		 Disposals, total                                                            5           1       	        -               6
  	      Cases pending as of 9/30/10, total                                      2           1                -               3
  Notices of Suit filed in FY 2010                                            1,878      2,195                -           4,073
  -	    Represents zero.
  1	    Includes Federal Circuit and others.
  *	    Increase to reflect cases served in FY 2010, but filed in FY 2009.
  **	   Decrease to reflect case disposed in FY 2009, but not reported.




www.uspto.gov	                                                                                                                            151
Othe r Accompany i ng I nf o rm ati o n




            TA B L E 2 6                                PATENT CLASSIFICATION ACTIVITY
                                                               (FY 2006 - FY 2010)
         Activity                                                                 2006       2007      2008      2009              2010

         Original patents professionally reclassified - completed projects         6,264    14,875    13,727     9,955          90,869

         Subclasses established                                                     498      1,466     1,037      631               1,429

         Reclassified patents clerically processed, total                         33,376   192,898   111,507    60,778         156,590
         	 Original U.S. patents                                                   9,740     4,991    25,903    18,765          52,036
         	 Cross-reference U.S. patents                                           23,636   187,907    85,604    42,013         104,554




            TA B L E 2 7           SCIENTIFIC AND TECHNICAL INFORMATION CENTER ACTIVITY
                                                          (FY 2010)
         Activity                                                                                                       Quantity

         Prior Art Search Services Provided:
         	 Automated Prior Art Searches Completed                                                                         33,521
         	 Genetic Sequence Searches Completed                                                                             7,809
         	 Number of Genetic Sequences Searched                                                                           25,683
         	 CRF Submissions Processed                                                                                      19,640
         	 PLUS Searches Completed                                                                                        54,129
         	 Foreign Patent Searches Completed                                                                               5,165

         Document Delivery Services Provided:
         	 Document Delivery/Interlibrary Loan Requests Processed                                                         22,853
         	 Copies of Foreign Patents Provided                                                                              9,721

         Information Assistance and Automation Services:
         	 One-on-One Examiner Information Assistance                                                                     22,820
         	 One-on-One Examiner Automation Assistance                                                                      20,300
         	 Patents Employee Attendance at Automation Classes                                                               4,722
         	 Foreign Patents Assistance for Examiners and Public                                                             8,514
         	 Examiner Briefings on STIC Information Sources and Services                                                     3,965

         Translation Services Provided for Examiners:
         	 Written Translations of Documents                                                                             4,434
         	 Number of Words Translated (Written)                                                                     15,723,728
         	 Documents Orally Translated                                                                                   2,305

         Total Number of Examiner Service Contacts                                                                       240,416

         Collection Usage and Growth:
         	 Print/Electronic (NPL) Collection Usage                                                                      1,327,439
         	 Print Books/Subscriptions Purchased                                                                             67,686
         	 Full Text Electronic Journal Titles Available                                                                   23,653
         	 Full Text Electronic Book Titles Available                                                                      45,222
         	 NPL Databases Available for Searching (est.)                                                                     1,573




152	                                                                         Performance and accountability Report: Fiscal Year 2010
                                                                    O t h e r A c c o mpa n y i n g I n format ion




       TA B L E 2 8                    END OF YEAR PERSONNEL 1
                                           (FY 2006 - FY 2010)
  Activity                                         2006     2007    2008         2009         2010

  Business
  	 Patent Business Line                           7,283    7,959   8,582        8,786         8,645
  	 Trademark Business Line                          906      954     936          930           862
  		 Total USPTO                                   8,189    8,913   9,518        9,716         9,507

  Examination Staff
  	 Patent Examiners
  		 UPR Examiners                                 4,779    5,376   5,955        6,143         6,128
  		 Design Examiners                                104      101     100           99            97
  			 Total UPR and Design Examiners               4,883    5,477   6,055        6,242         6,225
  	 Trademark Examining Attorneys                    413      404     398          388           378

  1	   Number of positions.




www.uspto.gov	                                                                                               153
Othe r Accompany i ng I nf o rm ati o n




             TA B L E 2 9 A                 Top 50 Trademark                TA B L E 2 9 B            Top 50 Trademark
                                               Applicants                                               Registrants
                                                 (FY 2010)                                                 (FY 2010)
        Name of Applicant                               Classes1          Name of Registrant                         Registrations
        JOHNSON & JOHNSON                                 664             MATTEL, INC.                                    470
        MATTEL, INC.                                      654             Johnson & Johnson                               213
        LG Electronics Inc.                               442             Disney Enterprises, Inc.                        189
        Disney Enterprises, Inc.                          367             IGT                                             157
        Bristol-Myers Squibb Company                      344             Harvey Ball Smile Limited                       107
        Sears Brands, LLC                                 325             SANOFI-AVENTIS                                   96
        Novartis AG                                       266             The Procter & Gamble Company                     94
        Milux Holding S.A.                                263             L'Oreal USA Creative, Inc.                       91
        HASBRO, INC.                                      230             LF, LLC                                          82
        Glaxo Group Limited                               226             FPL Group, Inc.                                  76
        sanofi-aventis                                    215             Novartis AG                                      76
        Lidl Stiftung & Co. KG                            208             AstraZeneca AB                                   69
        Target Brands, Inc.                               203             Samsung Electronics Co., Ltd.                    69
        Twentieth Century Fox Film Corporation            200             Novo Nordisk A/S                                 68
        The Procter & Gamble Company                      195             Lidl Stiftung & Co. KG                           66
        Cisco Technology, Inc.                            185             L'Oreal                                          66
        Hansen Beverage Company                           180             Hershey Chocolate & Confectionery Corpor         60
        Skechers U.S.A., Inc. II                          180             VIACOM INTERNATIONAL INC.                        58
        S. C. Johnson & Son, Inc.                         166             AMERICAN INTERNATIONAL GROUP, INC.               57
        American Express Marketing & Development          161             Conair Corporation                               57
        United Feature Syndicate, Inc.                    160             Twentieth Century Fox Film Corporation           54
        IGT                                               159             CHURCH & DWIGHT CO., INC.                        53
        Samsung Electronics Co., Ltd.                     155             Aristocrat Technologies Australia Pty Lt         50
        L'Oreal USA Creative, Inc.                        151             Callaway Golf Company                            50
        Research In Motion Limited                        150             DEJ HOLDINGS, LLC                                50
        The Wine Group LLC                                146             World Wrestling Entertainment, Inc.              50
        Abbott Laboratories                               142             Columbia Insurance Company                       49
        Swiss International Air Lines AG                  138             SBE Entertainment Group, LLC                     49
        Wal-Mart Stores, Inc.                             137             Schering-Plough HealthCare Products, Inc         49
        FPL Group, Inc.                                   133             Abercrombie & Fitch Trading Co.                  48
        Advance Magazine Publishers Inc.                  131             HEB GROCERY COMPANY, LP                          48
        Bally Gaming, Inc.                                131             Spin Master Ltd.                                 48
        Aldi Inc.                                         129             Takeda Pharmaceutical Company Limited            48
        Apple Inc.                                        129             For World Peace Pte Ltd                          47
        ALOXXI INTERNATIONAL CORPORATION                  126             Retail Royalty Company                           47
        Syngenta Participations AG                        126             Ford Motor Company                               46
        Akzo Nobel Coatings International B.V.            121             Nintendo of America Inc.                         46
        TSA Stores, Inc.                                  121             Societe des Produits Nestle S.A.                 46
        Harvey Ball Smile Limited                         119             EBSCO Industries, Inc.                           45
        WORLD WRESTLING ENTERTAINMENT, INC.               118             Frito-Lay North America, Inc.                    45
        Sony Corporation                                  116             JPMorgan Chase & Co.                             45
        Lockheed Martin Corporation                       115             Konami Gaming, Inc.                              45
        Source Interlink Magazines, LLC                   115             Video Gaming Technologies, Inc.                  45
        Bath & Body Works Brand Management, Inc.          114             WMS GAMING INC.                                  45
        PepsiCo, Inc.                                     114             Abbott Laboratories                              44
        Pfizer Inc.                                       114             Bayer Aktiengesellschaft                         44
        Humana Inc.                                       111             Product Partners, LLC                            44
        Eli Lilly and Company                             109             Boeing Management Company                        43
        Eco Product Group, LLC                            108             Edible Arrangements, LLC                         43
        Karsten Manufacturing Corporation                 107             LG Electronics Inc.                              43
        1	   Applications with Additional Classes.




154	                                                               Performance and accountability Report: Fiscal Year 2010
Glossary of Acronyms
and Abbreviation List
Glossary of Acronyms
and Abbreviation List

              AAO	     Agency Administrative Order

              ABC	     Activity Based Cost

              ACTA	    Anti-Counterfeiting Trade Agreement

              AIPA	    American Inventors Protection Act

              AIS	     Automated Information System

              APEC	    Asian-Pacific Economic Cooperation

              APO	     Army Post Office	

              ASEAN	   Association of South East Asian Nations

              BPAI	    Board of Patent Appeals and Interferences

              C&A	     Certification and Accreditation

              CAFTA	   Central American Free Trade Agreement

              CAO	     Chief Administrative Officer

              CFR	     Code of Federal Regulations

              CFS	     Consolidated Financial System

              CIPO	    Canadian Intellectual Property Office

              COOP	    Continuity of Operations Plan

              COTS	    Commercial-off-the-shelf (software)

              CPIC	    Capital Planning and Investment Control

              CS	      Commercial Service

              CSAM	    Cyber Security Assessment and Management

              CSRS	    Civil Service Retirement System

              CSSC	    Competitive Sourcing Steering Committee

              DEA	     Delegated Examining Authority

              DIPP	    Department of Industrial Policy and Promotion




156	                      Performance and accountability Report: Fiscal Year 2010
                                                                  G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




DKPTO	   Danish Patent and Trademark Office             FICA	       Federal Insurance Contributions Act

DOC	     Department of Commerce                         FHCS	       Federal Human Capital Survey

DOJ	     Department of Justice                          FIRST	      For Inspiration and Recognition of Science and
                                                                    Technology
DOL	     Department of Labor
                                                        FISMA 	     Federal Information Security Management Act
DOO	     Departmental Organization Order
                                                        FMFIA	      Federal Managers’ Financial Integrity Act
EAMS	    Enterprise Asset Management System
                                                        FMS	        Financial Management Services
EEO	     Equal Employment Opportunity
                                                        FPNG	       Fee Processing Next Generation
EEOC	    Equal Employment Opportunity Commission
                                                        FTA	        Free Trade Agreement
EFS	     Electronic Filing System
                                                        FTC	        Federal Trade Commission
EIG	     Excellence in Government
                                                        FY	         Fiscal Year
ENS	     Emergency Notification System
                                                        G8	         Group of Eight Countries
EPA	     Environmental Protection Agency
                                                        GAAP	       Generally Accepted Accounting Principles
EPO	     European Patent Office
                                                        GAO	        Government Accountability Office
ERA	     Enterprise Remote Access
                                                        GDP	        Gross Domestic Product
eRF	     eRed Folder
                                                        GIPA	       Global Intellectual Property Academy
ESU	     Examination Support Unit
                                                        GOSL	       Government of Sri Lanka
EVM	     Earned Value Management
                                                        GOTS	       Government-off-the-shelf
FAIP	    First Action Interview Program
                                                        GPRA 	      Government Performance and Results Act
FAIR	    Federal Activities Inventory Reform
                                                        GSA 	       U.S. General Services Administration
FASAB	   Federal Accounting Standards Advisory Board
                                                        H1N1	       Influenza A Virus
FAST	    First Action System for Trademarks
                                                        HCSP	       Human Capital Strategic Plan
FCIP	    Federal Career Intern Program
                                                        HR 	        Human Resources
FECA	    Federal Employees’ Compensation Act
                                                        IACB	       Indian Arts Crafts Board (Interior)
FEGLI	   Federal Employees Group Life Insurance
                                                        ID	         Identifications
FEHB	    Federal Employees Health Benefit Program
                                                        IDP	        Individual Development Plan
FEIR	    Foreign Examiner in Residence
                                                        IEIR	       International Examiners In Residence
FERS	    Federal Employees Retirement System
                                                        IG	         Inspector General
FFMIA	   Federal Financial Management Improvement Act




www.uspto.gov	                                                                                                                      157
G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




IIPI	         International Intellectual Property Institute                  OCIO	    Office of Chief Information Officer

IMPI	         Mexican Institute of Industrial Property                       OCR	     Office of Civil Rights

INPI	         Chile’s IP Office                                              OCS 	    Office of Corporate Services

INTA 	        International Trademark Association                            OGA 	    Office of Governmental Affairs

IP	           Intellectual Property                                          OGC 	    Office of General Counsel

IPAU	         IP Australia                                                   OHIM	    Office for Harmonization in the Internal Market

IPEC	         Intellectual Property Enforcement Coordinator                  OHR	     Office of Human Resources

IPIA	         Improper Payments Information Act                              OIG	     Office of the Inspector General

IPR 	          Intellectual Property Rights                                  OIPPE	   Office of Intellectual Property Policy and Enforcement

ISO	          International Organization for Standardization                 OMB	     Office of Management and Budget

IT 	           Information Technology                                        OPM	     Office of Personnel Management

ITA 	         Internal Trade Administration                                  OPT	     Office of Patent Training

ITU	          Intent-To-Use/Division Unit                                    PALM	    Patent Application Location and Monitoring

JPO 	         Japanese Patent Office                                         PAOs	    Property Accountability Officers

KIPO	         Korean Intellectual Property Office                            PAP	     Performance Appraisal Plan

MBDA	         Minority Business Development Agency                           PART 	   Program Assessment Rating Tool

MOU	          Memoranda of Understanding                                     PC	      Property Custodians

MTS	          Metric Tracking System                                         PCT 	    Patent Cooperation Treaty

N/A	          Not Available                                                  PDF 	    Portable Document Format

NAMM	         International Music Products Association                       PELP	    Patent Examiner Laptop Program

NASA	         National Aeronautics and Space Administration                  PFW 	    Patent File Wrapper

NIST	         National Institute of Standards and Technology                 PIF 	    Pacific Island Forum

NOAA	         National Oceanic and Atmospheric Administration                PMA	     President’s Management Agenda

NTEU	         National Treasury Employees Union                              POPA	    Patent Office Professionals Association

NTIA	         National Telecommunications and Information                    PPAC	    Patent Public Advisory Committee
              Administration
                                                                             PPH	     Patent Prosecution Highway
OBRA	         Omnibus Budget Reconciliation Act
                                                                             PTA	     Patent Training Academy
OCAO	         Office of the Chief Administration Officer
                                                                             PTOS	    Patent and Trademark Office Society
OCFO 	        Office of Chief Financial Officer




158	                                                                       Performance and accountability Report: Fiscal Year 2010
                                                                                    G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




Pub.L.	     Public Law                                                   TPP	         Trans-Pacific Partnership Agreement

QAS	       Quality Assurance Statement                                   TRAM 	       Trademark Reporting and Application Monitoring

RAM	       Revenue Accounting and Management System                      TRIPS	       Trade-Related Aspects of Intellectual Property Rights

RCE	       Requests for Continued Examinations                           TTAB	        Trademark Trial and Appeal Board

Rospatent	 Russian Federal Service for IP, Patents and Trademark         UK 	         United Kingdom

S&T	       Science and Technology                                        UK-IPO 	     United Kingdom Intellectual Property Office

SCCR	      Standing Committee on Copyright and Related Rights            UNECE 	      United Nations Economic Commission for Europe

SES	       Senior Executive Service                                      UNESCO	      United Nations Educational, Scientific, and
                                                                                      Cultural Organization
SFFAC 	    Statements of Federal Financial Accounting Concepts
                                                                         UPRD	        Utility, Plant, Reissue, Design
SFFAS	     Statements of Federal Financial Accounting Standards
                                                                         UPOV	        (International) Union for the Protection of New Varieties
SHARE	     Strategic Handling of Applications for Rapid Examination                   of Plants

SIPO 	     State Intellectual Property Office of the People’s Republic   U.S. 	       United States
           of China
                                                                         U.S.C. 	     United States Code
SITP 	     Strategic Information Technology Plan (USPTO)
                                                                         USG	         United States Government
SM 	       Service Mark
                                                                         USPTO 	      United States Patent and Trademark Office
SMEs 	     Small and Medium-sized Enterprises
                                                                         USTR 	       United States Trade Representative
SOP 	      Standard Operating Procedure
                                                                         VOIP	        Voice Over Internet Protocol
SPE	       Supervisory Patent Examiner
                                                                         WHO	         World Health Organization
SPECO	     Supervisory Patent Examiners and Classifiers Organization
                                                                         WIPO 	       World Intellectual Property Organization
STEM	      Science, Technology, Engineering, and Mathematics
                                                                         WTO 	        World Trade Organization
STOP!	     Strategy Targeting Organized Piracy!

TAC	       Trademark Assistance Center

TARR 	     Trademarks Application and Retrieval (TARR) System

TEAS 	     Trademark Electronic Application System

TC	        Technology Center

TI	        Transfer Inquiry

TIFA	      Trade and Investment Framework Agreements

TLT 	      Trademark Law Treaty (WIPO)

TMEP	      Trademark Manual of Examining Procedure




www.uspto.gov	                                                                                                                                        159
G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




160	                                                                       Performance and accountability Report: Fiscal Year 2010
                o wledgme
         k    n           n
     c                                                                 t
 A                                                                         S



                  T his Performance and Accountability Report was produced
                  with the energies and talents of the USPTO staff.

                  To these individuals we would like to offer our sincerest
                  thanks and acknowledgement.

                  In particular, we would like to recognize the following
                  organizations and individuals for their contributions:

Office of the Under Secretary and Director – Peter Pappas, Andrew Baluch,
Dianne Campbell, and Azam Khan; Office of the Chief Administrative Officer –
Karen Smith; Office of the Chief Financial Officer – Michelle Picard; Office of
Corporate Planning – Ali Emgushov and Candice Goodman; Office
of Finance – Shana Willard, Dennis Detar, and Mark Krieger; Office
of Public Affairs – Jennifer Rankin Byrne, Kenzie Snowden, and
Dennis Forbes; Office of External Affairs – Janette Brown, Kristine
Schlegelmilch, and Cherie Kazenske; Office of the Chief Information
Officer – Scott William and Maureen Brown; Office of the General
Counsel – Mary Kelly; Office of the Commissioner for Patents –
Kristen Overturf and David Fitzpatrick; Office of the Commissioner for
Trademarks – Robert Allen, Karen Strohecker, and Nabil Chbouki.

We would also like to acknowledge the Office of the Inspector General and
KPMG LLP for the professional manner in which they conducted the audit of the
FY 2010 Financial Statements.

We offer special thanks to AOC Solutions, Inc. and The DesignPond for their
outstanding contributions in the design and production of this report. To send
comments or get additional information about this report, please contact:

Office of Corporate Planning
600 Dulany Street
Alexandria, VA 22314
PARmail@uspto.gov
Phone: 571-272-3333
Fax: 571-273-0127
United States Patent and Trademark Office


            600 Dulany Street
        Alexandria, Virginia 22314



     www.uspto.gov
